<html>
<title> - ROLE OF COAST GUARD AND THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION IN STRENGTHENING SECURITY AGAINST MARITIME THREATS</title>
<body><pre>[Senate Hearing 107-1034]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1034

     ROLE OF COAST GUARD AND THE NATIONAL OCEANIC AND ATMOSPHERIC 
           ADMINISTRATION IN STRENGTHENING SECURITY AGAINST 
                            MARITIME THREATS

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON OCEANS, ATMOSPHERE, AND FISHERIES

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 11, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




89-798              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                  Mark Buse, Republican Staff Director
               Jeanne Bumpus, Republican General Counsel
                                 ------                                

           Subcommittee on Oceans, Atmosphere, and Fisheries

                 JOHN F. KERRY, Massachusetts, Chairman
ERNEST F. HOLLINGS, South Carolina   OLYMPIA J. SNOWE, Maine
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            GORDON SMITH, Oregon
BILL NELSON, Florida                 PETER G. FITZGERALD, Illinois


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 11, 2001.................................     1
Statement of Senator Kerry.......................................     1
Statement of Senator Nelson......................................    44
Statement of Senator Snowe.......................................     4

                               Witnesses

Gudes, Scott B., Acting Administrator, National Oceanic and 
  Atmospheric Administration.....................................    18
    Prepared statement...........................................    22
Larrabee, Richard M., Director, Port Commerce Department, the 
  Port Authority of NY & NJ......................................    57
    Prepared statement...........................................    59
Loy, Admiral James M., Commandant, U.S. Coast Guard, Accompanied 
  by Vice Admiral Thad W. Allen..................................     7
    Prepared statement...........................................    17
Monroe, Captain Jeffrey, Director, City of Portland, Ports and 
  Transportation.................................................    66
    Prepared statement...........................................    68
Petersen, Kim, Executive Director, Maritime Security Council.....    70
    Prepared statement...........................................    72
Watson, Captain Michael R., President, American Pilots' 
  Association....................................................    61
    Prepared statement...........................................    63

                                Appendix

Miniace, Joseph N., President and CEO, Pacific Maritime 
  Association, prepared statement................................    83
Response to Written Questions Submitted by Hon. John F. Kerry:
    Admiral James M. Loy.........................................    86
    Scott B. Gudes...............................................    87

 
                      ROLE OF COAST GUARD AND THE 
   NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION IN STRENGTHENING 
                   SECURITY AGAINST MARITIME THREATS

                              ----------                              


                       THURSDAY, OCTOBER 11, 2001

                                       U.S. Senate,
         Subcommittee on Oceans, Atmosphere, and Fisheries,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:35 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John F. 
Kerry, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. The hearing will come to order. Welcome, 
everybody. We are delighted to have you here this morning, and 
I welcome our colleague and Ranking Member, Senator Snowe. 
Today's hearing occurs coincidentally, but not unimportantly, 
on the 1-month anniversary of the attacks on September 11, and 
I want to thank all of our witnesses for being here today. It 
is especially good to see former First Coast Guard District 
Commander Rick Larrabee here. Thank you for being with us.
    Admiral Larrabee is now the Director of the Port Commerce 
Department for the New York-New Jersey Port Authority that was 
formerly located in Building 1 of the World Trade Center, and 
Admiral Larrabee was at ground zero on September 11 when the 
port authority lost 74 employees. Admiral, we thank you for 
your presence here. We are obviously happy you are here safe, 
but we extend the condolences of the Committee and the country 
for the loss of personnel experienced that day and in the 
entire New York-New Jersey metropolitan area.
    The events of the eleventh are still being brought into 
perspective by Americans in all walks of life. There is no 
American who is not constantly reminded of them one way or the 
other, but we are all united, as we know, in our efforts to 
respond appropriately, and to ultimately diminish to the 
greatest degree humanly possible the threats from those who 
would literally terrorize civil society.
    A normal day has taken on new meaning for people in 
Federal, State, and local agencies. Their duties, their 
responsibilities, the areas of their patrol and daily 
activities have changed, perhaps for a long time. Today the 
Coast Guard and NOAA will tell us exactly how their missions 
have changed and help this Committee to begin to make important 
judgments about how we are going to proceed forward and 
adequately carry out the extraordinary missions of the agencies 
of concern.
    Witnesses from the affected groups will provide their own 
observations about that today, and we particularly need to know 
how the shift to homeland defense may affect critical core 
activities of these entities, from search and rescue to oil 
spill preparedness and many other areas.
    I personally want to know more about how these agencies are 
going to be affected by the new Office of Homeland Security 
under Governor Ridge. While the office is intended to 
coordinate the actions of all of the various agencies involved 
in homeland security, we are still, many of us, concerned that 
it lacks a specific budget or a special funding. I am deeply 
concerned that without that authority we may be piling on 
additional work, increasing bureaucracy without necessarily 
providing the necessary resources, and that will be to the 
long-term disadvantage of our country.
    I hope Chairman Hollings will invite Governor Ridge to 
testify before the full Commerce Committee on how the Office of 
Homeland Security will affect the operating budgets of the 
agencies that are under Commerce Committee oversight, from the 
FAA to the Coast Guard, and I think it is particularly 
important for us to understand that rapidly.
    Let me emphasize why that is true, and I know Senator Snowe 
and other Members of the Committee will join me in expressing 
this concern. It is no secret, and many of us on this Committee 
have been deeply frustrated for the past years by the way in 
which the Coast Guard has had to struggle financially in order 
to do the duties which it has been assigned. In the past 10 
years, the United States Coast Guard has needed seven emergency 
supplementals. Seven out of 10 years, we have had emergency 
supplementals just to continue operations.
    The Coast Guard is the world's seventh largest navy, but it 
is ranked 39th in age among the world's 41 maritime fleets. 
Most of its cutters were built 30 years ago, and many of its 
aircraft were built in the 1970's and 1980's. The annual budget 
of $5 billion is less than 1/10th of the total budget of the 
Transportation Department, and literally only slightly more 
than the value of the drugs that were seized last year by the 
Coast Guard itself.
    No American should fail to take note of the fact that the 
Coast Guard was forced to cut back operations last year, and 
again this year, because of the lack of money. This is not an 
agency that can now assume additional responsibilities, though 
they are trying and doing an extraordinary job of managing. But 
we have to have significant infusion of resources and people, 
and the administration must know that, on a bipartisan basis, I 
and my colleagues will do everything in our power to guarantee 
that these agencies, and the Coast Guard particularly, are 
adequately funded in order to do the tasks expected of them.
    On the upside, the sort of good news side, Chairman 
Hollings has produced bipartisan port security legislation that 
will help establish the foundation for providing security in 
our ports and our waterways, and I fully support passing this 
legislation immediately. In addition, we have assisted the 
agency in its modernizing efforts from replacing patrol vessels 
to modernizing antiquated communications equipment and the deep 
water fleet. As a matter of fact, this year marks the first 
installment of a long overdue modernization of the Coast Guard 
by funding the integrated deep water program, which both 
Senator Snowe and I have pushed for these last years.
    Admiral Loy and Vice Admiral Allen, I thank you for 
activating the Reserve 307th Port Security Unit from St. 
Petersburg, and sending it on extraordinarily short notice up 
to Boston. I might say simply that we in Boston do not want to 
short-change the overall needs of the country, obviously, and 
the question looms large whether or not the number of port 
security units needed in the country now is adequately met. We 
would certainly support a proposal to have a mixture of active 
duty and reserve units, perhaps combined, to try to address 
this need.
    September 11 has affected NOAA as well. It is my 
understanding NOAA has supported the Coast Guard and other 
agencies in this national effort, and we need to know today 
whether or not NOAA is adequately equipped and funded to 
continue its critical mission of environmental protection and 
monitoring, particularly if there is a reduced Coast Guard 
presence.
    It is unclear how much longer our country will be under an 
increased security status. But I think it is safe to say from 
experience, and recognizing the long-term nature of a struggle 
against terrorism, that this new level of alert and the 
capacity to provide these longer term protections is for the 
long term also, and terrorists need to know that. That means 
that other aspects of our requirements must be attended to by 
other means, or by additional personnel and funding.
    We have been struggling throughout this Country, whether it 
is the California fleet or the Atlantic fleet, to maintain our 
fishing industry. That requires science, and it requires 
monitoring and enforcement. We cannot build a more secure 
United States of America by suddenly reducing all of that 
effort and losing those fisheries, ultimately to the cause of 
protecting us from terrorism.
    That would be a different kind of terrorist victory, if you 
will, and a different kind of terror that people would begin to 
know in the context of a loss of food supply and the longer 
term sustainability of the ecosystem. None of these can be 
diminished, and we need to understand that.
    We also need to understand that criminals who make their 
money today off of drugs will only see advantage and 
opportunity in the diversion of resources. We seek to protect 
the youth of this country and the fabric of our communities by 
proper levels of law enforcement and interdiction--that also is 
a means by which this country will stay strong, and so we need 
to continue to do that, too. In addition, we must provide for 
safe navigation and ensure the safety of people on the sea. 
Thus, we have to be able to plan for addressing the short, 
perhaps long-term absence from normal duties.
    For instance, already NOAA's maintenance of critical moored 
weather buoys has been affected. Coast Guard buoy tenders are 
no longer operational, and we see a buoy off of Massachusetts 
already dead in the water. This creates a huge problem for 
marine and weather forecasters as well as mariners and 
fishermen, who depend upon those buoys for real-time data to 
improve numerical models as well as to decide whether it is 
safe to leave port.
    So these are all extraordinarily important policy, budget, 
and coordination issues for this Committee and for the 
administration to ponder. I am confident that with common sense 
and with a reasoned, thoughtful approach, we can plug these 
holes and make the choices that are necessary. But, the 
important thing is to lay all of this on the table openly and 
candidly, and understand the demands as rapidly as possible so 
that we can develop long-term plans.
    Senator Snowe.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman. I want to thank you 
and commend you for holding this very timely hearing today. You 
have eloquently outlined, I think, many of the challenges that 
lie ahead for those of us who serve on this Subcommittee, and 
obviously Admiral Loy, as Commandant of the Coast Guard, as we 
look ahead at a much-transformed environment. I too, want to 
pay a special welcome to Admiral Rick Larrabee, who was so 
fortunate to be able to escape not once, but twice, from the 
World Trade Center. Once in the World Trade Center Tower from 
the 62nd floor and also at the Marriott Hotel that was between 
the two towers. I want to express my personal condolences to 
all of those who lost loved ones in that horrific event on that 
day.
    It is clear that September 11 has changed America forever. 
Terrorists obviously used our aviation system and airplanes as 
vehicles for violence. Today we have to focus on the Coast 
Guard and NOAA, and how we respond to that environment; and to 
ensure that our vast waterways and maritime commerce are 
secure.
    We are holding this hearing today to point the way to a new 
paradigm for our domestic security in this new era. Clearly, 
these are unprecedented times that call for unprecedented 
measures. That requires us to identify many of the weaknesses 
as well as our strengths, and to implement a strategy that 
allows the Coast Guard to reflect these realities of the 21st 
Century.
    I would have to say, Admiral Loy, at the outset that I was 
truly impressed by the robust steps and the quick response on 
the part of the Coast Guard on September 11. First by shutting 
down the Port of New York, then securing the harbor, and then 
utilizing some of your ships, and coordinating private ferries 
and tugs to evacuate over 1 million people from Manhattan. The 
Coast Guard secured then ports Nation-wide and called up the 
reserves.
    I also understand that NOAA is using their own law 
enforcement agents to help in assisting the investigative and 
security tasks in both Portland, Maine, and Boston, and in New 
York City. I think it is readily apparent to all of us that 
port security can no longer be taken for granted. Just last 
fall, the 2000 Interagency Commission on Crime and Security in 
U.S. Seaports report stated that the FBI considers the present 
threat of terrorism directed at any U.S. seaports to be low, 
even though their vulnerability to attack is high.
    While clearly our perception of such threats have now 
changed, we also need to change our policies as well. First and 
foremost, I think it is vital that we ensure that the sum total 
of all of our knowledge and resources at all levels of 
government--Federal, State, and local--are brought to bear to 
both prevent disasters as well as to respond to them. This 
means that we need to focus on three facets to our approach 
which include coordination, communication, as well as 
cooperation.
    I think the bottom line is that we saw on September 11 
there were many outstanding responses, certainly on the part of 
the Coast Guard, in many parts of the country at the local 
level. We saw incredible responses by those who oversaw our 
ports, and that is why I invited Jeff Monroe, who is the 
Director of Ports and Transportation for the City of Portland.
    They were able to respond by implementing their local plan 
during times of emergency as a result of the FAA directing all 
aircraft to be grounded. The fact is, many of these plans were 
implemented on an ad hoc basis. There were no national, 
standardized directives that could have been quickly 
disseminated or uniformly applied or implemented. I do not 
think that we have any doubts about the fact that we no longer 
can afford to have a piecemeal approach to our national 
security, because we now readily understand that we need to 
have a national response for all modes of transportation.
    As the interagency commission report recommended, we must 
intensify the Federal Government's efforts to assist seaports 
in preparing for the possibility of terrorist acts directed at 
critical infrastructure. We have 360 ports throughout our 
country, and we need to assess their vulnerabilities. We need 
to conduct--and I know there is bill being considered which 
would mandate port-by-port threat assessments. I think these 
threat assessments need to be accelerated and evaluated.
    We need to assess our vulnerabilities. We need also to 
provide the prerequisite assistance both in the technology as 
well as funding to ensure that we upgrade our port security in 
all respects as soon as possible. We need a response plan for 
any contingency. We obviously need to be able to put in place a 
plan that can be implemented on a uniform basis across this 
country, but coordination alone is not enough. We need to have 
the right information given to all the right people in a timely 
fashion so informed decisions can be made about the kind of 
plan to be implemented.
    Obviously, there will be some flexibility and latitude in 
what needs to be done in a particular port, but we need to have 
a national standard as we do under the Federal Emergency 
Management Agency response to natural disasters. Coordination, 
clear communication, advanced and comprehensive planning, and 
standardized procedures will bridge the differences among the 
different agencies with different missions, different cultures, 
different procedures, and overlapping jurisdiction.
    As the interagency commission report stated, the Coast 
Guard should work with relevant agencies to coordinate the 
development of an integrated real-time information system for 
tracking the movement of vessels, including cargo and 
personnel. In other words, what we really need to know is where 
everyone is, where they are headed, what type of cargo is being 
transported, and what they are doing in our waters at any given 
time at any given place.
    This really does require the Coast Guard to be a 
clearinghouse for maritime-related information that is now 
currently scattered across numerous agencies or simply not 
available. If we are going to rule the waves, we need to know 
what is on them. That is why I think we ought to implement 
Admiral Loy's concept that he has been advocating for quite 
some time, and that is the concept of Maritime Domain 
Awareness. This will allow us to eliminate the jurisdictional 
hurdles that already are underway among so many agencies.
    I think that we know it is one thing to have coordination; 
it is quite another to have the right kind of information. I 
know that is something you are advancing, Admiral Loy, and I 
think that is absolutely in the right direction. It is an 
imperative that we get the right kind of information so that we 
can respond in advance to a situation that may occur on the 
seas, not when it hits our ports.
    I think we have to begin to focus on what kind of 
activities and what kind of role the Coast Guard can play that 
can immediately put us in a position of anticipating any kind 
of events. I think the Coast Guard is rightly positioned to be 
able to act from the sea to prevent terrorists from using the 
sea as an avenue for terrorism.
    And lastly, we need to integrate the Coast Guard's overall 
efforts with the larger mission of the Office of Homeland 
Security. As the U.S. Commission on National Security 21st 
Century report stated, the U.S. Coast Guard has a critical 
prevention role to play, and is the model homeland security 
agency, given its unique blend of law enforcement, regulatory, 
and military authorities that allow it to operate within, 
across, and beyond U.S. borders.
    These are many of the challenges I think that lie ahead for 
all of us, and that is why I appreciate you being here today, 
Admiral Loy, to present your perspective. As the Chairman has 
rightly acknowledged, we ask you to do so much more with less, 
and you have been consistently underfunded for a variety of 
reasons, none of which are justifiable. I hope that we can 
rectify that now, in light of and in the aftermath of these 
horrendous events of September 11, because clearly the Coast 
Guard is going to be playing an ever more significant role in 
the future.
    The Coast Guard is a multifaceted agency, and you continue 
to uphold your responsibilities, from law enforcement to search 
and rescue, which you said is placed on a par with homeland 
security. I know that your operating tempo is strained. Your 
people are working longer hours with underfunded equipment. 
Important missions are also being curtailed, such as fisheries 
enforcement, because you cannot do all that you are doing right 
now in the aftermath of September 11. We need to help you move 
in the right direction to do the things that we have charged 
you to do, and will be investing you with even greater 
authority in the future.
    And finally, Mr. Chairman, I just want to conclude by 
saying that I want to welcome personally Jeff Monroe again. One 
of the suggestions he provided me when I met with him shortly 
after September 11 was that we should coordinate all of our 
transportation-related activities and agencies within the 
Department of Transportation so that we have one delineated 
agency responsible for responding to a national emergency when 
it comes to our transportation system, similar to the Federal 
Emergency Management Agency. I am happy to say I introduced 
legislation in response to this conversation and that language 
has been included in the aviation security bill.
    So again, Mr. Chairman, I want to thank you today for 
holding this hearing, and I am looking forward to hearing from 
our witnesses.
    Senator Kerry. Senator Snowe, thank you for that helpful 
and important statement. I appreciate it very much, and I am 
sure our witnesses do, too.
    Admirals, thank you very much, both of you, Admiral Loy, 
Admiral Allen. Thank you for being here. Mr. Gudes, thank you 
for being here. We look forward to your testimony.
    Admiral Loy.

        STATEMENT OF ADMIRAL JAMES M. LOY, COMMANDANT, 
  U.S. COAST GUARD, ACCOMPANIED BY VICE ADMIRAL THAD W. ALLEN

    Admiral Loy. Thank you, Mr. Chairman. Let me open by just 
saying a pointed thanks to both of you for capturing very, very 
well the challenges of the moment, and especially those that 
have become so evident to us in the wake of September 11. I 
would like to do just three things with my opening verbal 
statement, and if I may leave my written statement for the 
record.
    Senator Kerry. Without objection, your whole statement will 
appear in the record.
    Admiral Loy. Thank you, sir. The three things I would like 
to offer to the Committee this morning are these. One, to 
answer the question Senator Hollings was very interested in 
getting an answer to at our last hearing in front of this 
Committee when we were talking about the report of the Crime 
Commission on Seaports, and that is the who is in charge 
question.
    I think we can take great solace in the aftermath of 
September 11 in terms of identifying the Coast Guard is the 
right place that burden lies, and I will say that only in the 
aftermath of the things that we have attempted to get 
accomplished in these last 30 days.
    The second thing I would like to report to you as quickly 
as I can is at least a sense of what, in fact, was done from 
September 11 until today, and third, what is the new game plan, 
that challenge that you have both laid in front of us to 
attempt to articulate for the nation how the maritime dimension 
of our homeland security challenges will be met in the future.
    I will say in advance, Mr. Chairman, that there are some 
operational security issues here that we have to be careful 
about, and if I appear to be nonresponsive at some point it 
will only be because I am concerned about OPSEC, so to speak, 
and I know you both appreciate that very much, and if there is 
a need for a closed session I will be happy to offer it.
    Senator Kerry. Absolutely, Admiral. Obviously, we expect 
you to not cross that line at any time.
    Admiral Loy. Thank you, sir. I think it has been clearly 
recognized both in the Seaport Security Commission and many 
other places that the Coast Guard is responsible for port 
security in the United States of America. ``Today, I can tell 
you that we in fact are in charge, of enforcing security at 
every port in the United States'' and, as Senator Snowe 
mentioned, that is 360 ports around the country, some 50 of 
which really tend to rank themselves toward the top, either 
because of mobilization issues, or the facilitation of 
commerce, 95 percent of which comes and goes by ships to our 
great nation.
    Senator Hollings asked me that question, who was in charge, 
at our last hearing, and during that hearing the early stages 
of his bill were being put together, and he needed to have a 
sense of that. Well, I think if you would ask Rick Larrabee or 
almost anyone in any of the ports in America since September 
11, they know who is in charge.
    We have emphasized our Magnuson Act authority, which cites 
as a responsibility of our service, port security for the 
nation. We noted the revalidation of our roles and missions 
review just 2 years ago that in fact reaffirmed that for us as 
a service. As I mentioned, the Seaports Security Commission 
recognized it as well.
    Why is that the case, and why are we the logical person as 
an agency to do that? First of all, we are omnipresent. We are 
in every port in the United States, so there is a consistency 
of presence throughout the country. The Captain of the Port 
authorities we already have--notwithstanding the notion that 
since September 11 we probably have found out where we need to 
exercise regulatory actions, given the authorities we already 
have, and to itemize those authorities which would be helpful 
in our missions. The Captain of the Port inventory of 
authorities today is very, very strong, and offers us the 
opportunity to be an exercise leader in all of the ports.
    The third point is that we have the cutters, the aircraft, 
the boats, and the C-4 ISR system to enable us to do the job. 
Do we have an adequate inventory of those things? No, we do 
not, and we can get to that in a moment. But the fourth and 
perhaps most important thing is the relationships that we have 
attempted to establish as pre-need relationships across the 
ports of the United States for the last several hundred years.
    Whether those are regional response teams, whether those 
are harbor safety committees, port readiness committees, joint 
interagency task forces in a couple of ports, the reach that we 
have to the Department of Defense and the common every day 
relationships that we have with state and local officials and 
from industry as well, we simply do it every day. So the answer 
to the first question is, I think, a relatively obvious one, 
that the Coast Guard is and should remain responsible and be 
held accountable and responsible for the port security of the 
nation.
    A second point, we did act immediately, as Senator Snowe so 
properly cited. I would like to show just a couple of quick 
slides to demonstrate this point, if I could get the first 
slide up, please. This is just a sense for what your Coast 
Guard was doing on September 10, the day before the terrorist 
attacks, and it represents a distribution around the country 
and, of course, elsewhere around the world, but we were 
involved in counternarcotics, we were involved in fisheries 
enforcement, we were involved in a full panorama of missions 
that we are responsible for, for the nation.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    If you can capture that thought just for a second, and put 
the second slide up, please. This is just a snapshot on 
September 19, several days after the attack, and you can see 
the drift toward almost exclusive attention to port security as 
a statement of purpose for our organization.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Now, on the one hand, that represents a strong strength of 
our service, to have as a--its multimission character allows it 
to surge from all those other things to do what the nation 
needs done on that particular day.
    Senator Kerry. If I could just interrupt, does that 
represent redeployment?
    Admiral Loy. Absolutely, sir, and I will get into that.
    Admiral Allen and his counterpart on the West Coast 
reassigned some 55 cutters, 42 aircraft, hundreds of small 
boats to deal with what the requirements were in the ports of 
the United States.
    Next slide, please.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Kerry. Is there any immediate stop gap for each of 
those holes left behind?
    Admiral Loy. This will demonstrate that I think for you, 
Senator Kerry. This is just another version of the same two 
charts. On the left, on September 10 you can get a sense for 
the total energy investment of our service for the nation's 
well-being on a daily basis. We spend across the onboard port 
security, counterdrug, AMIO, fish, environmental protection, et 
cetera, et cetera.
    This on September 19 represents the way that energy has 
been reinvested in the wake of September 11; a huge spike with 
respect to port security. And that bar, by the way, does not 
even represent the 2,700 reservists we have called onto active 
duty. We are paying to the tune of somewhere around $1 million 
a day to facilitate a greater focus on port security in our 
nation today, which includes, Senator Kerry, as you know, the 
port security units, one of which is in Boston. So you can see 
AMIO almost to zero, fisheries enforcement almost to zero, 
counterdrug well down, probably around 20 or 25 percent of what 
we are normally doing.
    The real lesson, I think, to take from this is that those 
all are national security missions as well. It is clear in all 
of the literature that one of the most significant funding 
engines for international terrorism is profits from the drug 
trade, whether it is Afghanistanian heroin or cocaine in South 
America. The international linkages from criminal cartels 
offers that to be the case simply around the world, so this is 
the last time that we should be in the business of lowering our 
profile with respect to profits that can be taken from the drug 
trade.
    We used virtually every authority that we own on September 
11, Title 14 call-up of reserves, security zones, we now have 
some 94 of them established around the country on a variety of 
different critical infrastructure pieces and other things, 
escorting naval assets as they deploy to their responsibilities 
overseas.
    LNG in Boston has become an issue, as you know well, 
Senator Kerry, because we have spoken about that. We have not 
had a cruise ship enter New York City since September 11. Where 
are they going? They are going to Boston and other places, 
because FEMA and the OME for the city have been in place in the 
passenger terminals up on 46th Street, on the West Side.
    We insisted that the International Cruise Ship Lines 
Organization go to Level 3 of their series of levels associated 
with security at passenger terminals, so the notion of surging 
to the task is a great strength this organization brings to the 
table on such occasions.
    The issue is sustainability over time, and whether or not 
we can continue to do that when our people for the first 
several weeks were working, as you know, 12 hours on, 12 hours 
off in the Port of New York and many other places around the 
world, which Admiral Allen can testify to in Q and A. There was 
an instantaneous standup of crisis action centers around the 
nation for all agencies involved in this terrible tragedy, as 
you know.
    Twice daily telecoms between my two principal field 
commanders and myself offered me a constant picture of what we 
were doing and what we needed to do next. Formal port safety 
and security tasking was proposed by me and directed to the 
field of the Coast Guard by noon on 11 September; formal 
traffic, of which I will be delighted to provide copies if it 
is of interest.
    We shut down traffic in U.S. ports, we increased merchant 
vessel boardings and escorts, we established a Sea Marshalls 
program as a best practice idea in the San Francisco Bay, now 
being used in many other ports in the United States.
    We had a 3-day record-setting regulatory action that 
extended the 24-hour notice of arrival to 96, so that we could 
truly understand and take 4 days worth of review of crew 
manifests, cargo manifests, and the inbound shipping for the 
United States. We increased harbor patrols, established 
security zones, and as I indicated, and deployed port security 
units to key locations, Boston, New York, L.A., and Puget 
Sound.
    We have six, as you know. Most of those are reserve 
focused. The fifth one is in the Persian Gulf doing force 
protection for our assets to the Fifth Fleet commander, and the 
sixth one literally just got back and is in retraining in Camp 
Lejeune, North Carolina, so all six of those that we have, and 
one of your comments at the beginning was do we have enough, 
and should they be active duty or concentrated in the reserve, 
is an excellent question that is part of the solution at the 
end of the day.
    Critical infrastructure was inventoried, prioritized, and 
protected where we could. Where we could is a very important 
phrase there. Admiral Allen can cite for you the numbers game 
associated with having gathered data from his district 
commanders, the literally impossible task that we have to 
truly, quote-unquote, protect every piece of infrastructure 
that we would call critical in the ports of our nation. So that 
is a challenge that has to be developed as a game plan that 
Senator Snowe was just describing, where we reach out to 
partners in this business to facilitate the protection of that 
critical infrastructure of the nation.
    Outreach is an enormously important thing for us, because 
it is through other folks and our collaborative leadership 
skills that we get things done in the nation. The way an 
underfunded agency gets things done is by reaching out and 
establishing partnerships with others to get done what needs to 
get done.
    The third thing that I would offer, sir, is at least a 
notion as to what the events of September 11 now offer as a 
challenge to the future. I am working very hard with my senior 
leadership to define what I will call the Coast Guard's ``New 
Normalcy''. Where do we need to place these bar graphs 
associated with mission accomplishment in the future, and 
especially with the attention given to the homeland security 
process that we have already described.
    For the months and years ahead we need to offer the nation 
a game plan wherein Governor Ridge, as the advisor to the 
President, and the Congress, are comfortable that the Coast 
Guard in this maritime dimension of homeland security is going 
to be adequately dealt with, going to be adequately resourced, 
and going to be adequately provided the authorities necessary 
to do what we need to do.
    I would like to put one last slide up and leave it there 
for the balance of our hearing, if I may, obviously giving 
Scott the opportunity to put anything up that he wants, but 
this is the framing of the game plan that I think is important 
for all of us to understand. Most of us are familiar with the 
Department of Defense and our national force protection 
conditions that we use around the nation.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    That is the second column, where we go from Threatcon 
Alpha, Bravo, Charlie, and Delta, based upon what we know to be 
the threat on the horizon. We need to establish maritime 
security conditions associated with those threatcons with an 
associated set of definitions, what they mean, an associated 
set of activities that allow us to meet those conditions, and 
an associated set of assets that will populate those activities 
to enable us to do the job for the nation.
    Those MARSEC conditions have been developed over the course 
of this last 30 days, at least in framing, and I am in the 
middle of some very significant discussions with Secretary 
Mineta and others within the administration to offer that 
sensibility quickly to the Congress so that you can act in the 
legislation you are developing now.
    Most importantly, as we talk about supplementals and the 
10/10/20 effort that is already prescribed by the $40 billion 
that the Congress has afforded, how are they going to play out, 
and how are they going to play out between the monies that we 
have already spent at the end of last year and the monies that 
must be now developed as a part of the 2002 budget as you go to 
conference, and certainly the 2003 and outyears budgets as the 
administration develops those for 2003 and beyond.
    The first notion is to sense where the new normalcy is, and 
if it is associated with a Bravo-like threatcon, then those 
which are where the instant help is required and must be 
addressed, things like planners, and this maritime domain 
awareness program that Senator Snowe is so properly focused on 
as being important. I think as a nation, sir, we have over the 
years had a paradigm of activity that we are all familiar with. 
It is about prevention, response, and consequence management, 
and I offer that we are missing a piece of great significance 
in front of that standard paradigm, and that is a awareness. I 
am absolutely convinced that is where our failures were on 
September 11, that we were not aware enough of the domain in 
which we work to be able to prescribe adequate prevention 
protocols, response protocols, let alone where we never want to 
be again, dealing with consequence management in the face of a 
terrorist attack.
    We have worked very hard over the last 6 months with a 
little tiny cell in our Intelligence Coordination Center, now 
joined by ONI, the Office of Naval Intelligence, to breed 
actionable activity and actionable intelligence products that 
will enable us to be infinitely more aware than we have ever 
been in the past.
    I think these things that approach our nation or even 
attack us from within have to do so with either vehicles, 
people, or cargo, and when we understand that that is the case, 
we can work very hard on finding where the information is in 
our elaborate databases in the Federal Government to join and 
fuse those databases and enable us in the business to operate 
more productively and significantly in the future. That is the 
essence of what domain awareness is all about, and where we 
want to go in the future.
    So let me stop there, if I may, Mr. Chairman, and thank you 
for the extra time. These are issues of great passion for all 
of us, and we must get them right. Our nation depends on us 
getting them right, and I look forward to the questions you 
might have to further elaborate on my opening statement.
    Thank you, sir.
    [The prepared statement of Admiral Loy follows:]

  Prepared Statement of Admiral James M. Loy, Commandant, U.S. Coast 
            Guard, Accompanied by Vice Admiral Thad W. Allen

    Good morning, Mr. Chairman and distinguished Members of the 
Committee. As Commandant of the U.S. Coast Guard, I want to thank you 
for the opportunity to appear before you today to discuss the Coast 
Guard's maritime security strategy before and after the tragic 
incidents of September 11.
    As a multi-mission, maritime, military service within the 
Department of Transportation, the Coast Guard is a leader in America's 
maritime security. We provide valuable service to the American people 
by ensuring that the nation's Marine Transportation System is safe, 
environmentally sound, reliable, and secure. With broad law enforcement 
authority, experience in the exclusive economic zone, command and 
control systems, considerable cutter, aircraft and shore unit 
capabilities, and visible presence in all major ports, the Coast Guard 
is uniquely positioned to be a major player in planning, executing and 
supporting U.S. homeland security objectives. We are uniquely 
positioned because of our civil authorities as a law enforcement 
agency, our military character, and our ability to surge operations 
quickly to meet new threats to our nation.
    Prior to the attack of September 11, the Coast Guard's homeland 
security efforts were directed towards executing and enhancing maritime 
and border security, homeland defense, and economic and environmental 
security missions in addition to our other normal peacetime missions. 
In our strategic ports, Coast Guard Captains of the Port chaired Port 
Readiness Committees and led operations to support major force 
deployments under national defense contingency plans. In addition, the 
Coast Guard has worked closely with the Department of the Navy to 
address domestic force protection for naval assets. We were also 
positioning ourselves to be prepared for the future including 
developing a methodology to conduct Port Vulnerability Assessments to 
identify critical infrastructure, encouraging the formation of 
additional local Port Security Committees, and developing the concept 
of Maritime Domain Awareness in cooperation with members of the 
National Security Council. We have been working on the establishment of 
active-duty Port Security Units that are deployable and capable of 
providing specialized law enforcement surge capability for special 
operations such as terrorist incidents.
    When the events of September 11, 2001 occurred, we found ourselves 
under attack by an enemy lacking a face and a conscience directed not 
at a government or military, but against innocent people who simply 
cherished and protected American freedom. The reality of the assault 
immediately impacted many U.S. Coast Guard men and women at units 
deployed along the shore and on ships. Yet, despite the obvious 
presence of the unseen enemy, the Coast Guard engaged in a massive 
response effort to protect our ports and maritime transportation 
infrastructure. We also immediately escalated our force protection 
condition to protect our own people and facilities.
    In consultation with the Secretary of Transportation, I immediately 
ordered my operational commanders to control all of our nation's major 
ports. Since the attack, over 55 cutters, 42 aircraft and hundreds of 
small boats have been underway aggressively patrolling domestic ports 
and coastlines. Diverted from other essential missions, these assets 
helped us to establish near shore and port domain awareness, and 
provided an offshore protective force gathering intelligence and 
interdicting suspicious vessels prior to reaching U.S. shores. In 
addition, highly trained Port Security Units were deployed to four 
critical domestic ports. To date, a total of 2600 Selected Coast Guard 
Reservists have been recalled to augment regular forces working to 
secure ports, protect port infrastructure, conduct security 
inspections, and patrols, and continue performing other peacetime 
missions to the extent possible.
    We identified high interest vessels and critical infrastructure so 
that our limited resources could be applied in an efficient manner. In 
addition to the Advanced Notice of Vessel Arrival information required 
by current regulations, we obtained crew and passenger lists so that we 
could screen them to identify potential terrorists attempting to enter 
or depart the country. We have also issued an emergency temporary 
regulation changing the advance notice requirement from 24 to 96 hours 
to give analysts more time to complete their work. The unique nature of 
the Coast Guard, as an agile emergency response-oriented organization 
allowed us to immediately increase our security posture, using existing 
active duty, reserve, civilian, and auxiliary personnel; and existing 
shore units, ships, boats and aircraft. However, this posture is not 
sustainable . . . nor is it an efficient and effective use of 
resources. Our people are working long hours, other important missions 
are being curtailed and almost 30 percent of our reservists are on 
active duty. I am working with my operational commanders to determine 
ways to sustain this high tempo of operations.
    Our challenge for the future is to determine what the new normalcy 
represents in terms of mission requirements and the associated 
operational activity. I know several things for sure. The new normalcy 
will be at a higher tempo then existed on September 10 and somewhat 
lower than the tempo we have known since September 11. However, 
whatever that level may be, the American people want reassurance that 
their government is addressing the threat of terrorism in the maritime 
domain. This is an immense challenge since 95 percent of America's 
overseas trade moves by sea, through 361 ports along 95,000 miles of 
coastline. The security environment must allow for the differentiation 
between the lawful and the unlawful without unreasonably disrupting the 
free flow of commerce.
    The United States Coast Guard will participate the effort to 
develop and execute the maritime component of homeland security. We 
will maintain the viability and integrity of the marine transportation 
system's security by working with other public, private, domestic and 
international entities. While effective homeland security is built upon 
the principles of an awareness, prevention, response, and consequence 
management continuum, the primary objectives are awareness and 
prevention. Prevention places a premium on awareness, detecting, 
identifying and tracking terrorist networks. Awareness helps focus 
resources and efficiency on prevention. However, once terrorists or the 
means of terrorism are on the move towards or within the United States, 
the nation must have the means to detect and intercept them before they 
reach our borders and our transportation system.
    The key elements of Coast Guard's Maritime Homeland Security 
Strategy will be:

  <bullet> Develop effective awareness of all activities that can 
        effect the maritime security of the United States and its 
        citizens;

  <bullet> Integrate activities of multiple agencies into a single 
        unified maritime effort through interagency command centers and 
        coordination procedures;

  <bullet> Ensure agile and scaleable security measures for personnel, 
        vessel, facility, and cargo;

  <bullet> Employ interoperable, multi-agency forces consistent with 
        their core competencies to conduct coordinated maritime 
        security operations;

  <bullet> Conduct layered maritime security operations with the aim of 
        extending the borders, deterring, disrupting, and intercepting 
        threats across the maritime domain; and

  <bullet> Leverage international cooperation and participation to 
        share intelligence and conduct maritime security activities to 
        the benefit of all.

    In summary, the Coast Guard mounted a significant and rapid 
response to this severe and unexpected threat. Notably, maritime trade, 
which is critical to this country's economic strength, continues to 
move through ports with minimal interruption. It is no surprise that 
sustaining mobility will come at a higher cost to all of us. But the 
sobering reality is, because we live in a country that prides itself on 
the openness of its democracy, we are always at risk of a terrorist 
attack. Therefore, it is very important that we address the issue of 
security in seaports now. If we do, we can assure our national security 
and our ability to keep our nation's transportation system the very 
best in the world.

    Senator Kerry. Well, Admiral, thank you very much. That is 
a very comprehensive and helpful summary, and we appreciate it 
very much.
    Scott, why don't you testify now, and then we will come 
back and do a round of questions.

  STATEMENT OF SCOTT B. GUDES, ACTING ADMINISTRATOR, NATIONAL 
             OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Mr. Gudes. Thank you, Mr. Chairman. First, let me thank 
you, Chairman Kerry, Senator Snowe, Members of the Committee, 
on behalf of Secretary Don Evans and the 12,500 men and women 
working around the country for this opportunity to appear today 
and talk about NOAA's role in homeland security, and I am 
pleased to be here today with the Coast Guard. I think you used 
the term, united. I do not think there are many relationships 
between federal agencies that are as close. We work together on 
search and rescue, on oil spill response and fisheries 
enforcement, as you said.
    Along with the Navy we run the National Ice Center, which 
had a loss of two enlisted people who were in the Pentagon, 
Aerographer Mate Earhart, and Matt Flocco, who were there at 
the Pentagon that day.
    I could not agree with all the statements more. The tragic 
events of September 11 have heavily underscored the need to be 
vigilant, prepared for attacks on American soil and along 
America's coasts in this century, and I can tell you that NOAA, 
the men and women in all aspects of our organization, from the 
National Weather Service, National Ocean Service, the National 
Marine Fisheries Service, NOAA Corps, that they want to serve, 
that they want to do more.
    I do not have the same type of briefing charts. I left up 
at the dais here a little presentation for you. If you turn to 
the first page, there is a slide--I have been humbled by the 
response of our employees from around the country, and right 
from the beginning, and that is an image of a poster, actually, 
that was done by our employees, and by the end of that week we 
had it done and sent out to NOAA activities around the country, 
and it says, ``NOAA Serves America,'' and it has all the 
aspects in it.
    I cannot emphasize enough just how the people in our agency 
feel about this. We are at NOAA, of course, an agency that 
deals with protecting life and property on a regular basis. We 
are the people who regularly forecast, try to help people 
prepare for hurricanes and floods and tornadoes, and respond to 
oil spills and other hazards. We operate the SARSAT search and 
rescue centers on our satellites, and disaster preparedness and 
response is part of what we do.
    If you turn to the next image, that actually is NOAA 
satellite images of September 11 of the world, so at the same 
time that we all were focused on what was happening here in 
Washington and New York, and I along with a lot of federal 
employees were actually on the streets, having been evacuated 
at the State Department, as we were evacuating all of our 
facilities, NOAA's essential personnel were manning our 
satellites and our weather service.
    There were a lot of things going on that day. Eighty-five 
people lost their lives in typhoons in Asia, and off of the 
West Coast of Florida we had Tropical Storm Gabrielle that we 
were watching very closely to make sure that it did not spin 
up, so this is an important part of our mission.
    Part of our real role in homeland security, and what we do, 
what we always do, is environmental measurements and 
forecasting, and I think just in terms of the discussions that 
we have had with other federal agencies since September 11, 
this role of NOAA providing for environmental observations and 
forecasting for meteorology and oceanography, what the Navy 
calls METOG, is something that everybody is depending on us to 
continue to perform, and we feel pretty strongly about that.
    Now, if you turn to the events of September 11--let me just 
cover the next slide, where it says, incident response plan. I 
just want to note for the Committee that because of our 
involvement in a number of disasters, including TWA 800, the 
loss of JFK Jr.'s plane, we actually realized we needed to do a 
better job of coordinating our role across different parts of 
NOAA, and we put together this incident response plan, which 
was called in right away after the disaster.
    Now, as far as our response on September 11, I think the 
first thing that happened is within an hour we offered and 
volunteered, and it was accepted, assistance by law enforcement 
officers. We do fisheries enforcement. These people train at 
the Federal Law Enforcement Training Center. They have 
investigator backgrounds, and we immediately responded, I think 
within an hour, if I am not mistaken, and within those first 
days we allocated 25 agents to work with the FBI and state and 
local law enforcement officials in New England and in New York.
    We have also come forward and offered to help get the 
program going with Secretary Mineta and FAA. We have 21 of 
those same officers who have volunteered to be air marshalls 
and have been accepted, and will be helping out in the near 
term. Again, they have the requisite training. Our National 
Weather Service employees in Virginia and in New York have 
provided consistent, several times a day weather forecasts to 
help the emergency management teams in New York and at the 
Pentagon.
    We had a hazardous materials group that responded quickly 
up in New York. This image has a few of the type of things we 
have been doing. One of the things we do in NOAA is precise 
measurement. We do that through overflights and through 
different uses of GPS, and a NOAA private sector firm and the 
University of Florida flew mapping missions over the Pentagon 
and the World Trade Center sites at the request of the Army, 
and we did that actually to provide a very precise measurement 
of the amount of debris, and also to look for some hot spots 
and help out the local emergency recovery efforts.
    I provided a larger scale depiction of this image, but the 
next slide shows actually one of those overflight images of the 
World Trade Center site.
    We also deployed personnel to New York to help EPA and the 
Coast Guard evaluate marine and air pollution and identify 
contaminants likely to be found in the wreckage and develop a 
database of marine safety information.
    If you turn to the next slide, again this is since 
September 11. One of the things that we do in NOAA that we are 
responsible for that is actually the lineage of our 
organization, it goes all the way back to 1807, is we are 
responsible for hydrography and mapping the safe approaches to 
coasts, our EEZ, and I think actually in this homeland security 
period this is something that is going to get even increased 
attention. It is something we have been working on at NOAA in 
terms of maritime transportation safety quite a bit the last 
few years, but it is going to get increased focus, and I have 
included an image of a new print on demand chart.
    In this case it is showing the Naval Station at Norfolk, 
Virginia, but this is a product that actually we have produced 
since September 11 at the request of the Navy and the Coast 
Guard. We are trying to do a better job of showing restricted 
areas to make sure that the public stays out of the areas that 
we cannot allow for security purposes. As you know, I think we 
moved the print on demands so we are able to get this, so 
mariners can get these charts quite quickly and get them out 
into the public's use.
    Let me say a few words about critical infrastructure. This 
is something I care a lot about. Since the attacks, we have 
looked again at issues of critical infrastructure within NOAA. 
We have a number of very important systems for the national 
security. One of the things that I want to say thank you for is 
in our budget this year. Back in about April we submitted a 
request for $7.5M to construct a backup system for our National 
Weather Service telecommunications gateway, and I want to thank 
you, because both the House and Senate came and supported that, 
and that is the type of issue I am talking about, to provide 
some redundancy for these critical systems.
    Mr. Chairman, we have designated a team within the agency. 
Captain Ted Lillestolen is up here in the front row. He is my 
chief coordinator for all NOAA activities in terms of homeland 
security and response. We have a number of people who have been 
taking part, along with Department of Defense. General Jack 
Kelly, head of the Weather Service is up here in front. He has 
been meeting regularly with the Navy and Air Force in terms of 
looking at some of these same types of issues you have been 
talking about.
    There are a number of programs that we have that I think we 
are stepping up and saying that we can take part in helping out 
in recovery as well, things like NOAA Weather Radio, which is a 
nation-wide all-hazard radio system that gets warnings out that 
could well be adapted in terms of this period of time. You 
talked about the NOAA Corps, America's 7th uniformed service, 
men and women who man our aircraft and ships. I think we can do 
more there in terms of helping out.
    Our chemical and dispersion models, we actually do that 
work in two different parts of NOAA.
    The National Ocean Service Office of Response and 
Restoration has a model called CAMEO that is available to state 
and local governments and responders. This basically takes a 
chemical, if we know what the chemical is, and we will estimate 
where that dispersion will go, how quickly, and then through 
the Air Resources Lab, in working with the Weather Service, we 
have larger scale models that we have done for disaster 
preparedness purposes in the past, for example, in terms of 
nuclear preparedness, and trying to figure out on a dynamic 
basis where air flows would go to, to provide that type of 
information.
    NOS is working with the Coast Guard in terms of port threat 
assessments that the Commandant spoke to. I think there are a 
number of areas where the agency can step up and do more, and 
as I mentioned, we want to do more.
    I think, Mr. Chairman, that we at NOAA take very seriously 
our role in following the President's lead, the Secretary's 
lead, and stepping up and helping defeat terrorism. This has 
required all of us to take a fundamental relook, as you said at 
the beginning, that things are different, and how we do our 
business every day.
    As I pointed out, I am not sure exactly which NOAA programs 
will be of assistance to Governor Ridge and to the Coast Guard 
and to our other partners, but one thing I am sure of is that 
we at NOAA are prepared to step up and to provide that 
assistance, and as I said before, the men and women at NOAA 
take that job quite seriously.
    Thank you.
    [The prepared statement of Mr. Gudes follows:]

 Prepared Statement of Scott B. Gudes, Acting Administrator, National 
                 Oceanic and Atmospheric Administration

    Good morning, Mr. Chairman and distinguished Members of the 
Subcommittee. As Acting Undersecretary for Oceans and Atmosphere for 
the National Oceanic and Atmospheric Administration (NOAA) within the 
Department of Commerce, I thank you for the opportunity to appear 
before you today to discuss maritime threats and port security. Like so 
many around the country, we at NOAA have lost family, friends, and 
colleagues in the tragic events of September 11. These events have 
strengthened NOAA's resolve to support our nation in all possible ways 
and to do what we can to ensure the safety and security of all 
Americans.
    I am here to discuss how NOAA's mission supports disaster response 
efforts; the support NOAA provided on and since September 11; and 
future NOAA efforts to support Homeland Security, particularly with 
respect to port security. I will also discuss our partnership with the 
United States Coast Guard (USCG), which is the lead agency responsible 
for ensuring the safety and security of the nation's maritime areas.
NOAA's Mission
    NOAA works to protect lives and properties from hazardous events 
and disasters. We forecast events such as hurricanes and tornadoes; 
respond to spills and accidents in the marine environment; and provide 
tools, training, and technology to communities to mitigate the effects 
of hazards. NOAA shares its responsibilities for disaster response and 
relief with a variety of partners at the national, state, and local 
levels. In the last few years, NOAA has developed an agency-wide 
Incident Response Plan to coordinate the delivery of appropriate 
assets, capabilities, and expertise in a timely and efficient manner. 
During and following the events of September 11 we activated this Plan, 
enabling many NOAA programs to quickly and efficiently support the 
response efforts, including essential personnel in weather offices, 
satellite and remote sensing, and hazardous materials units.
Response
    On September 11, many federal, state and local agencies and 
organizations moved rapidly to aid in response and recovery. NOAA 
continues to be part of this response team, providing tools, 
technology, and personnel on scene at the World Trade Center (WTC) and 
in many support locations around the country. The following are some 
examples of NOAA participation in the response and recovery efforts to 
the September 11 emergencies.
    Agents of the NOAA Fisheries Office for Law Enforcement were 
requested and engaged within hours of the September 11 attacks. Since 
then, 25 agents continue to support investigative, security and search 
and recovery efforts. Some of our agents are assisting the Federal 
Bureau of Investigation in the investigation of terrorist activities; 
others worked for days at ``Ground Zero'' in New York City in the early 
search and rescue phases of the response. In addition, NOAA agents are 
operating in a number of capacities ranging from border and airport 
security to port patrols. For example, 21 agents will serve on 
temporary but extended duty as Air Marshals for the Federal Aviation 
Administration. They reported for training on Monday, October 8th, at 
Fort Dix, New Jersey, and will be deployed to various duty stations 
immediately after they conclude training.
    The National Weather Service (NWS) forecast offices in Sterling, 
Virginia and Upton, New York continue to provide special forecasts to 
the Pentagon and lower Manhattan recovery efforts. The Weather Service 
developed special web pages which support emergency managers in both 
locations. These one-stop web pages include short and long term 
alphanumeric forecasts; graphical forecasts; applicable watches, 
warnings, and statements; and radar, satellite, lightning, and 
observational data. The White House also asked for special weather 
reports to evaluate potential impacts on the activities conducted by 
the Federal Emergency Management Agency. NOAA prepares these reports 
daily for the White House as well as for other classified activities.
    NOAA directly supported search and recovery efforts at both the WTC 
and the Pentagon disaster sites with its mapping and remote sensing 
capabilities. The Army Joint Precision Strike Demonstration coordinated 
a highly detailed mapping mission at both disaster sites using Light 
Detection and Ranging (LIDAR) technology. LIDAR is an active remote 
sensing system used to profile or scan terrain elevations. NOAA's 
National Ocean Service (NOS), the NOAA Office of Marine and Aviation 
Operations (OMAO), Optech, Inc., and the University of Florida teamed 
up to fly the LIDAR in NOAA's Cessna Citation. NOAA produced an image 
at 15 centimeter accuracy using LIDAR data, traditional aerial 
photography, and accurate Global Positioning System (GPS) measurements 
connected to the National Spatial Reference System. The data and images 
produced were critical for search and recovery efforts by setting a 
network of consistent standards. Specifically, it allowed for the 
establishment of an accurate spatial reference frame from which 
rescuers could perform effective recovery; provided an accurate birds-
eye-view of the scene, which is critical for locating structures such 
as elevator shafts; and the establishment of a LIDAR calibration 
network. This calibration network was critical to private sector 
entities, such as Earthdata, to collect data efficiently using new 
technology. NOAA has been requested to return to the WTC site to 
provide data for change analysis.
    The LIDAR data will also be used to monitor structural movement of 
damaged buildings in the area of the WTC disaster and to calculate 
volume of rubble. These images provide very accurate height 
measurements as the recovery efforts descend into the Tower basements, 
to mitigate possible flooding from the surrounding rivers. The Pentagon 
site is also being mapped with LIDAR to be used for reconstruction 
purposes.
    Additionally, a NOAA pilot on temporary duty with NASA piloted an 
aircraft equipped with the Airborne Visible/Infrared Imaging 
Spectrometer (AVIRIS) system at the request of the Environmental 
Protection Agency (EPA) in order to identify and locate asbestos 
fallout from the WTC plume. NOAA/OAR scientists have also been 
assisting EPA efforts to assess ground-level air pollution problems in 
New York, primarily associated with asbestos released as the buildings 
fell.
    In response to USCG harbor security needs, NOAA rushed paper copies 
of the New York nautical chart to the Coast Guard, Staten Island, to 
aid its response in the WTC emergency. Subsequently, NOAA has employed 
its regional Navigation Managers and Scientific Support Coordinators to 
help facilitate meetings on port security issues and contingency 
planning with the Navy, Coast Guard and other government and port 
sector officials. For example, in Hampton Roads, Virginia, home to the 
nation's largest military port and commercial port operations, some 275 
people connected to the port mobilized to discuss security issues in 
the week after the attack. The Captain of the Port and Commanding 
Officer of the Norfolk Navy Base commended NOAA for its charting work 
to rapidly provide a clearly marked security/restricted area around the 
U.S. Navy Base. The rest of the maritime community was encouraged to 
work with NOAA and the Army Corps of Engineers to identify areas for 
security/restricted zones on NOAA charts. NOAA will continue to revise 
its nautical charts to reflect new security zones and get that charted 
information out to mariners for security measures.
    NOAA's New York area Scientific Support Coordinator (SSC) provided 
on-site scientific support to the USCG Federal On-Scene Coordinator in 
preparation for possible oil and hazardous material pollution resulting 
from the WTC collapse. Although no significant marine pollution event 
occurred, the SSC evaluated numerous water pollution risks associated 
with potential hazardous materials releases from the WTC site. NOAA's 
Scientific Support Team in Seattle provided an inventory of 
contaminants that might have been present in the impacted buildings and 
prepared to develop spill trajectories in the event that a pollution 
incident occurred. NOAA provided the tidal information necessary to 
develop water trajectory models. In addition, NOAA developed an 
information management support system for the USCG, which included an 
Intranet site for information sharing within the USCG response 
community, and an internet site for rapid dissemination of marine 
safety information to the public (http://www.incidentnews.gov).
    NOAA also provided support through our involvement in the National 
Ice Center (NIC). NIC is a multi-agency operational center representing 
the Department of Defense (Navy), Department of Commerce (NOAA), and 
Department of Transportation (Coast Guard). The NIC's mission is to 
provide worldwide operational sea ice analyses and forecasts for the 
U.S. armed forces, allied nations, the civil sector, and other U.S. 
government and international agencies. We regret to report that two 
members of the NIC lost their lives during the terrorist attack at the 
Pentagon. However, the NIC family pulled together as NOAA, Navy and 
Coast Guard personnel assisted the Red Cross at the Pentagon with food 
and supply distribution to emergency workers.
    NOAA is presently working to identify the impact that our response 
and recovery efforts had on our resources and on our core functions. We 
will work with OMB and the Department to identify and, if necessary, 
replace these activities during the FY 2003 budget process.
Preparedness and Prevention--Homeland Security
    NOAA is now looking at what we can do in the future to ensure the 
safety and security of Americans. Following the events of September 11, 
I directed all NOAA programs to organize and inventory NOAA's broad 
array of responsibilities as they relate to Homeland Security. One of 
NOAA's top priorities is to identify possible weaknesses in our own 
security and potential threats to NOAA infrastructure, including data 
networks; supercomputers; satellite command, control, data acquisition 
and dissemination; and intranet/internet infrastructure. We are moving 
quickly to protect the security of our infrastructure.
    NOAA is also examining what we can do both within our existing 
programs and resources to better prepare for any future incident. We 
are detailing what we can do now, and what we could do with additional 
resources over a longer time frame. These preliminary efforts include 
developing better water and atmospheric models that would give 
information regarding dispersal of a variety of materials including 
biological and chemical agents. They also include enhancing a number of 
products and services including satellite data; electronic navigational 
charts to support the early implementation of Coast Guard's Automatic 
Information System; preliminary talks with the Navy to cooperate on 
harbor traffic lane and approaches; hydrographic surveys for 
comprehensive baseline data of U.S. ports to assist in obstruction 
detection; and the Computer-Aided Management of Emergency Operations 
(CAMEO) that EPA and NOAA jointly designed to assist emergency 
responders in preparing for and responding to chemical releases. We 
anticipate that we will complete these detailed assessments within the 
next 30 days and will be in a better position to identify any 
additional assistance, guidance or accommodation needed from the White 
House. The following examples are some of NOAA's capabilities that 
could be used to support the Administration's Homeland Security 
efforts.
    The NOAA NWS is poised to support response and recovery operations. 
We are improving our ability to provide weather support to response and 
recovery activities by ensuring that all 121 forecast offices are 
prepared to deliver the same level of service provided by the Upton and 
Sterling offices. In the event of a larger-scale attack, the Weather 
Service National Centers for Environmental Prediction could be used for 
hourly prediction services over a large scale. In addition, incident 
meteorologists could be deployed for on-scene port forecasts services 
just as they currently are for major wildfires.
    One of the NWS' greatest assets is its ability to deliver hazard 
emergency messages to the public, both directly through the NOAA 
Weather Radio and through our partners. In the event of nuclear 
accidents and hazardous material incidents, the NWS currently provides 
emergency alert notification services directing the public to seek 
additional information from federal, state or local officials. This 
capability could also be used in the event of another national 
emergency. The NOAA Weather Radio also triggers the Emergency Alert 
System, which allows these emergency messages to be received and re-
disseminated through the media almost immediately.
    NOAA Office of Oceanic and Atmospheric Research, together with the 
NWS provides operational dispersion forecasts, via computer modeling, 
for large releases of radioactive material for both the Federal 
Radiological Emergency Response Plan and the Federal Response Plan, as 
well as for wildfires and volcanoes. Within current resources, NOAA is 
working to improve its atmospheric monitoring and dispersion 
forecasting capability by developing an urban monitoring system 
network, with a test deployment planned for Oklahoma City. NOAA could 
quickly improve the resolution of the model predictions by meshing the 
dispersion model with the National Weather Service's weather prediction 
models.
    These capabilities are also suitable for dealing with chemical and 
biological threats. An urban monitoring system, including sensors to 
detect toxins and a high resolution model, could provide real time 
information to predict and track dispersion of chemical or biological 
agents. A meteorological monitoring network for the Washington, D.C. 
area could be set up on a 24/7 basis within 6 months.
    As a consequence of multi-agency examinations of current 
capabilities to respond to an attack involving release of radioactive 
materials into the air, one of the OAR research laboratories is working 
directly with the Federal Emergency Management Agency (FEMA) to ensure 
rapid NOAA response. An important part of this is the NOAA role in the 
operations of the Department of Energy's nuclear terrorist response 
activities. NOAA personnel provide the on-site meteorological guidance 
required in the event of a radioactive material release, with local 
offices of the NWS are ready to provide necessary meteorological data, 
and the National Weather Radio System standing by to be of assistance. 
All of this involves a close coupling between NOAA's Air Resources 
Laboratory and the NWS, through the NOAA Radiological Emergency 
Response Plan.
    NOS has a variety of programs, one which serves as a critical base 
to geographic information. NOS is responsible for the establishment of 
a National Spatial Reference System (NSRS) which serves a base to all 
geographic information As the rescuers witnessed in NYC, it was 
critical to their rescue and recovery efforts to have a base reference 
system to locate all utilities and building structures. NOS works with 
other federal, state and local agencies and private industry to 
establish standards that form a common base between all entities. This 
common base is becoming more and more critical with the enormous use of 
geographical information systems and the global positioning system. The 
NSRS serves as the only accurate common link for these data tools. Most 
recently, new modernized efforts are underway to set standards for 
height measurements.
    NOS maps and provides information needed for safe air 
transportation, including information used to develop instrument 
approach and departure procedures at all major U.S. airports. Specific 
features such as fences, access roads, obstructions/obstacles, and 
navigational aids on and around the airport are precisely measured by 
NOS. This program utilizes the same tools used for the shoreline 
mapping program, national spatial reference system, airborne remote 
sensing, and frame photography. NOS is developing new technology to 
display a virtual reality image to be used in aircraft cockpits called 
synthetic vision. NOS's high-resolution imagery of the entire airport 
and obstructions features is combined to create super accurate terrain 
databases. These databases are then combined with GPS and graphic 
displays along with advanced sensors to create real-life 3-d moving 
scenes for navigating the aircraft in poor or zero visibility.
    As you are aware, NOAA is home to the NOAA Corps, the smallest of 
the nation's seven Uniformed Services. Although these officers 
primarily have science and engineering backgrounds, they too stand 
ready to support the Department of Defense (DOD) and any other federal 
agency that requires assistance in protecting the nation's security. At 
the request of the DOD, NOAA has provided a summary of its 
capabilities, ships and aircraft that could be used in a national 
emergency. NOAA's Office of Marine and Aviation Operations operates our 
diverse fleet of research and hydrographic coastal and ocean-going 
vessels ranging in length from 90 to 300 feet, as well as our 
helicopters and airplanes. OMAO abilities to assist port security 
efforts include assisting the USCG boarding or inspection parties, 
supporting port/harbor security, providing sophisticated airborne 
chemical detection support, conducting hydrographic surveying/sea floor 
mapping and Geographic Information System, conducting state-of-the-art 
sonar operations, and providing additional hurricane reconnaissance if 
U.S. Air Force assets are reassigned.
Ports and Maritime Security
    A vital part of NOAA's contribution to Homeland Security will 
involve the issues of port and maritime security. Our ports are 
currently one of the most vulnerable choke point in the nation. At 
current resource levels, it is extremely difficult to inspect every 
shipment entering every port. Our commercial ports also double as 
logistical centers for the rapid deployment of American forces and 
materials. As gateways to our largest cities and industries, U.S. 
seaports are strategic targets for attack. While the activities I just 
finished discussing may also apply to Homeland Security, the following 
examples are illustrative of NOAA's role in port security specifically. 
As I previously mentioned, we will be reviewing our port related 
activities as part of our overall Homeland Security assessment.
    At the request of Coast Guard Headquarters and individual Captains 
of the Port, NOS is helping to assess specific chemical transportation 
threats. Building on the expertise required to develop CAMEO and 
related trajectory models, chemical plume projections and other hazards 
are being modeled for a variety of incident locations under numerous 
environmental conditions. These same capabilities can be used to assess 
risk from other dangerous cargos under a variety of environmental 
conditions at ports throughout the United States.
    It is important to provide consistency and reliability to the 
nation's ports with more accurate, timely and better-integrated 
information for both users and system managers. Improving the Marine 
Transportation System (MTS) information infrastructure serves both 
maritime security and port safety for maritime commerce. NOAA's unique 
role as an information provider will be of great benefit to the Coast 
Guard, the Navy and contingency planners as they develop strategies for 
Maritime Domain Awareness and port security. NOAA's liaison and 
communications links across military, government and private sector 
interests provide an invaluable element of coordination to port 
security.
    Mariners need real-time information displays such as the Coast 
Guard's Automatic Identification System (AIS) and NOAA's Electronic 
Navigational Charts (ENCs) integrated with differential GPS 
positioning, water level and current data, weather conditions and 
forecasts, in order to make informed and safe decisions. The Coast 
Guard, port authorities, and pilots also require this information to 
effectively communicate from shore, manage vessel traffic, identify 
potential problems, and respond to incidents. Augmenting the number and 
functionality of NOAA's ENCs will support AIS, vessel traffic 
management, and response efforts.
    NOAA can also rapidly disseminate chart updates and critical chart 
corrections to the mariner, and we can create and distribute temporary 
charts, overlays and data sets as needed by primary responders like the 
USCG. NOAA has some rapid response capability to survey U.S. waters 
following an emergency situation. In the past we have supported the 
USCG on incidents such as airplane crashes and bridge strikes. We 
quickly and efficiently send our Navigation Response teams and 
hydrographic vessels to acquire detailed side scan and multi-beam 
survey images for search and recovery. This capability is another 
weapon in the defense against maritime threats, as it allows ports to 
be re-opened quickly if nothing is discovered and helps the USCG to 
design temporary lanes and detours based on depth data.
    Developing port contingency plans is also critical to strengthening 
maritime security. NOAA's real-time tides, water levels and current 
data information are of significant benefit here. Specifically, if the 
Coast Guard needs to evacuate vessels or people from a port city, open 
temporary lanes or detours, or respond with life saving efforts, 
accurate and timely tide and current information would be imperative. 
If vessels carrying dangerous cargo have to leave port quickly, NOAA's 
real-time and predicted water level data would allow them to gauge 
departure times. This minimizes the possibility of vessels going 
aground and blocking other vessel movement, spilling contaminants, or 
becoming additional targets of terrorism (e.g. liquid natural gas or 
oil tankers). Expanding NOAA's models of port oceanographic, 
atmospheric, and water quality conditions to more ports would provide 
advance crucial information to plan for re-routing of vessel traffic, 
port condition forecasts, and low visibility navigation to keep traffic 
moving and prevent congestion or delays in other less affected areas.
    The adaptation of marine technology developed for oceanographic 
research can also support port security efforts. For example, OAR has 
developed a portable autonomous hydrophone system for the acoustic 
detection of earthquakes which could be deployed where needed to 
provide passive detection capabilities. OAR has also developed 
technology to deliver data from underwater sensors to shore-based 
monitoring centers in real-time.
    NOAA is also prepared, in the event of an emergency, to help return 
ports and associated affected coastal environments to a viable state. 
NOAA expertise includes: damage assessment and determining the injury 
and appropriate baseline for recovery goals; reconstruction support, 
such as historical data for change analysis; long term local and 
regional support for recovery, such as community liaisons to support 
extended efforts; and long term monitoring of biological indicators of 
recovery as well as monitoring infrastructure for subsidence and 
movement.
    NOAA will continue to provide whatever assistance it can on 
planning for port security, military mobility, and addressing the 
dynamics between ongoing military and commercial port operations.
NOAA and USCG Partnership
    One of NOAA's closest federal partners in many of our activities is 
the U.S. Coast Guard. We work with the Coast Guard on fisheries and 
sanctuary enforcement, the Marine Transportation System, satellite-
aided search and rescue, and hazardous material spill response in 
marine and coastal environments. This partnership has been a long-
standing and productive one for both agencies. I thank the Coast Guard 
personnel for their tremendous efforts since September 11 to ensure the 
safety of our valuable port areas. Our ports and MTS are valuable not 
only to national security from the perspective of military mobility, 
but they are also the backbone of our nation's commerce, as over 95 
percent of U.S. foreign trade tonnage is shipped by sea and more than 
two-thirds of everything we buy, eat or wear arrives via the MTS. The 
Coast Guard plays a vital role in protecting this critical commercial 
activity, and as I mentioned earlier, NOAA is working hard to support 
the Coast Guard's security measures. In some harbors and ports located 
near military bases and nuclear facilities, the National Marine 
Fisheries Service has provided the Coast Guard with NOAA vessels and 
limited personnel support to assist with security patrols.
    I believe that it is important to note, however, that the extra 
effort the Coast Guard is putting into port and maritime security is 
having an impact on many of these partnerships, including enforcement 
efforts and activities in the MTS. For example, Coast Guard fisheries 
enforcement has been reduced, with potentially negative impacts to the 
health of our nation's fisheries. Damaged fishery stocks could have 
long term impacts on our nation's economy.
    Another critical role of the Coast Guard is the in-kind support to 
the NWS for servicing and deploying buoys. After the September 11 
event, Coast Guard ships have been redeployed to provide port security. 
Due to this redeployment, we currently have 4 marine buoys that cannot 
be serviced. Depending on how long the Coast Guard Ship are unavailable 
for buoy maintenance, this could have an impact on NOAA services and 
result in higher maintenance costs.
    NOAA and our other partners are working to mitigate the impacts to 
the USCG/NOAA partnerships and we will be working especially with our 
state partners to develop viable alternatives.
Conclusion
    In conclusion, NOAA responded rapidly to the horrific events of 
September 11 and was able to provide a number of critical support 
services to the response effort, including scientific and technical 
support to our close partner, the USCG. As many have noted, it is clear 
that life will no longer be the same in our country and that every 
federal agency must reexamine why and how each of its programs work 
toward accomplishing its mission. NOAA is working quickly to determine 
how we can best support Homeland Security, particularly with respect to 
port security and the Marine Transportation System in order to ensure 
that maritime commerce continues to flow through our ports and harbors 
to fuel our nation's economy. We will continue to work closely with the 
USCG, others in the Administration, non-federal partners, and Congress 
to protect our vital port operations.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Kerry. Thank you very much, Mr. Gudes. I appreciate 
your contribution.
    Admiral, if I could begin by going back to that chart, let 
me just ask you, first of all, is there an order of priority 
that has been created, or is being created, with respect to 
ports themselves. Are you identifying ports that are perhaps 
most sensitive, or have the assets that might be potential 
targets for terror activity? And also within ports, is there a 
listing of the priority of those entities that, likewise, in 
order of priority need various levels of protection?
    Admiral Loy. Yes, sir. In both instances there has been a 
lot of good work done in that regard. As I indicated earlier, 
we have some 360-plus ports in our country, but 50 of them are 
a list of places where all of our mobilization activities would 
take place. All of our strategic ports, if you will, are 
identified inside that inventory, and as I indicated earlier, 
about 95 percent of the commerce of the nation is facilitated 
out of those 50 ports, so if we were rank-ordering, quote-
unquote, in the notion of the totality of the ports 
inventoried, those 50 would stand apart, and that is quite 
clear within the ports, sir.
    Our challenge on, for example, September 11 not only to 
activate area contingency plans, which Senator Snowe cited as 
being good things to have, in spite of her concern as it 
relates to the ad hocery associated with making them come alive 
at any given port, and we can talk to that if you would like, 
but within those ports are direction became what is it that we 
want our people to be doing, and we focused first on high risk 
or high profile incoming vessels, tankers, if you will, that 
carried particular kinds of products, petroleum products, LNG, 
LPG, anything like that. That became an instant hit, if you 
will, in the high interest vessel list.
    Anyone that was in the business of concentration of people, 
cruise ships, high speed ferries with significant numbers of 
people aboard, and then the infrastructure surrounding or 
within the port, is there an oil terminal there, is there a 
nuclear power plant there, is there an LNG terminal there, as 
we find in Boston, is there a naval base there, what is the 
inventory process associated with identifying those things that 
would rise to the top, if you will, of a target list, quote-
unquote, on the part of the terrorists.
    So yes, sir, both of those I think we have done an awful 
lot of very good work on, and are clearly part of this series 
of elevating steps that one would take once we have a better 
feel for the domain in which we are working, and I want to keep 
going back to that as often as I can, or need to, to advise 
that from my seat, my perspective, we really need to put energy 
into awareness and prevention so that we find ourselves 
equipped and armed in advance, as opposed to where we found 
ourselves on September 11.
    I mean, I am in there, but for the grace of God go I.
    The FAA Administrator has had a nightmarish several weeks 
as it relates to dealing with the aviation challenges, because 
that was a choice the terrorists made, and I am not here to 
suggest to you in any other capacity that that choice could 
have been a different kind of choice, as we all know, but armed 
with the aftermath now, and 30 days later, we owe the country a 
much better capability with respect to awareness, prevention, 
response, and consequence management in the maritime sector.
    Senator Kerry. Now, measuring that awareness that you talk 
about so properly, certain kinds of ships coming into a port 
will present different kinds of potential threats, correct?
    Admiral Loy. Yes, sir.
    Senator Kerry. Some of those threats, in fact, will not be 
on the ship itself, if the proper screening has taken place 
with respect to who is on the ship.
    Admiral Loy. Absolutely.
    Senator Kerry. But some threats could take place from the 
proximity of the land, correct?
    Admiral Loy. Potentially, yes, sir, so we are concerned 
about terminals as we are about the ship itself plying the 
waters.
    One of the first things Admiral Clark and I spoke about, 
and we have spoken, buy the way, at great length, including 
Secretary Mineta and Secretary England. I cannot tell you how 
thoughtful the Navy, as our nation has been, in terms of 
recognizing that for 200 years we were supposed to come to them 
and offer them particular competencies for the war over there. 
They understand graphically that part of their responsibility 
is to provide whatever kind of an asset inventory would be 
helpful to us, the Coast Guard, being responsible for the 
homeland security dimension.
    But yes, sir, you are right on target with respect to being 
as concerned about terminals and on the land side as we are 
about the ships plying the waters, and the Navy's concern was, 
any one of those freighters out there can become a rogue vessel 
of some kind with ambitions of doing something that we do not 
want done, and thus, our concerns with respect to escorting 
naval assets to and from their facilities, establishing 
security zones, assisting the Navy with respect to force 
protection, et cetera, et cetera, all must be part of the 
scene.
    Senator Kerry. Well, with respect to the domain you 
referred to, the maritime domain, what is the definition of 
that maritime domain? Does it extend only to a certain mileage 
from the United States, or does it begin with a port of 
embarkment in some other country?
    Admiral Loy. Absolutely, sir. At the ultimate end, for us 
as a nation to have domain writ large awareness, we would 
certainly not stop at the EEZ. We certainly would not stop at 
the 3-mile limit, or the 12-mile limit, or the 24-mile limit, 
all of which have legal implications, as you well know. I want 
to know about the crew that is boarding that vessel wherever it 
is departing from on its way to the United States, to provide 
even greater time and attention to analyzing carefully, deeply, 
in terms of the people, the cargo, and the vessel itself.
    My notion is a rather simple, but I think powerful one. 
There are databases that we own, for example, about people. INS 
has a great database about people. The visa section of the 
State Department has a great database about people. The customs 
folks have as good a database as there is today about cargo. I 
would argue strongly that there is a requirement for us to pay 
serious attention to their capacity as well, to get a better 
handle on the millions of containers coming in our direction, 
and only about 2 percent of them that are actually being opened 
up to physically find out what is in them.
    An enormous challenge there, but people, vessels, and cargo 
is the magic about finding the whole issue on any given ship, 
so I want to be able to screen the manifest of that crew. When 
we board them at the sea buoy, if that is what our choice is on 
a high-risk vessel, I want to validate that the people are in 
control who are supposed to be in control of that vessel, I 
want to know if the third mate has a drug record, I want to 
know whatever it is that my captain of the port needs to know 
to provide an adequate level of security, given the threatcon 
condition that we might be operating in.
    Senator Kerry. Prior to September 11, is it fair to say 
that none of that knowledge exchanged hands or was available?
    Admiral Loy. There was a small cell, sir. About 2 months 
before the administration changed, I was able to capture the 
imagination of a senior director in the National Security 
Council who sponsored the beginnings of a cell that would be in 
the business of merging databases and fusing intelligence, and 
fusing information bases so that we truly had the whole picture 
of what was going on.
    It is a small cell in our Intelligence Coordination Center 
in Suitland, Maryland, but it has grown leaps and bounds, as 
you might imagine, since September 11, when all of a sudden 
that notion has captured the imagination of many others.
    Senator Kerry. Has anybody talked to you about coordination 
with the Homeland Security Office?
    Admiral Loy. Yes, sir. I had a very good several-hour 
discussion with Governor Ridge up in Harrisburg a week ago 
Friday, explaining to him some of these conceptual notions that 
I hoped would be part of the original framing elements of his 
enormous task that he has been so kind to take on for the 
President. I think there was a good receptivity to those 
notions and their importance, and at the same time a pledge of 
continued support and accountability on my side to him for the 
maritime dimension of his challenge.
    Senator Kerry. Well now, prior to all of this, I guess 
about a month or two before these events, I had a meeting, 
wearing my hat as Chairman of the Asia Subcommittee on Foreign 
Relations. I met with the Prime Minister of Singapore, and one 
of the topics we discussed was port security.
    There is a huge amount of concern about what comes into 
their port and what goes out. It is one of the largest ports in 
the world, with huge numbers of ships coming to the United 
States. I do not mean to single it out, but there is an 
awareness there. They are very aware of security issues.
    Admiral Loy. And they are very good at it.
    Senator Kerry. And they are extremely cooperative, but it 
is an enormous task. The question has to be asked whether we do 
not now need to encourage an international maritime agreement 
that enhances cooperative security measures in all of these 
ports so that we have a much better sense ahead of time of what 
is leaving the port, who is leaving the port, and that those 
containers are, in fact, inspected prior to loading. I mean, 
that is the only surety that I know of to guarantee that a 
multi-tiered, container-laden ship coming in does not have a 
surprise package.
    Admiral Loy. Yes, sir, you are absolutely right. I visited 
Singapore about 7 or 8 months ago. In our port state control 
matrix, sir, which is a decision tool associated with how 
aggressively are we going to deal with which vessel is coming 
at us, clearly as part of that decision tool we are concerned 
about the port state control system of the port that it is 
departing from. That is one of the entering arguments as to 
whether or not it finds itself at the top of our list, as 
opposed to the middle or the bottom of our list as a concern 
element as that ship approaches us.
    Associated with that is how well do they do their job as 
that vessel is loaded, where do the containers come from that 
go aboard that vessel. The container that is showing up in 
Charleston may or may not have actually first gotten on the 
ship in its last port of call. It might have been two or three 
ports of call before that.
    So as a notion, for example, if in our total scrutiny we 
would find a third mate with a drug record and X number of 
containers on that vessel that had been boarded three ports ago 
in Barranquilla, and the vessel itself has some kind of a 
record of either the shipper or the charterer or someone else 
as a sloppy management tool, you can bet, as a result of a 
mature maritime domain awareness effort, when we have a mature 
one, that is going to stick out like a sore thumb for us.
    Senator Kerry. Well, I do not want to use all the time. I 
have not put myself under a clock, and I thought, since there 
were only a few of us, we would just exhaust some lines of 
questioning and move on. Let me just say that it seems to me 
that there are ways to manage these concerns and there are a 
lot of balanced interests that we need to think about here, 
including the movement of commerce and the cost of business. We 
have been moving toward this more seamless economic world.
    We are obviously going to have to deal with some of these 
questions, but it seems to me that there are some smart ways to 
approach them in terms of working with those trading partners 
who are most willing, and beginning to give a stamp of approval 
to those who are most cooperative. Then, you begin to get a 
gradation of both companies and countries that are on the 
upside of really being good at their security, and that might 
give them an accelerated clearance process.
    I am convinced personally that as we put the squeeze on the 
terrorist world, we are going to make it an awful lot harder 
for them to do some of the things they have been able to do. 
Everybody needs to understand that if there is a willing 
individual who wants to commit suicide, he can find a way 
somewhere to hurt some people. That has always been true, but 
as we move to build a more civilized world, with greater 
respect and recognition for differences in cultures, hopefully, 
we can diminish that. That would be part of the purpose of 
this.
    The point I want to make is, it seems to me, we also ought 
to make some judgments about where we do some of our off-
loading. We can minimize some of the interruption by minimizing 
the exposure if something were to happen in a certain 
situation. Perhaps we should even grade some of our ports by 
virtue of what kind of residential housing is in the vicinity, 
or what kind of collateral plant effect might occur, so that if 
the worst did happen, we are at least minimizing impacts. That 
might be the best we can do in some kinds of situations, I am 
not sure, but I think we need to think carefully about how we 
maintain our capacity to move goods and products.
    Admiral Loy. Yes, sir. The first phase report of the Hart-
Rudman Commission did some very good thinking about that, and 
we have watched that, and frankly that became a part of the 
germination, if you will, to my notion about awareness up front 
of the rest of the paradigm we have used so often.
    On the international scale, sir, I could not agree with you 
more. I have already talked to Secretary-General O'Neill of the 
International Maritime Organization to challenge him to widen 
his spectrum from just safety and environmental protection 
notions to add the security dimension as an absolutely 
legitimate part of his work as he contributes, if you will, to 
the international effort associated with antiterrorism causes.
    As it relates to local collateral times of damage, and 
arranging where things are actually done, I think the LNG issue 
in Boston is a classic example of that, Sir, the fact that we 
have an LNG terminal where we have it there was, in fact, a 
large part of the mayor's concern, the mayor of Everett's 
concern, the gas people's concern, your concern, my concern in 
terms of reaching a legitimate security environment with which 
they could press on what they needed to do there.
    Had that been located out in the hinterland somewhere with 
no potential to wipe out a couple of hundred thousand people in 
downtown Boston, it probably would have been a very different 
kind of discussion that we could have had with respect to the 
points you make, so I think you are right on, sir.
    The last point I would make is, we as an organization have 
been working very hard to find our way as a legitimate player 
in the intel community, and as both a user and contributor, and 
we are working very hard in that regard, and I think there has 
been a receptive audience in the key committees on the Hill 
this year, and there is growth there of great value to enable 
us to be a good contributor and user of whatever the MDA 
package can produce for us in the future.
    Senator Kerry. Well, I am glad to hear you say that, and I 
will just end and turn to Senator Snowe by saying that every 
American needs to understand that the single strongest weapon, 
by far the single strongest weapon has nothing to do with our 
military structure in this war. It is not our bomb, it is not 
an aircraft carrier, it is information.
    The single strongest weapon in this effort is information, 
and every American can contribute to that by being attentive, 
thoughtful, and observant. Indeed, your folks, positioned as 
you are in so many places, need to be contributors to and part 
of that network. In the end, this effort will only be as good 
as where we know someone is, or what we know they are planning, 
or what we think their connections are, and that is the most 
important thing of all.
    Senator Snowe.
    Senator Snowe. Admiral Loy--I concur with the Chairman on 
the issue of information. I think that there is no question 
that we have to move in a concerted, comprehensive way to 
develop a system so that we have that information in order to 
counteract any potential threats in the future.
    Even prior to September 11, there were several reports, and 
I know that even you had testified in July about how our 
maritime infrastructure could be vulnerable to a terrorist 
attack.
    We have had several papers written in the Hart-Rudman 
report. There was also the report that I referred to as well 
that was done on crime and security at our Nation's seaports, 
and I know Commander Flynn wrote a paper for the Council on 
Foreign Relations that talked about a chilling scenario 
concerning a delivery of a chemical weapon coming from another 
country into the United States, where its destination may be 
Newark, but it had stops in California and Chicago. Tell me, as 
I understand--and he makes reference to that in his paper--that 
Customs does not require a filing of the manifest of the cargo 
until they reach their port of entry. Is that correct?
    Admiral Loy. I think that is basically correct, and it is 
one of the reasons that I mentioned earlier my support for 
serious attention being paid to providing the Customs Service 
the wherewithal they need to get a handle, so to speak, on the 
cargo end of that vehicles-people-cargo piece. Their ability to 
contribute that as a part of the domain awareness puzzle is 
absolutely critical, and I would certainly hope that we would 
find a way to enable them to do that.
    Senator Snowe. That seems to me to be something that has to 
be done sooner rather than later. I am concerned about 
timeframes here in terms of when all of this is going to 
happen, to identify what is most immediate, what is most urgent 
under this compelling circumstance, so that we make sure that 
we leave no stone unturned. In this instance it is hard to 
believe that in fact they could be delivering cargo, which we 
might not have any idea of its contents until it has made its 
way all across America. This is particularly troubling when it 
had stopped in two different locations prior to its final 
destination, before they are required to disclose their 
manifest.
    Admiral Loy. And there is absolutely no doubt that the 
sophistication level of the terrorist is such that they could 
take advantage of those kinds of things.
    Senator Snowe. So interception at sea is obviously a 
critical issue here, and I am talking about information, so 
that we have the information prior to a ship entering a port of 
the United States.
    Admiral Loy. Exactly.
    Senator Snowe. Is this something that could be turned 
around quickly? Is this something we can change?
    Admiral Loy. I met with Commissioner Barnard--Judge Barnard 
literally has, I think, been the new commissioner of the 
Customs Service for about a week now, and I had an initial 
meeting with him yesterday.
    I was literally waiting for him to come and sit in his 
chair so that we could forge the appreciation of each other's 
challenges in that regard, and selectively, collaboratively 
help Governor Ridge with putting that kind of thing right front 
and center as a first order of business for him to grapple with 
in his new responsibilities. But yes, ma'am, I think we do need 
to get to that immediately. I think you have an excellent 
point.
    Senator Snowe. In this report on crime and security, it 
went on to say, it is estimated that 95 percent of the cargo 
that enters the country from noncontiguous countries does so 
through its seaports. Obviously many of our seaports are 
located adjacent to or in major metropolitan areas. A terrorist 
act involving chemical, biological, radiological, or nuclear 
weapons at one of these seaports could result in extensive loss 
of lives and property, and so on, obviously.
    Admiral Loy. I remember standing 2 years ago with Secretary 
Slater at Houston, and we were standing in front of about 6 
tons of cocaine that we had apprehended in the middle of the 
Caribbean, and it should have been a day of great joy that we 
had just made a significant seizure and done something very 
good.
    The only thing going through my mind was, when those guys 
found their way through that load of iron ingots to find that 
cache of cocaine in the bottom of that freighter, what else 
could have been there? What else could have been there, and 
were we not able to design the challenges to the intel system 
to give us counternarcotics oriented products to work from, if 
we had not been able to do that, would we have even been aboard 
that freighter as it plied the Houston ship channel, an 
enormous challenge.
    So you are absolutely right.
    Senator Snowe. Is there any developing technology that 
could be embedded in these containers in some way that cannot 
be removed so there is a way of tracking?
    Admiral Loy. I think the crucial key as to whether or not--
first of all, your comments about the other nation's ports 
control process and how we are validating what was originally 
put in the container, is still there, and nothing else, and 
then it is the breaking the system en route. Can we seal them 
electronically in some fashion, so that as they approach the 
port we absolutely are convinced that they have not been 
reopened and something else added en route as they go from port 
to port, or in your case as it arrives in California and stops 
in Chicago on its way to Newark.
    I think the technology is there, and we simply need to be 
about that standard-setting process that makes that a solid 
part of our commercial experience in the country.
    Senator Snowe. Well, this report went on to say the state 
of security in U.S. seaports generally ranges from poor to 
fair, and in few cases good. That is not encouraging.
    Admiral Loy. I am not about to sit here this morning, 
Senator Snowe, and remotely infer that we have got a handle on 
this, or that you can rest comfortably that the maritime side 
of this homeland security package is Okay. It is not.
    Senator Snowe. So we really have to establish what is most 
critical, the highest priority that deserves our attention, and 
provide support to reinforce what you need to do.
    Admiral Loy. I would offer that we need to fill the cells 
there as it relates to activities and assets, and by assets I 
mean not only just--if someone is coming to the Hill today, 30 
days after the event, with a shopping list of everything that 
is going to make it well, they have not thought it through, I 
guarantee you that up front.
    The notion of a calm, accelerated but methodical thought 
process as to what activity set is important, what asset 
package is important, and what outreach to other people who 
have a legitimate responsibility in security, those are the 
array of things we need to populate that matrix with to gain a 
comfort zone between now and years from now, quite frankly.
    Are there things that surfaced at the top of the list? 
Absolutely, and we should get about those, and you have 
identified a couple. We need to get about those as quickly as 
we can, and in the meantime we have to have as comfortable a 
feeling as we can from this organization that we are doing in 
that other bar chart what the nation demands in port security, 
and not jeopardize the other missions that are important to 
national security at the same time.
    Senator Kerry. Would you yield for just a quick moment?
    Senator Snowe. I would be glad to.
    Senator Kerry. Admiral, how quickly could you submit to 
this Committee a list of your sense of the sort of asset 
priorities so that we can begin to make some judgments?
    Admiral Loy. I am in the middle of doing that exactly as we 
speak, sir. Within the administration that package will be 
coming together. From the Coast Guard's perspective I pretty 
much have a good feeling for it already, and will offer that to 
Secretary Mineta and to the administration as at least from 
where I sit the right way to go.
    Senator Kerry. Can we ask you, would you share that with 
us?
    Admiral Loy. Whenever I am licensed to do so with the 
administration.
    Senator Kerry. When you are licensed to do so. Well, maybe 
I should be more precise in my questions today, then.
    Admiral Loy. And I will push that license, sir.
    Senator Kerry. I assure you, we will, too.
    Senator Snowe. Just one other question. The force 
protection condition is what I know the FAA and our local 
officials, use to initiate their local plans. Is that what this 
is going to mirror?
    Admiral Loy. Absolutely. We already have very significant 
area contingency plans in the maritime sector in all the ports 
of the nation. I would say we owe that area contingency plan a 
stronger security chapter, based on what we have learned in the 
wake of September 11.
    Senator Snowe. So it will not just be the largest ports?
    Admiral Loy. Oh, no, ma'am. It will be all the ports.
    Senator Snowe. Because I think that is critical.
    Admiral Loy. There is a national core, and there are 
obviously unique natures to each and every one of those ports. 
Some of them have a nuclear power plant. Some of them have a 
Navy base. Some of them have an oil terminal. Some of them have 
whatever they have.
    So there is a core, however, of what I will call--a model 
port would have attributes and thresholds that we want to 
maintain as a standard across the nation, and then any given 
port and its harbor safety committee should be about the 
business of guaranteeing those national standards, and deal 
with whatever is peculiar to their port.
    Senator Snowe. Thank you. Thank you, Mr. Chairman.
    Senator Kerry. Thank you, Senator.
    Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman. Admiral, I had 
visited a couple of our major ports in Florida this past 
weekend on the issue of security, and am encouraged with the 
port security bill that has come through this Committee, and of 
which will be offered an amendment on the floor by Senator 
Hollings, cosponsored by a bunch of us on the Committee, that 
will increase both the grants and the loan guarantees rather 
significantly for the upgrading of the port security. That is 
just one component.
    The other component is your component, and we need to make 
sure that you have the resources that you need as you go about 
the business of port security from the water side.
    As I listen to the dialog between you and the Chairman and 
Senator Snowe, it occurred to me that, with the application of 
technology in Florida, we have taken care of the problem that 
used to be rampant in our ports, and that was automobile theft, 
and I actually got into this 4 years ago as the elected 
insurance commissioner in Florida, because automobile thefts 
were driving up the insurance premium on automobiles, and I 
mean, it was rampant.
    So what we did was, we tapped a spinoff of space 
technology, a gamma ray machine that in essence takes a picture 
of the tractor trailer as it comes through. In essence it is an 
x-ray but without the radiation harmful side effects of x-ray, 
and you can see what is in that container. That is then lifted 
off of the tractor trailer and put onto the ship.
    It has virtually now, on the East Coast of Florida--the 
first one 4 years ago was at the Port of Miami. We now have 
them at Miami, Everglades, Canaveral, and Jacksonville, and I 
just went and saw the one operating normally in Jacksonville 
this past Monday. It has virtually stopped theft of 
automobiles.
    Admiral Loy. In Florida.
    Senator Nelson. Now, that is in Florida, through ports.
    Now, that is the application of a technology. Now, that is 
a specific reason, and all of those containers when they come 
into that port, they go into that machine. It is probably no 
more than 15-second delay for a truck that is moving onto that 
port facility, and then if there is an automobile in there, 
they then check it with the manifest to see if, in fact, there 
is supposed to be an automobile or motor cycles, or all of the 
myriad things we saw going through the Port of Jacksonville on 
Monday.
    So I call that to your attention in case there might be 
some application of a technology such as that on the reverse, 
to take care of what the Chairman was talking about. Some port, 
somewhere in the world, loads a container. That container 
ultimately is bound for the United States. We really need to 
know what is in that container, and is it going to be so 
expensive to do that in other ports around the country, and is 
there any impediment to commerce, which there does not appear 
to be in what we have seen operating in those East Coast ports 
in Florida, so I throw that out there for your consideration.
    Admiral Loy. Senator Nelson, I think you are right on, and 
let me compliment the State of Florida, because I think the 
State of Florida, in terms of grappling with some of these 
issues, through yourself and certainly through Senator Graham 
and his sponsorship, with the last administration of the 
Seaport Security Commission, as well as Governor Bush and his 
challenges with, for example, the River Walk game plan down in 
Miami, we are focused on counterdrug, to be sure, but in the 
interest of, quote, cleaning up the Miami River, and all that 
that represented, enormous interagency cooperation and 
direction from the State of Florida made us get about the 
business of doing that job, so I think Florida has some good 
examples for lots of us to learn from, and we are looking very 
much at that.
    On the technology piece, that same gamma ray emitter is in 
several locations, for example, along the Southwest border as 
it relates to trucks coming and going to Mexico. If you take 
your notion and extrapolate it just a little bit to establish 
some kind of safe zone, you are talking about the containers 
going onto the ship and outbound, an enormously important thing 
to do.
    We also want to be able to do the same thing with those 
coming off the ship, inbound, Senator Snowe's challenge as to 
California-Chicago-Newark, and if there was a safe zone within 
that port that you could, in fact, run those guys through 
before they get on the truck, or on the train going to wherever 
they are going, that intermodal connectivity and guarantee by 
way of technology would be an enormously constructive addition 
to what we are doing in our ports today.
    The Chairman. There's no doubt in my mind that a lot of the 
long-term resolution of some of the issues of how we're going 
to keep commerce moving rapidly and not add cost that's 
prohibitive to the goods that we're moving is ultimately going 
to come from technology. There's no question in my mind that 
good venture capitalists right now, and the entrepreneurial 
spirit of this country, clearly see a market of opportunity. We 
have some of those great companies in Massachusetts. I visited 
a number of them who are doing all kinds of things with 
personal identification whether it's retina identification or 
fingerprint. I'm convinced we are going to find a way to 
facilitate a lot of these issues that right now seem 
confounding to us, but great technology fixes will help deal 
with the electronic surveillance. For instance, some containers 
could have seals that indicate whether they've been broken or 
not. These are just huge possibilities here. And I think some 
companies will both make a lot of money as well as provide a 
great deal of security for the country over the long haul by 
doing that. We should be pushing that, may I add. I think one 
of the most significant things the U.S. Congress could do right 
now is augment the federally funded research projects. The FFRD 
is where we ought to be heading and we should be pushing the 
technology curve very significantly. It should be one of the 
most important pieces of the economic stimulus package. This 
will create new high value-added jobs and will provide greater 
security to the country, and there are vast opportunities in 
that as far as I'm concerned.
    Admiral Loy. Yes, sir, if I may, just to go back and leave 
my thoughts on the table with respect to activities and assets 
and to be a bit more responsive to your question, the first 
level we have defined is this new normalcy. We're never going 
to go back to the September 10 chart that I showed you at the 
beginning, to find what the new normalcy is, what the nation 
wants out of this Coast Guard as it relates to not only port 
securities up-tick but is it or is it not at the expense of 
those other mission areas?
    The Chairman. I want to push you on that a little bit, 
Admiral. I know you don't have license yet for the full measure 
of what you're going to submit. I'm not going to ask you to 
tell me what you're going to submit. But I am going to ask you 
some fairly direct questions about that new normalcy, and I 
think we've got to have an understanding of it. Maybe I could 
ask the Commander to put the chart back up that showed the 
differential. Could we do that? We can't be sitting here in 
this Committee and struggling with you for 15 years or more. 
I've been on this Committee now for a long time. I've been here 
for 17 years. We've been fighting for the protection of our 
fisheries all of that time. We've closed fisheries in New 
England. We've seen a diminution in the Atlantic salmon. We're 
seeing tuna populations decline. You run through the species 
and we're seeing depletion, and all of us have known there's 
too much money chasing too few fish. So, if you reduce the 
effort, you have to manage the effort that you are engaged in 
because great sums of money are involved. Managing fishing 
effort requires enforcement. And you're the enforcing 
mechanism. I know it is unacceptable to Senator Snowe, myself, 
Senator Breaux, Senator Stevens, Senator Hollings, the people 
who have been part of this for a long time, to believe that 
there is any plusage or acceptability in diminishing that 
effort. So, when I look at this chart, the alarm bells go off. 
On fish, particularly, you've got a big blue chunk on the track 
there on the left and a tiny little red piece on the right, 
which means you have diverted very significant assets from fish 
enforcement. Is that correct?
    Admiral Loy. That's absolutely correct, sir.
    The Chairman. And I assume you would agree with me that's 
not supportable in the long haul.
    Admiral Loy. Well, that's absolutely my conviction, and I 
would offer that in the wake of the roles and missions review 
for this organization 2 years ago, it is also the 
Administration's conviction because they've reinforced the 
findings of that particular roles and missions study. So, I 
think we're all sort of on the same--we may be in violent 
agreement about that as a notion that that array of missions, 
including especially those associated with national security 
implications, you know, those that are--this monetary 
connection between drug profits as an engine for international 
terrorism, absolutely the worst time for us to be backing away, 
in my opinion.
    The Chairman. Well, let me second that in a self-serving 
way. Three years ago I wrote a book called The New War, and 
it's interesting that CNN and countless others are now daily 
blasting us with a moniker about the new war. But the book was 
about the interconnection of all of these criminal 
enterprises--the flow of money, money laundering, the 
connection to drug trafficking, to gun smuggling, and to 
terrorism. It's all part of the same package.
    Admiral Loy. Absolutely.
    The Chairman. And I notice that a component of your 
reductions is also in alien migrant interdiction. So, in other 
words, you have an order to immediately protect ports and to 
reduce your interdiction of aliens coming illegally into the 
United States.
    Admiral Loy. Which is another dimension of that 
international crime market that you were describing earlier.
    The Chairman. But equally as significant, if not more, it 
is a potential dimension of the terrorist market.
    Admiral Loy. Absolutely.
    The Chairman. Because any one of these people coming in 
illegally could be a terrorist crossing the border, and if they 
now know, ``Gee, we've got the United States protecting its 
ports but I can get into the country and create some other kind 
of mischief,'' whether it's on a train or in a city, or a water 
supply, that doesn't make sense. That's not protecting the 
United States.
    Admiral Loy. Correct, sir.
    The Chairman. So, at least de minimis as I look at this 
chart, I know I want to get back to enforcement of other 
priorities as well. And for Senator Snowe and me and others, 
where we were on September 10 was not adequate. And I don't 
think it was for you. Am I correct?
    Admiral Loy. We have always felt we could do more for the 
nation if we at least had 100 percent operational capability of 
the resources we currently have.
    The Chairman. So, you were basically doing the best you can 
under difficult circumstances?
    Admiral Loy. Yes, sir.
    The Chairman. Now, you're doing the best you can but only 
in targeted areas. You know you're not doing the best you can 
because you know you're not at September 10 levels in other 
areas that are important.
    Admiral Loy. I think so. Yes sir.
    The Chairman. So, at least we've got to bring you back to 
that level, many of us believe your real needs are well beyond 
that level. Now, currently the Administration asked us for $5.2 
billion for Coast Guard operations and programs this year. I 
know your answer. On the face of your testimony, you've already 
said that's not going to be enough. We've got appropriations 
bills on the floor now. We're dealing with this at this moment. 
We're going to enter into negotiations for a continuing 
resolution almost as we speak. I want to know, ballpark, what I 
ought to be telling Senator Daschle, Senator Lott, Senator 
Stevens, the appropriators, is rational here. Now, I mean, is 
$5.2 billion half of what we need?
    Admiral Loy. No, sir. It's not nearly that dramatic but I 
think, in my negotiations with both the department very 
strongly and with our pad level in OMB, we have a package there 
that I think would do several things that are important. One, 
we have to note that in the 2002 budget, for example, there is 
a line item that talks about a 15 percent operational 
reduction. I don't think this is the time for that, for this 
organization. There are specific assets that are being 
decommissioned sort of in advance of the Integrated Deepwater 
System project that you so correctly noted earlier in your 
opening statement. Deepwater level maintenance and those kind 
of port vulnerability assessments, the technology piece that 
Senator Nelson was talking about, attention to MDA, attention 
to that awareness prevention thing absolutely has to be done. 
We currently have a schedule associated with three major 
acquisition projects--Integrated Deepwater System, the National 
Distress and Response Modernization Project and the Port and 
Waterway Safety System project--all of those should be looked 
at very carefully, I think, for the potential that they 
represent to add port security to the nation in a more 
accelerated fashion than perhaps they are currently being 
scheduled for. We are scrubbing as we speak the requirements 
set in those projects to make absolutely certain that in the 
wake of September 11 the things we're asking our contractors to 
do for us are along the right path. If they need a 10 degree 
rudder change one way or the other, we need to get that to them 
early and we're working very hard to do that. So, Senator 
Kerry, I appreciate very much not only the inference but the 
strength of the support that you're describing and I will get 
to you as quickly as I can.
    The Chairman. Well, we'll talk. I'm going to talk 
personally with Governor Ridge and with Secretary Mineta and 
others, and I think as a Committee we are going to try to push 
this as a priority within the larger context of things. It's 
really incomprehensible to me that our budget choices here 
should be locked in by down-the-road reductions in the revenue 
level to the U.S. Government measured against the current 
needs. I mean, we just can't stay in a paradigm that some 
people thought existed last March and many of us said then did 
not exist. Now we know even more that it's gone. We know it by 
the stock market. We know it by the losses of jobs across the 
country. We know it by the economic figures. I'm not going to 
go to the ``I told you so'' routine, but there's just a deep 
sense among a lot of people here that knowing what we now know, 
having believed that something was folly before, that 
continuing down that road and short changing you, for drug 
efforts, for immigrant interdiction, etc. is unacceptable on 
its face.
    Admiral Loy. And it's not shortchanging me. It's 
shortchanging the American people.
    The Chairman. That's what I mean and I appreciate your 
saying it more clearly. Senator Hollings wanted me just to 
check with you. On his port security bill, which I know you 
support and you've already testified several times favorably in 
response to, he'd like to proceed with that bill next week and 
obviously we think that's imperative, but we haven't heard from 
the Administration yet. Do you have any sense of when we're 
going to get the Administration's report or the Department's 
report on this?
    Admiral Loy. My understanding is that, when the last I 
touched that base, was that we were sort of re-licensed to 
offer ideas, whatever would be appropriate to Senator Hollings' 
bill, and we want very much to do that.
    The Chairman. Could you try to help us do that this week so 
we could begin to get rolling on it?
    Admiral Loy. I surely will.
    The Chairman. I know you're pressed but if you can, that 
would be great.
    Admiral Loy. One of the things that's most important is 
this authorities piece. You know, part of the asset column is 
not about boats and planes, although there's a significant body 
count piece to that, absolutely. But the other notion is the 
authorities piece. In order words, we have a strong inventory 
of authorities that we haven't yet used in terms of the 
regulatory aftermath of having that authority but there may be 
a couple of other ones that in the wake of lessons learned 
since September 11 we would encourage Senator Hollings to have 
as inclusive in the bill. So, yes sir, we will aggressively get 
at that.
    The Chairman. Admiral Allen, with respect to the Atlantic 
and your command, is there anything you would like to share 
with us relative to the questions I've asked Admiral Loy? 
Perhaps you could tell us about the reductions you've had to 
make or the needs that you may have at this time.
    Admiral Allen. Yes, sir. I think the challenges for 
Atlantic Area and in the Pacific Area my counterpart Vice 
Admiral Riutta are to translate the commander's intent provided 
by the Commandant, focus on the leadership he's provided us 
especially in terms of this intelligence piece and creating 
that awareness and then translating that into short term 
tactical moves that we can make while we address the longer 
term issues of technology, domain awareness and then getting 
the assets in place. That requires us to come up with some kind 
of sustainability plan on the order, I would say, about 12 or 
18 months while the budget process does its thing and policy 
decisions are made. That forces the field commanders into 
making some very tough decisions, a way to allocate the 
resources we have against the largest threat. Immediately 
following the 11th, all the major cutters in Atlantic area were 
deployed in defense of our ports. We have the issues about 
sustainability for those operations and what's going on in the 
closed fisheries areas. The day before the 11th we had just 
made a major scallop seizure on a closed area. We know there 
are issues to be dealt with out there. I have tasked my 
district commanders to come back to me and reconcile those 
lists of critical assets that Admiral Loy alluded to against 
their current mission threats out there from the other mission 
areas and within the next couple of weeks provide me a force 
lay down on what they would do against those highest 
priorities. I then have to feed that back to the Commandant. 
We're going to have a short term game plan but the big issue in 
the field right now is sustainability, sir. We have called up 
reservists. Nearly one-third of the reserves in the Coast Guard 
are called up at this point. We have put a general cap on that 
because if we call anymore up and this extends beyond six or 
twelve months, we will burn out our ability to refresh the 
reserve forces. We have had Auxilary stand-by search and rescue 
watches at our stations so the active duty crews can go out and 
do port security issues. So, we have a sustainment issue with 
our volunteers too. It's a matter of taking those base 
resources that we had pre-September 10, applying them to the 
New Normalcy, and identifying two deltas for Admiral Admiral 
Loy, the delta to achieve the New Normalcy and then how do we 
buy back some of that mission space so that we're doing our 
jobs out there in the fishing grounds in the straits of Florida 
and the deep Caribbean, sir.
    The Chairman. Which is a worse predicament--lack of fixed 
assets, cutters, patrol boats, etc., or personnel? Or is it 
simply both?
    Admiral Allen. Well, there are personnel assets and also 
the information technology thing. We're moving very quickly as 
Admiral Loy noted to stand up a fusion center to know more 
about vessels, cargo, and people. The ability to look at that 
96 hours out then gives me times the tactical commander to 
react to it. The challenge placed on my shoulders is take that 
information and develop that into an action plan so the 
knowledge of a passenger or a cargo is acted upon as far 
offshore as we can. That means I have to allocate those 
resources where I need to do them based on that intelligence. 
Right now, we're trying to develop force multipliers. Based on 
the outstanding rapport that's been developed between Admiral 
Loy and Admiral Clark in the Navy, we're actively pursuing 
partnerships with CINCLANT fleet to transfer assets from the 
Navy to the Coast Guard so we can leverage all armed forces 
under the command of the Coast Guard captain of port.
    The Chairman. I know as a matter of order of priority the 
maritime buoys aren't as high as port security or drug 
interdiction right now, but, Mr. Gudes, what's the impact of 
the lack of current support for those buoys and how do we 
stopgap that as we go forward?
    Mr. Gudes. They are very important. We have them around the 
country. The way it works now, we repair and maintain them, 
procure them, the Coast Guard brings them back into our 
national data buoy center in Bay St. Louis, Mississippi, where 
they're repaired. If all this continues long term, we're going 
to have to look at some other arrangements. They'll have to be 
brought back in. They're a public safety asset and we'll work 
on that.
    The Chairman. Can that be privately contracted?
    Mr. Gudes. We may have to do that. We may have to also talk 
to a military seacoast command but I'd have to refer, I mean, 
that's really the Coast Guard's mission. It's a partnership. If 
you go to Bay St. Louis, Mississippi, to a national data buoy 
center, you'll find NOAA personnel and Coast Guard personnel 
working together. This is another example I could have used at 
the beginning. Could I just add one other thing, Mr. Chairman?
    The Chairman. Sure.
    Mr. Gudes. I'd just like to say that there are a number of 
programs that NOAA was working on before September 11 that I 
think do relate to all the sort of issues you've talked about. 
We worked a lot with the Coast Guard and Maritime 
Administration on what we call maritime transportation system. 
In terms of NOAA's role I said about environmental information, 
it's things like electronic navigation charts, which before 
September 11 were about safety and improving port efficiency, 
going back to some of the comments that were made. That's just 
as true now, probably more true and in terms of fisheries 
enforcement, of course, since we have the fisheries service in 
NOAA, it is critically important to us, but there are 
technologies like vessel monitoring systems which by having 
those out on all fishing vessels, some of that's being done in 
New England now. That's a very effective way, and we also have 
joint project agreements, joint enforcement agreements, where 
we're asking the states, we're deputizing the states to do more 
fisheries enforcement. The Coast Guard does the lion's share of 
certainly blue water fisheries enforcement, but we also have 
fisheries enforcement agents at ports and we do undercover work 
at operations on endangered species and being able to work with 
the states is clearly important. And once again, I want to 
thank the Congress because it was actually your efforts, 
Senator Hollings' efforts, Senator Gregg's efforts, Senator 
Snowe's efforts and others that came forward and gave us 
funding last year to help reimburse the states for that 
mission. So, thank you.
    The Chairman. Thank you very much, Mr. Gudes. The last 
question from me. I need to then excuse myself momentarily. 
I'll leave the gavel with Senator Snowe, but I have to attend a 
Finance Committee stimulus package meeting for a brief period 
of time and then will try to get back here. But the Coast 
Guard, I understand, has been diverting resources to provide a 
500 yard protective zone to Navy vessels, and I'm wondering 
what sort of resources that demands and diverts. Does the Navy 
pay you for that separate piece? What's the relationship here 
in that and is that a good diversion of your resources at this 
point?
    Let me take a quick crack at it, sir, and then let Thad 
tell you what's going on down in Norfolk. In the wake of the 
Cole tragedy in Yemen, there obviously was all of a sudden a 
great, great surge of interest with respect to force 
protection, not only overseas but as it relates to bases and 
vessels, stateside as well. I have spoken to Admiral Clark 
about that on a number of occasions and suggested to him that 
sort of the first order decision was his. Would anybody other 
than the Navy ever be responsible for the protection of Navy 
people, bases, and assets and if his answer to that initial 
question was either yes or maybe, then we ought to talk more 
about whether or not that is an appropriate niche competency 
that we could offer to the Navy if it was adequately funded and 
developed and resourced over time. I think the school is still 
out a bit on the answer to the first question, but in the 
meantime, events as they often do, you know, jump into to 
demand immediate actions and immediate decisions. And so, on 
the 11th of September and thereafter, Thad in the East Coast 
and Admiral Riutta on the West Coast have in fact been 
challenged in San Diego, in Honolulu, in Norfolk. In all of 
these, whether it's New London, Connecticut or Bangor, Maine, 
all of these places had enormously important, quote, critical 
infrastructures. All over the U.S. and assets needed to have 
the attention of whatever force protection was appropriate, 
waterside as well as landside. And so, there's been a number of 
places where individual commanders locally have gotten together 
and sorted out how best to do that for the moment until the 
bigger answer is forthcoming.
    Admiral Allen. Senator, in the wake of the September 11 
attacks, Admiral Riutta and I issued emergency rules under 
Title IV USC 91 that allows us to put a zone around Naval 
assets for their protection and what that rule consisted of was 
a 500 yard zone which if you entered that zone you had to be 
going just fast enough to control the boat. There was another 
inner zone of 100 yards that was established where you could 
not penetrate and could be directed out and that carried 
criminal fines and penalties associated with it. The authority 
to enforce that zone resides both with the Coast Guard and with 
Navy under law. So, then it becomes a shared resource issue on 
how most effectively to apply the zone. And what we've done is 
we've taken the fleet concentration in Hampton Roads which is 
the largest fleet concentration in the world for the Navy, and 
we are setting up emergency procedures right now that will go 
into effect probably next week for a Joint Operations Center 
where the Coast Guard and the Navy will jointly operate that. 
It's important that we do it jointly even if the Navy assets 
are out there on the water because there's a shared use of 
Hampton Roads harbor with a lot of commercial traffic and we 
have to mitigate the impact of anti-terrorism enforcement 
protection measures for the Navy with the flow of commerce, 
which is very important post September 11. And that means 
reaching out to the community too and being a bridge not only 
to DOD but the local law enforcement community and the local 
maritime association there, sir. We're actively working at it 
and we hope to get a good working prototype that we can export 
to the other fleet concentrations around the country, sir.
    The Chairman. Well, I appreciate your answer. I guess in 
the aftermath of the 11th a lot of things are provisional, but 
my counsel would strongly be that, while I completely agree and 
accept that you have to coordinate, and that even if there were 
Navy personnel and Navy assets out there, you'd need to be in a 
coordinated status. I think the strong preference would be, 
given the way you're strapped on these three or four other 
areas, for the Navy to use its capacity to ensure protection of 
its assets and personnel on the water. To tie up your personnel 
and protection of the Navy, which is after all also on the 
water, it seems to me that there ought to be a capacity to deal 
with that themselves.
    Admiral Allen. Yes, sir. If I could add a comment. The 
Navy's very much aware that what they want is our statutory 
authorities and competency. They're more than willing to flow 
assets toward us. So, it's things we can add without bringing 
more resources to the fight and that's what we're brokering 
right now with Admiral Natter at Cinclaws Fleet.
    The Chairman. Well, I'm glad to hear that, and I encourage 
that obviously to happen. I think that's a good thing. Senator 
Snowe.
    Senator Snowe. Thank you. Just several more questions. 
Admiral Loy, Senator Kerry was referring to the legislation 
authored by Chairman Hollings on the Port and Maritime Security 
Act. Are there threat assessment schedules in that legislation? 
Obviously, that's going to have to be expedited. Will there be 
some input from you, some suggestions as to how we should make 
some changes in that legislation? Frankly, I think that threat 
assessments should be done here and now in terms of the various 
ports. Is that under way now?
    Admiral Loy. It is under way now. It is under way on 
unfortunately a slow bell and I couldn't agree with you more. 
At the very least, one of the things that would be included in 
our input to you with respect to that bill would be to at least 
get to the 50 ports that I described earlier out of the 360, to 
get those assessments done absolutely as quickly as we can and 
then allow the port itself to, together with all of its federal 
colleagues and partners, deals with closing the gaps that are 
found as those vulnerability assessments are taken. Yes, ma'am, 
that should be done right away.
    The Chairman. Admiral, I need to excuse myself to go to 
this meeting and I'll be back as soon as I can, but I just want 
to say thank you to all of you. Thank you for the job that 
you're doing, and please convey to all of the Coast Guard 
personnel our confidence and our gratitude for the long hours 
and great efforts they're making. We're proud of you.
    Admiral Loy. Thank you, Mr. Chairman.
    Senator Snowe. So, at least for the top 50, that will be 
done immediately.
    Admiral Loy. I think it should be done within a year.
    Senator Snowe. Within a year?
    Admiral Loy. Yes, ma'am.
    Senator Snowe. That sounds like a long time.
    Admiral Loy. It's all about the wherewithal to do it.
    Senator Snowe. I assume that certain things would be done 
in any event in the meantime?
    Admiral Loy. Those things are going on.
    Senator Snowe. The obvious vulnerabilities.
    Admiral Loy. We have had with the defense threat reduction 
agency a game plan where frankly we're now very much poised to 
do these and do these pretty efficiently. We learned in 
Baltimore; we learned in Apra Harbor in Guam; we learned in 
Honolulu and we have a couple going on as we speak. So, the 
notion of having gotten the bugs out of the process of how do 
one, those things are behind us. We are absolutely poised to go 
do those as quickly and as efficiently as possible.
    Senator Snowe. In working with the local communities, for 
example, on perimeter security and some of those issues, at the 
various ports?
    Admiral Loy. Yes, ma'am. Physical security, whether it's 
fences, alarm systems, cameras, all those kinds of things, are 
absolutely a part of those assessments.
    Senator Snowe. Now, let's turn to the sharing of 
information and intelligence. I notice that you listed a number 
of agencies. This is an issue that I became well familiar with 
when I was on the Foreign Relations Committee and the Foreign 
Affairs Committee in the House as well. We worked on this issue 
of information sharing and having the State Department have 
access to the FBI national criminal identification center. It's 
been a long-standing issue. In any event, my concern is how we 
go about having this kind of information sharing. I know we're 
going to have it in the anti-terrorism bill and I worked on 
that component as well. Frankly, I would like to see it go a 
step further and include the CIA, DEA, Immigration and Customs, 
and not just be between the State Department and the FBI. It's 
important that the State Department have the most up-to-date 
information so visas are not issued to individuals who pose a 
threat to this country. But how are we going to go about 
getting this information sharing with the Coast Guard and all 
the other agencies? Is that something that you have talked to 
Governor Ridge about as well?
    Admiral Loy. Yes, ma'am. I absolutely did and it was 
interesting. In his moment with the President, when he was 
sworn in the other day, one of the things that he mentioned was 
pieces of pottery that might be left around in terms of rice 
bowls that would be broken along the way if necessary. When I 
chatted with him last Friday, I indicated to him that if he 
bought into my notion of awareness in front of the prevention-
response-consequence or management paradigm that the challenges 
that we have all had for many years in a variety of different 
functional efforts, counter drug, national security and many 
other places where an appropriate attention to sources and 
methods as being always very, very important for us to be 
concerned about but to find a way for the fusion process of 
information sharing to actually occur because until we did 
that, we will be right back where we started on September 11 
and that's not where we want to be.
    Senator Snowe. And I would agree. In fact when you mention 
sources and methods, that was one of the issues. When I was 
working on this issue, we actually passed a provision back in 
1994. Regrettably, somebody incorporated in it a sunset 
provision, which expired in 1998, where the State Department 
would have had full access to this information. But in any 
event, I did manage to get through a provision to address your 
concern with revealing sources and methods. It's true if you 
compromise either criminal investigation or identify sources of 
methods. And actually, in the law there is a provision that got 
enacted in 1994 in response to the World Trade Center bombing 
of 1993, that would give law enforcement officials an out if, 
in fact, it would compromise serious intelligence and 
classified information or jeopardize a criminal investigation. 
So, it is in the law, that type of thing, to address that very 
issue, so that they wouldn't be reluctant or resistant to share 
that information. We really do have to break down these 
barriers.
    Admiral Loy. Two thoughts that I have. One, in the 6-months 
since we started this project, in our Intelligence Coordination 
Center in Suitland, and by the way I'd be honored to escort you 
over there some day so you could see it first hand.
    Senator Snowe. I'd like to see it.
    Admiral Loy. There has been a solid growth of willingness 
and from the involved agencies to share the information they 
have to yield a better product for all of us to work from. The 
second piece is, I think there's a bit to be learned from Joe 
McCaffrey's challenge to us of a year and a half ago. Well, we 
kept sort of pointing to the Intel people saying we're not 
getting the right kind of products out of you. Therefore, we're 
not doing our jobs as well as we could. His counterchallenge to 
us was have you defined the requirements adequately to the 
Intel community so they can organize themselves to produce 
those things that would be helpful to you. So, one of the 
notions that I tried to leave with Governor Ridge was to accept 
the challenge of defining the requirements about awareness that 
we need to do better homeland security and then that, as it did 
in the drug war, they created a new organizational element 
within the agency and other places to facilitate providing us 
tactically actionable products. And as you know, we just had 
our third consecutive record year in cocaine seizures out of 
the transit zone as a result of those very things happening. 
So, there's a lesson there for us. You take out drugs. You put 
in terrorism and capture the notion about defining the 
requirements of your needs from the intelligence community and 
let them rise to the occasion.
    Senator Snowe. On the search and rescue readiness, it was 
already documented by the Inspector General's report in 
September that we had some serious readiness problem in that 
regard. You rightly have placed search and rescue as a top 
priority along with homeland security. How do we address the 
OPTEMPO issue for your personnel?
    Admiral Loy. It's one of two things. It's an infusion of 
resources that allows the reasonableness of OPTEMPO to be 
gained or it's obviously, with respect to this chart, some kind 
of a reduced acceptance on the part of the American people that 
that's all the functionality they want out of the Coast Guard, 
and I don't believe the answer to that last question is yes. I 
just don't believe it.
    Senator Snowe. We will have to figure it out because you 
have had to shift resources from some of these very important 
categories in order to address this high security threat. We'll 
have to do that, but I hope for the long term we can find a way 
of identifying some resources to support these other critical 
missions and find a way so we don't have to do that kind of 
shifting of resources.
    Admiral Loy. As I said, we're poised to do that in many 
ways, that we're poised. We just accepted from the three 
competing consortium for the integrated Deepwater System 
project just last Friday. Their proposals came in in final 
form. A red letter day with respect to all the efforts you and 
others have done to help us with that project along the way. 
NDRSMP and the PAWSS system, those are all projects right on 
the threshold of being productive for the nation and whether 
there's acceleration potential in them, we have to grapple with 
that as well.
    Senator Snowe. One other question is can we use fishermen 
as an auxiliary on the waters? I mean, they obviously can also 
help to be our eyes and ears. Is there any way for us to be 
able to use them? I mean, during World War II, they augmented 
our activities on the sea.
    Admiral Loy. Yes, ma'am. As you say, we need sensors out 
there and whether they are sophisticated technological sensors 
and satellites going overhead and whatever, that's one 
contribution to Maritime Domain Awareness. The other 
contribution is that every fisherman is a sensor and to capture 
that notion is something that we are in fact thinking of very 
strongly. We think in the course of the last 10 to 15 years, 
you know, I love those guys, they're the most independent 
people on the face of the earth. But we have accommodated a 
mutual respect, I think, for each other and at this point 
especially the patriotism that every American is finding a way 
to contribute, searching for a contribution they can make. That 
is clearly one that we can gain from the fishermen.
    Senator Snowe. I certainly think so and I think you're 
right. Individually and collectively, we can make a difference 
if we're all aware of our surroundings and being vigilant. They 
certainly could play a role in that regard, a very important 
role. Mr. Gudes, one question, on law enforcement, on fisheries 
enforcement. I know as I said earlier that you've had to shift 
some of your law enforcement personnel for investigative 
purposes. How is that affecting the fishery enforcement? What 
do we need to do to address that issue?
    Mr. Gudes. The first issue, as I pointed out before, we're 
trying to rely as much as we can on these law enforcement 
agreements that we've reached with states. We're shifting 
around the remaining officers to cover areas that we need to 
look into. I do think if this continues long term there are 
some issues we're going to have to deal with as an agency. I 
still think that the decision that we made on September 11 was 
the right one, that to allocate these resources to what I 
thought was the highest priority at that time. But as it 
continues long term, this is something we'll have to take a 
look at.
    Senator Snowe. I would hope that you share your information 
with the Committee because we want to support you in that 
regard and not have fishery enforcement affected in the long 
term because that is obviously important. So, I hope you'll 
stay in touch with us on that because we certainly would want 
to provide some support.
    Mr. Gudes. I absolutely agree and the comment I made 
before, I was just reminded when I talked about vessel 
monitoring systems; again, this provides a two-way 
communication, not only to be able to know where the fishermen 
are fishing for law enforcement purposes, for regulatory 
purposes, but also to be able to contact back immediately back 
to port. So, it's one of these dual use technologies, if you 
will, some term that you use in the national security world.
    Senator Snowe. And I understand that the National Marine 
Fisheries Service agents may be used as air marshals. Is that 
true in the short term when the FAA hires and trains additional 
marshals?
    Mr. Gudes. Yes.
    Senator Snowe. That is true?
    Mr. Gudes. Yes, we have 21 agents that we came forward. 
Again, they're already trained as law enforcement agents and 
when the call went out a few weeks ago we looked at our 
resources and decided that we could offer 21 agents that could 
immediately, with very little training, take part in helping 
secure the airways. And, again, that was a decision I made that 
we made but I think it was the right one.
    Senator Snowe. I want to thank all of you for being here 
today. I certainly appreciate your service to our country and 
to everyone involved and to all of the men and women in the 
Coast Guard. Please express our appreciation and gratitude for 
what they're doing day in and day out.
    Mr. Gudes. Thank you, Senator Senator Snowe, I sure will.
    Senator Snowe. And we thank you, Admiral Loy. Thank you for 
the leadership that you have provided consistently in your 
tenure. Also, we want to do all that we can to be helpful and 
supportive in that regard. We thank you.
    Admiral Loy. Thank you, ma'am.
    Mr. Gudes. Thank you, Senator.
    Senator Snowe. May we ask the second panel to come to the 
witness table, please? I certainly want to welcome the second 
panel. We appreciate your presence here today. We have with us 
Admiral Rick Larrabee, Director of Port Commerce, Department of 
Port Authority of New York; Captain Michael Watson, President 
of the American Pilots' Association; Captain Jeff Monroe, 
Director of the City of Portland, Maine Department of 
Transportation; and Mr. Ken Petersen, Executive Director of the 
Maritime Security Council. Why don't we begin with you, Admiral 
Larrabee.

   STATEMENT OF RICHARD M. LARRABEE, DIRECTOR, PORT COMMERCE 
           DEPARTMENT, THE PORT AUTHORITY OF NY & NJ

    Mr. Larrabee. Thank you Senator Snowe.
    Senator Snowe. I might also mention that we will include 
the entire text of your statements in the record.
    Mr. Larrabee. Thank you for the opportunity to testify this 
morning on this very important issue. As you said, I'm Rear 
Admiral Richard M. Larrabee, United States Coast Guard Retired 
and I am currently director of Port Commerce at the Port 
Authority of New York and New Jersey. On behalf of the Board of 
Commissioners and all of our staff, I want to thank you, 
Senator Snowe, and all the Members of Congress for your 
outpouring of support for all of us in the New York, New Jersey 
region so directly impacted by this terrible event. The Port of 
New York and New Jersey is the third largest in the nation and 
the largest port on the east coast of the United States. Last 
year the port handled over 3 million containers, 560,000 
automobiles, and it's the largest handler of petroleum products 
in the nation. As the Commandant stated earlier, ports like New 
York and New Jersey are the key transportation links in our 
global trade. As a result, ports are an essential component of 
the nation's economy and provide the critical intermodal link 
for the transfer of goods from ships to our national landside 
transportation network. On September 11, the world witnessed 
the use of a civilian transportation vehicle as a weapon to 
destroy property and take the lives of thousands of innocent 
people. The tragic events of that day underscore the critical 
need to meet America's transportation requirements while 
ensuring the safety and security of our nation. In the 
immediate aftermath of the attacks on the World Trade Center, 
the Pentagon and the crash in Pennsylvania, the Port of New 
York and New Jersey was closed by the U.S. Coast Guard Captain 
of the Port as a precaution against potential terrorist threat. 
The response by federal, state and local enforcement agencies, 
along with the support and cooperation of private marine 
terminal operators and their security teams was well 
coordinated and very orderly. The port was reopened on the 
morning of Thursday, September 13 under new procedures 
established by the Coast Guard, Customs, local law enforcement 
and those terminal operators. As the Commandant stated in his 
testimony, the waterside procedures have included advance 
notice of vessel arrivals, ship boardings and additional 
security measures to protect shoreline assets. Additionally, 
security measures were also instituted at land sites of our 
port operation. These included increased targeting and 
inspection of cargo containers by joint federal teams, 
increased physical security, increased patrols at roadway 
checkpoints within the port, restrictions on all foreign cruise 
going ashore and regular security meetings among federal, state 
and local law enforcement agencies and all of the operators of 
the port. Over the past month, we have raised many questions as 
to how national security in general and port security 
particularly will be coordinated, managed and most importantly 
funded. Under current manning and mission priorities, the Coast 
Guard and other agencies are able to adequately respond in an 
intensive way to these types of events, but these organizations 
can only sustain this level of security for a short period of 
time. Currently, there are not enough resources in terms of 
personnel and equipment to maintain this level of security over 
an extended period within the Port of New York and New Jersey, 
let alone the rest of the nation. Senator Snowe, I congratulate 
you and the other Members of this Committee for taking up this 
important issue at this time and respectfully request that you 
seriously consider the Coast Guard's and other agencies' needs 
for both personnel and equipment to provide the level of 
protection and response that we need as a nation. In addition 
to the issues of resources among the challenges that we face in 
addressing the issue of port security is the question, as the 
Commandant said, ``Who's in Charge?'' In 1989, in the wake of 
Exxon Valdez, we faced a similar question when it came to 
identifying who was in charge in the event of an oil spill in 
one of our harbors. Today, we have an answer to that question 
because this Committee, the Congress and others took a 
coordinated approach to developing new laws that laid out clear 
responsibilities and roles for each of the agencies involved in 
responding to an oil spill. This could serve as a model to 
coordinate the various agency jurisdictions to first prevent 
and, if necessary, respond to a terrorist attack on our ports. 
It is an issue we hope that the Office of Homeland Security 
will address.
    Communication is the foundation for coordination among the 
various agency responsibilities for port security. These 
include sharing intelligence and threat assessment information 
among federal, state and local agencies, as well as certain 
limited private interests, such as terminal operators, when in 
those instances the private companies have an explicit 
responsibility for securing their operation against a potential 
threat. As a port director, I cannot give you or my superiors a 
fair assessment today of the adequacy of current security 
procedures in place because I am not provided with the 
information on risk analysis conducted to institute these 
measures.
    Senator Snowe, as you know, and the Committee Members are 
also aware, Senator Hollings has been considering the issue of 
port security well before September 11. He and Senator Graham 
are to be commended for their proactive thinking on these 
issues as representative of the Port and Maritime Security Act 
of 2001. My written testimony provides some specific comments 
on the current version of the bill and I appreciate the 
opportunity that is being afforded to the Port community to 
continue to participate in the development of this important 
legislation.
    Providing for national security goes beyond the law 
enforcement procedures and providing adequate resources. 
Investment in our transportation infrastructure is critical to 
both our national defense and our economic well being. This 
includes sometimes our overlooked elements of the 
infrastructure such as NOAA's navigation services, especially 
the tide and current program. NOAA's real time port system 
which has been inadequately funded over the last couple of 
years is an essential element along with the Coast Guard's 
vessel traffic system in providing mariners with safe, secure 
navigation entering and leaving our ports. We must begin to 
incorporate security needs in the design and construction of 
national transportation infrastructure, including the 
application of new technologies that enhance our security while 
minimizing the impact on the flow of cargo through our 
transportation systems.
    Finally, Senator Snowe, I want to commend you and thank the 
Commandant of the Coast Guard, the FBI, the U.S. Customs 
Service, the Immigration and Naturalization Service and a 
number of other agencies for the tremendous response they have 
provided to us in the New York/New Jersey region and the 
unprecedented level of cooperation among federal agencies and 
between federal and local jurisdictions over these past few 
weeks. Their efforts are deeply appreciated and will not be 
forgotten. Our hope is that with the support of the Congress 
and the Administration we can provide these agencies with the 
tools they need to sustain this level of service to the nation 
not only in times of crisis but over the long haul. Thank you 
again for the opportunity to testify. I'd be happy to answer 
any questions.
    [The prepared statement of Mr. Larrabee follows:]

  Prepared Statement of Richard M. Larrabee, Director, Port Commerce 
               Department, the Port Authority of NY & NJ

    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to testify on the important issue of port security given 
the events of September 11. I am Rear Admiral Richard M. Larrabee, 
United States Coast Guard Retired and I am currently Director of Port 
Commerce at the Port Authority of New York and New Jersey. On behalf of 
our Board of Commissioners and staff, I extend our thanks to Congress 
for the outpouring of support for all in the New York/New Jersey region 
so directly impacted by these terrible events.
    The Port of New York and New Jersey is the third largest in the 
nation and the largest port on the east coast of North America. Last 
year the port handled over 3 million containers and 560,000 autos. New 
York/New Jersey handles more petroleum products than any other port in 
the nation, along with a variety of other bulk and breakbulk 
commodities. The harbor also supports a wide range of passenger 
services including cruise ships and growing, as well as increasingly 
important, commuter ferry services. Ports like New York and New Jersey 
are key transportation links in global trade; ninety-five percent of 
U.S. trade comes by ship. The Port of New York and New Jersey serves a 
region of 18 million people locally and a larger population of 80 to 90 
million people within the 10 state region surrounding the port. Serving 
consumer demand for international goods is an essential component of 
our national economy and ports provide the critical intermodal link for 
the transfer of those goods from ships to our national landside 
transportation network.
    On September 11, the world witnessed the use of civilian 
transportation as a weapon to destroy property and take the lives of 
thousands of innocent people. The tragic events of that day underscore 
the critical need to meet America's transportation requirements while 
ensuring the safety and security of the nation.
    In the immediate aftermath of the attacks on the World Trade 
Center, the Pentagon and the crash in Pennsylvania, the Port of New 
York and New Jersey was closed by actions of the U.S. Coast Guard and 
local law enforcement as a precaution against a potential terrorist 
threat. This response by federal, state and local enforcement agencies, 
along with the support and cooperation of private marine terminal 
operators and their security teams, was well coordinated and orderly. 
The port was reopened on the morning of Thursday, September 13 under 
new procedures established by the Coast Guard, Customs, local law 
enforcement and terminal operators. These procedures include:

Waterside

  <bullet> At sea boarding by joint Coast Guard, Customs and 
        Immigration teams to inspect the vessel, paperwork and 
        crewmembers;

  <bullet> Tug escort from sea to dock;

  <bullet> Coast Guard Port Security Units (PSU) providing additional 
        waterside security, including the protection of national 
        assets;
Landside
  <bullet> Increased targeting and inspection of cargo containers by 
        joint federal teams;

  <bullet> Increased physical security;

  <bullet> Increased patrols and roadway checkpoints within the port;

  <bullet> Restrictions on all foreign crews going ashore except in the 
        case of medical emergency and repatriation.

  <bullet> Security meetings among all federal, state and local law 
        enforcement twice a week and with terminal operators weekly.

    These new, intensive security procedures highlight the means that 
the federal government and others will need to consider as we move 
forward in the weeks and months ahead. Over the past month, we have 
raised many questions as to how national security in general and port 
security in particular will be coordinated, managed and, most 
importantly, funded.
    Under current manning and mission priorities, the Coast Guard and 
others are able to adequately respond in an intensive way to these 
types of events, but these organizations can only sustain this level of 
security for a short period of time. Currently, there are not enough 
resources in terms of personnel and equipment to maintain this level of 
security over an extended period within the Port of New York, let alone 
the rest of the nation.
    I congratulate you, Mr. Chairman and the Committee, for taking up 
this important issue at this time and respectfully request that you 
seriously consider the Coast Guard's and other agencies' needs for both 
personnel and equipment to provide the level of protection and response 
that we as a nation now expect and require.
    While the focus of this morning's hearing is on the Coast Guard and 
NOAA, I know, Mr. Chairman, that you and the members of the Committee 
are aware that they are only two of several federal agencies that have 
a role in port security. In addition, there are state and local 
agencies that also have port security roles and responsibilities.
    Therefore, among the challenges that we face in addressing the 
issue of port security is the question of ``Who's in Charge?'' In 1989, 
in the wake of the Exxon Valdez disaster, we faced a similar question 
when it came to identifying who was in charge in the event of an oil 
spill in one of our harbors. Today, we have an answer to that question 
because this Committee, the Congress and others took a coordinated 
approach to developing new laws that laid out clear responsibilities 
and roles for each of the agencies involved in responding to an oil 
spill event. This could serve as a model to coordinate the various 
agency jurisdictions to first prevent and, if necessary, respond to a 
terrorist attack on our ports. It is an issue we hope that the Office 
of Homeland Security will address.
    Communication is the foundation for coordination among the various 
agencies responsible for port security. This includes sharing 
intelligence and threat assessment information among federal, state and 
local agencies, as well as certain limited private interests, such as 
terminal operators, when in those instances the private companies have 
an explicit responsibility for securing their operations against a 
potential threat. As a port director, I cannot give you or my superiors 
a fair assessment today of the adequacy of current security procedures 
in place because I am not provided with information on the risk 
analysis conducted to institute these measures.
    Mr. Chairman, as you and the Committee members are aware, Senator 
Hollings has been considering these issues of port security well before 
the events of September 11. He and Senator Graham are to be commended 
for their pro-active thinking on these issues. The Senate and others 
are actively considering the Port and Maritime Security Act of 2001. We 
look forward to reviewing this legislation with Congress, port 
operators and private interests to ensure provide adequate resources 
and funding are in place to provide the highest level of security, 
commensurate with the vulnerability and threat, while also maintaining 
the safe and efficient movement of commerce and protection of the 
public.
    Our success in providing heightened port security in the wake of 
the September 11 attacks clearly indicates that no one entity is 
responsible or capable for providing port security, but rather, it is a 
shared responsibility among federal, state and local law enforcement, 
and private security forces. Thus, any legislation must consider not 
only those partnerships but also private terminal operators and port 
authorities as well. The port industry must have the ability to work 
together with the local Coast Guard Captain of the Port to develop 
security guidelines and standards specific to the unique nature and 
vulnerability of each port area, rather than generic guidelines for all 
ports.
    One of the major provisions of the Port Security Bill calls for 
vulnerability assessments followed by the submission of comprehensive 
security plans. In the wake of recent events, the schedule of 
vulnerability assessments, which now calls for 50 ports over 5 years, 
must be accelerated or at least prioritized. At this point, the Port of 
New York and New Jersey is not even scheduled for a vulnerability 
assessment in FY 2002. I believe that this is inadequate.
    While the Port Security Bill continues to be revised, we commend 
Senators Hollings and Graham for drafting legislation that provides 
focus for a national policy on maritime security. We would, however, 
appreciate an opportunity to comment on any further revisions before 
the bill is finalized.
    Providing for national security goes beyond law enforcement 
procedures and providing adequate resources. Investments in our 
transportation infrastructure are critical to both our national defense 
and our economic well-being. Given our heightened awareness of the need 
for greater security, along with our effort to increase capacity at our 
ports, we can begin to incorporate security needs into the design and 
construction of national transportation infrastructure. This could 
include the application of new technologies that allow us to enhance 
our security measures while minimizing the impact on transportation 
systems on the flow of cargo.
    Finally, Mr. Chairman, I want to commend and thank the Commandant 
of the Coast Guard, the FBI, the U.S. Customs Service, the Immigration 
and Naturalization Service and a number of other agencies for the 
tremendous response they have provided to us in the New York/New Jersey 
region and the unprecedented level of cooperation among federal 
agencies and between federal and local jurisdictions over these past 
weeks. Their efforts are deeply appreciated and will not be forgotten. 
Our hope is that with the support of the Congress and the 
Administration we can provide these agencies with the tools they need 
to sustain this level of service to the nation not only in times of 
crisis, but over the long term.
    Thank you, again, for the opportunity to testify. I would be happy 
to take any questions.

    Senator Snowe. Thank you, Admiral Larrabee. Captain Watson.

  STATEMENT OF CAPTAIN MICHAEL R. WATSON, PRESIDENT, AMERICAN 
                      PILOTS' ASSOCIATION

    Captain Watson. Thank you, Senator Snowe. I am Captain 
Michael Watson, President of the American Pilot Association. 
This Association is the national trade association of 
professional maritime pilots. Its membership is made up of 56 
groups of state-licensed pilots, comprising virtually all state 
pilots in the country, as well as the three groups of United 
States registered pilots operating in the Great Lakes. APA 
members pilot over 95 percent of all international trade 
vessels moving in U.S. waters. We're grateful to be here today 
to provide testimony as you requested. Our members throughout 
the country have been working closely with the Coast Guard, 
helping to implement the security measures that were initially 
imposed as well as the measures that are currently in effect. 
In many places, this has required significant changes in 
pilotage operations. That could be seen in New York the day of 
September 11. When the port was closed our member groups main 
pilot station was put on duty at the Battery and for those 3 
days of closure was the command headquarters for the Coast 
Guard, the FBI, etc. Soon after September 11, we conveyed to 
the Commandant of the Coast Guard the full cooperation and 
support of the APA and its members. On September 25, my staff 
and I met with Admiral Pluta, Chief of the Coast Guard's Office 
of Merchant Safety, and his staff to identify ways that the APA 
and the Coast Guard can work together to enhance security in 
our ports and waterways. At that meeting, we agreed to 
establish an ongoing cooperative project to be conducted under 
our existing Partnership Agreement with the United States Coast 
Guard. Before discussing that, however, I would like to provide 
some background information on the role that the pilots have 
traditionally played, and can play, in port security. Under 
normal circumstances, an APA member pilot is the only United 
States citizen on a foreign ship moving in the fragile port and 
waterway system that is the lifeline of this country. In the 
traditional state pilot system, pilotage is a public service. 
The pilot's overriding obligations are to the state that issues 
the license and to the public. The pilot is not a member of the 
ship's crew. In fact, the state pilotage system seeks to ensure 
that the pilot is independent of the ship and of the control by 
the its owners and master. Pilots are not combat personnel, 
security guards, law enforcement officials, or inspectors. We 
need to be careful that we do not do anything that would 
detract from or jeopardize essential piloting functions. To do 
so would create a risk of an accidental catastrophe that could 
have effects just as devastating as the one occurring by 
terrorist design. Pilots are frequently referred to as the eyes 
and ears of a port and they are in a unique position to detect 
suspicious or unusual activities. As mentioned earlier by 
Senator Kerry, information is probably one of the greatest 
weapons we have today in this threat and the pilots with their 
partnership agreement in the Coast Guard are positioned to 
provide that information. A major part of our partnership 
project with the Coast Guard is an examination of ways to 
improve communications between pilots serving on ships and the 
Coast Guard. Pilots recognize the Coast Guard as the ultimate 
agent for port security. We depend on them and expect them to 
provide assistance to any pilot who has a problem with a crew 
member or someone else on a ship who would interfere with the 
pilot's job. Pilots have long been aware of the possibility 
that a ship could be involved in an act of terror, either as a 
target or as a weapon. There are two potential types of 
terrorist attacks that most concern pilots. The first would be 
where one or more individuals takes control of the ship, away 
from the pilot, with the intention of steering it into another 
ship, a bridge, a fuel dock, etc., to create maximum 
destructive potential. The second case would be, as in the case 
of the USS Cole, a deliberate suicide attack on a vessel 
carrying hazardous cargoes coming from outside of the ship. 
Several of the security measures implemented by the Coast Guard 
since September 11 will help to prevent this particular threat. 
One is the 96 hour advance notice of arrival, which we totally 
support. In some ports, the Coast Guard has initiated boarding 
parties and a sea marshal program in which armed personnel 
board the ship and remain on board during its transit of U.S. 
waters with the pilot. Our pilot groups have assisted in this 
program both in the Atlantic and Pacific regions. Other Coast 
Guard initiatives may provide additional help. We support the 
Coast Guard's current consideration of placing controls on the 
people who can take simulator training, especially port-
specific programs on full mission bridge simulators. Also, we 
would urge the Coast Guard to tighten up its scrutiny in the 
issuing of seamen's documents and controlling who in fact are 
on board our U.S. flagged vessels. I believe in the long run 
working with the Homeland Security, the ports, etc., that we 
can develop a proper security system in this country that will 
have minimum affect on our marine transportation system as a 
whole. We support the Coast Guard as the primary agent of port 
and waterway security. There is no question, however, that the 
Coast Guard currently lacks the resources necessary to fulfill 
all of the security missions that it will certainly have. As 
Admiral Larrabee said, NOAA also too is grossly underfunded. A 
very important project that he mentioned, I'm a member of the 
MTS National Advisory Council to Secretary Mineta and the first 
recommendation of that Committee prior to this incident was to 
get more funding for NOAA's ports program. That's an added need 
for both the Coast Guard and the civilian end of our navigation 
system. Again, I thank you for allowing me to be here today and 
I assure you that the members of the American Pilot Association 
are committed to working with the Federal Government in making 
our ports more secure. Thank you very much.
    [The prepared statement of Captain Watson follows:]

 Prepared Statement of Captain Michael R. Watson, President, American 
                          Pilots' Association

    Good morning Mr. Chairman and Members of the Subcommittee. I am 
Captain Michael Watson, President of the American Pilots' Association. 
The APA is the national trade association of professional maritime 
pilots. Its membership is made up of 56 groups of state-licensed 
pilots, comprising virtually all state pilots in the country, as well 
as the three groups of United States-registered pilots operating in the 
Great Lakes. APA members pilot over 95 percent of all international 
trade vessels moving in U.S. waters.
    Our members are evaluated, examined and regulated by both the 
federal and state governments and are charged to provide our ports with 
safe, efficient, and reliable pilotage service (i.e., the movement of 
all foreign vessels in the many ports of our country). Our allegiance 
is not to any one company or business, which has only its bottom line 
profit at stake, but rather to the citizens of our country by 
protecting the environment, property and the economic interest of each 
port area. I am proud to say that the American Pilots' Association is a 
formal partner working with the United States Coast Guard and N.O.A.A. 
as a team to accomplish these goals as well as preventing acts of 
terror against our citizens.
    The APA is happy to provide the Subcommittee with information and 
assistance in its examination of security against maritime threats and 
the response to the September 11 attacks, maritime security threats and 
proposals for addressing them and how these activities may affect the 
our groups as well as the business community which we serve.
    The events of September 11 have had a profound impact on our 
members, as Americans and as pilots. The day-to-day operations of 
pilots have already been impacted by the terrorist attacks. Our members 
throughout the country have been working closely with the Coast Guard 
helping to implement the security measures that were initially imposed 
as well as the measures that are currently in effect. In many places, 
this has required significant changes in pilotage operations.
    Soon after September 11, we conveyed to the Commandant of the Coast 
Guard the full cooperation and support of the APA and its members. On 
September 25, my staff and I met with Admiral Pluta, Chief of the Coast 
Guard's Office of Merchant Vessel Safety, and his staff to identify 
ways that the APA and the Coast Guard can work together to enhance 
security in our ports and waterways. At that meeting, we agreed to 
establish an ongoing cooperative project to be conducted under our 
existing Partnership Agreement with the Coast Guard. Before discussing 
that, however, I believe that it would be valuable to provide some 
background information on the role that pilots have traditionally 
played, and can play, in port security.

The Pilot's Role in Maritime Security
    Under normal circumstances, an APA-member pilot is the only U.S. 
citizen on a foreign ship moving in the fragile port and waterway 
system that is the lifeline of this country. The pilot comes aboard the 
ship while it is in U.S. waters to direct its navigation and to prevent 
it from engaging in unsafe operations.
    In the traditional state pilot system, pilotage is a public 
service. The pilot's overriding obligations are to the state that 
issues the license and to the public. The pilot is not a member of the 
ship's crew. In fact, the state pilotage system seeks to ensure that 
the pilot is independent of the ship and of control by its owner and 
master. For that reason, the traditional state system prohibits pilots 
from competing for business and otherwise seeks to insulate the pilot 
from economic considerations that would interfere with the pilot's 
professional judgment. Indeed, most of the features of a comprehensive 
state pilotage system are designed to ensure that pilots are free to 
act in the public interest by doing everything they can to prevent 
accidents and to get ships where they need to go as efficiently and 
safely as possible. APA-member pilots operating under these systems 
play an important role in protecting our nation, in both normal and 
extraordinary circumstances.
    In order to provide the nation with these critical services, pilots 
need to focus on their piloting tasks. Pilots are not combat personnel, 
security guards, law enforcement officials, or inspectors. As we 
consider ways to assist in enhancing port security, we need to be 
careful that we do not do anything that would detract from or 
jeopardize essential piloting functions. To do so would create a risk 
of an accidental catastrophe that could have effects just as 
devastating as one occurring by terrorist design.
    This is not to say, however, that pilots cannot provide important 
assistance to the Coast Guard in protecting against threats to maritime 
operations. Pilots are frequently referred to as the eyes and ears of a 
port. As the only U. S. citizens on the hundreds of foreign ships with 
foreign crews moving in our waters each day, state pilots know a great 
deal about what is happening not only on the ships but in the 
surrounding waters as well. They are in a unique position to detect 
suspicious or unusual activities.
    For that reason, a major part of our partnership project with the 
Coast Guard is an examination of ways to improve communications between 
pilots serving on ships and the Coast Guard. We are looking at 
communication procedures, methods, and protocols. The idea is to give 
quick and accurate notice to the Coast Guard of any suspicious 
activities, particularly on board the pilot's ship, without 
compromising the pilot's duties or safety.
    In this respect, I would confirm to you that the pilots recognize 
the Coast Guard as the ultimate agent for port security. We depend on 
them and expect them to provide assistance to any pilot who has a 
problem with a crew member or someone else on a ship who would 
interfere with the pilot's job. At the same time, I would submit, Mr. 
Chairman, that the Coast Guard and the nation need APA-member pilots. 
No one else can do what trained, licensed, professional pilots do. No 
system of enhanced shore control or shipboard guards can provide the 
critical safety functions performed by APA members.

Maritime Security Threats and Protective Measures
    As people who make their living in the maritime industry and work 
on the water, pilots have long been aware of the possibility that a 
ship could be involved in an act of terror, either as a target or as a 
weapon. There are two potential types of attack that most concern 
pilots. The first would be where one or more individuals takes control 
of the ship away from the pilot with the intention of steering it into 
another ship, a bridge, a fuel dock, or some other structure with 
maximum destructive potential. The second would be, as in the case of 
the USS Cole, a deliberate suicide attack on a vessel carrying 
hazardous cargoes. I will comment on the first type of threat.
    When a pilot comes aboard a ship, he or she typically encounters an 
unfamiliar foreign crew and an unfamiliar ship. The pilot will have 
only a general idea of the cargo and other contents of the ship. After 
an initial conference with the master during which essential navigation 
information is exchanged, the pilot and the bridge crew immediately 
begin working together to conduct the navigation of the ship without 
incident. That is what should happen and usually does happen. 
Obviously, this will not happen if there are people on board the ship 
who are intent on using the ship for harmful purposes.
    Several of the security measures implemented by the Coast Guard 
since September 11 will help to prevent this particular threat. Just 
last week, the Coast Guard issued a new requirement for a 96-hour 
advance notice of arrival. That will help provide sufficient time to 
review crew lists and other information that might identify suspicious 
or high-risk ships. We intend to discuss with the Coast Guard ways to 
get that information to the pilots so that each pilot can have more 
advance information about the ship that he or she is about to handle.
    In some ports, armed Coast Guard personnel are boarding ships 
before the pilot arrives to conduct searches and confirm information 
provided in the notice of arrival. We intend to discuss with the Coast 
Guard the scope of the inspections and perhaps suggest things that they 
might want to look for. Pilots do not have an effective way of knowing 
whether an explosive device has been planted on a ship or whether 
navigation controls have been tampered with.
    In some ports, the Coast Guard has initiated a sea marshal program 
in which armed personnel board the ship and remain aboard during its 
transit of U.S. waters. Our pilot groups have assisted in this program. 
We understand that the Coast Guard sea marshals will, among other 
things, ensure that no one on the ship interferes with the pilot doing 
his or her job. We intend to discuss with the Coast Guard the role of 
the sea marshals and how the pilots and the sea marshals can best help 
each other.
    As indicated before, we are currently working with the Coast Guard 
to enhance the communication between pilots and the Coast Guard. If a 
problem does develop on a ship when the pilot is aboard, or if a pilot 
sees something that may be suspicious, we intend to have agreed 
procedures for getting that information to the Coast Guard quickly and 
safely. There should also be some understanding of what types of Coast 
Guard response could be expected.
    Other Coast Guard initiatives may provide additional help. We 
support, for example, the Coast Guard's current consideration of 
placing controls on the people who can take simulator training, 
especially port-specific programs on full mission bridge simulators. 
Long before September 11, we were concerned about increasing reports of 
simulator training centers allowing their programs, including port-
specific programs, to be used by people other than U.S. citizen 
professional mariners. Even from a purely safety perspective, this is a 
dangerous practice.
    The Coast Guard is also experimenting with tug escort requirements 
for some ships in some ports. In our view this is less effective than 
sea marshals. Tugs that are not made fast to a ship have little chance 
of successfully stopping or redirecting the ship if it has been 
suddenly and intentionally steered into a target by an unfriendly 
force.
    Finally, we will be reviewing pilot training to see if some 
additional training is needed. For example, all APA-member pilots 
receive training in how to assess quickly the quality of a ship and its 
crews. This assessment focuses on the competency of the crew and the 
resources of the ship from a navigation safety perspective. Pilots have 
not had training, however, specifically addressed to techniques for 
spotting potential terrorists among the ship's crew or other suspicious 
circumstances on a ship.

Impact of Security Measures on Maritime Transportation System
    Mr. Chairman, I am a member of the Maritime Transportation System 
National Advisory Council and serve as chairman of its Human Resources 
Subcommittee. All of us on the Council are concerned about the possible 
impact that the short-term and long-term responses to the September 11 
attacks could have on our vital maritime transportation system. The 
difficulty is that while we must institute measures to protect our 
maritime transportation system from the threat of terrorism, we cannot 
cripple that system in the process. If we do, we will allow the 
terrorists to hurt us in a way that will be far more damaging than the 
immediate effects of their attacks. As we institute port security 
measures, we must ensure that ocean-borne commerce continues to move. 
The national security of our country depends on it.
    I have several comments on the subject. Most importantly, we 
support the Coast Guard as the primary agent of port and waterway 
security. There is no question, however, that the Coast Guard currently 
lacks the resources necessary to fulfill all of the security missions 
that it will certainly have. Congress needs to provide the Coast Guard 
with greater resources. At the same time, the Coast Guard should 
leverage its limited resources by taking advantage of assistance 
available from state and local governmental entities and, where 
appropriate, from U.S.-citizen maritime stakeholders, such as APA-
member pilots.
    There should be greater coordination and information sharing among 
federal agencies. Coast Guard-led federal security measures must be 
flexible and responsive to the differing needs of our ports and 
waterways. We therefore support the Captain of the Port system. With 
improved communications between national and local Coast Guard offices, 
the Captains of the Port should retain the authority to tailor security 
measures to the conditions in their ports.
    Finally, the U.S. maritime transportation system must recognize the 
importance of trained, professional U.S. citizen resources. The 
maritime industry has been too enchanted in recent years with the false 
hope that new technology and management approaches will permit the 
substitution of less costly, untrained, usually foreign, personnel for 
loyal, accountable American workers. The technology is valuable but 
only if it is put in the hands of trained professionals who have a 
stake in the success of our maritime system. I am confident that we can 
have a first-rate, competitive maritime transportation system without 
simply opening our ports and waterways to foreign ships.

Conclusion
    I want to assure the Subcommittee that the members of the American 
Pilots' Association are committed to working with the federal 
government in making our ports more secure.

    Senator Snowe. Captain Monroe.

    STATEMENT OF CAPTAIN JEFFREY MONROE, DIRECTOR, CITY OF 
               PORTLAND, PORTS AND TRANSPORTATION

    Captain Monroe. Good morning, Mr. Chairman, and Senator 
Snowe. Maine's largest city certainly feels honored and 
privileged to be part of these proceedings today. My name is 
Captain Jeffrey Monroe, United States Merchant Marine. I am the 
Director of Ports and Transportation for the city of Portland, 
Maine and I want to take this opportunity to talk about the 
department's experiences and the city's experience during the 
events of September 11. My department manages the Portland 
International Jetport, the city's transportation programs, and 
the municipal marine facilities in the Port of Portland. Our 
community of 65,000 hosts 5 million people annually through its 
transportation system and facilities. Critical to our 
transportation network is the Port of Portland. Our harbor 
includes petroleum, container and break bulk terminals as well 
as cruise ship facilities, international and domestic ferry 
terminals, and commercial fishing facilities. We have a 
strategic energy connection to Quebec through a major petroleum 
pipeline. Portland is the largest tonnage through put and 
largest international passenger port in New England and the 
second largest oil port in the U.S. East Coast and the number 
two fishing port in New England. Our ports lack the same level 
of coordinated federal preplanning common in the world of 
aviation. Unlike in our airports where local authorities are to 
take pre-approved federal action plans in time of emergency, 
seaports manages everything locally. There are no standardized 
procedures among ports and there is no cohesive database 
regarding petroleum, cargo and passenger movements. Every 
vessel is handled differently. Each federal agency works within 
its own set of protocols. During the period after the September 
11 incidents we were faced with a number of passenger vessel 
calls in the port. How local representative federal agencies 
managed each vessel seemed to vary every day. Each had 
different requirements which would be interpreted by personnel 
at the local level without coordinated federal direction. The 
U.S. Coast Guard was stretched to the limit, patrolling the 
harbor while trying to maintain their search and rescue 
responsibilities. As a port director I can honestly say that 
they did an outstanding and remarkable job with the resources 
that they had. Other federal agencies took actions they thought 
were appropriate within their own realm of responsibility and 
followed their own rules and regulations for dealing with 
emergency situations. There seemed, however, to be little or no 
guidance from federal managers in Washington, D.C. and little 
coordination among federal agencies. Vessel operators reported 
different actions being taken by the same agencies in different 
ports. There was no unified high level federal command 
structure. No common communications among federal, state, 
municipal, and private entities regarding the seaports and 
threat assessments were not promulgated in a coordinated 
manner. In most cases, the full extent of the threat was never 
fully communicated. We secured our seaport and airport in the 
hopes that it would be sufficient. Certainly, as the FAA is to 
aviation, so must the role of the U.S. Coast Guard be expanded 
in port management in order that it can plan and take action in 
a similar fashion to its sister agency under the Department of 
Transportation. That expanded role must include appropriate 
financial support. The City of Portland has long advocated full 
funding for the United States Coast Guard to meets its already 
demanding mission. We also support funding for new security 
missions with which the Coast Guard may be tasked. We note 
Senator Hollings bill S1214 provides for such funding but we 
believe that the bill's funding levels will need to be 
increased to match an expanded U.S. Coast Guard mission. 
Expanding funding of NOAA's technology and mapping programs 
will also be critical as a component of addressing that new 
mission. All modes of transportation need to be considered 
under a central management team in the event of national 
emergency. Seaport, rail, and bus facilities need to adopt the 
similar planning methods and protocols that are used in 
aviation. The experience since September 11 clearly demonstrate 
that federal coordination is imperative. Although the situation 
surrounding the Greyhound bus incident of October 3rd proved to 
be an isolated one, it demonstrated the need for broad base 
planning. Every mode of transportation and their associated 
facilities and infrastructure is a potential target. On 
September 11 our airport shut down, flights were grounded, and 
passengers were stranded. Trains, many containing chemical 
cars, continued to roll through metropolitan Portland. Tanker 
movements were restricted. Petroleum reserves were disappearing 
and every passenger ship that entered port were faced with 
rapidly changing rules. Trucks and buses moved cargo and 
passenger as they do every day with no restriction. Clearly, 
someone should have been thinking of the transportation system 
as a whole. The FAA, the United States Coast Guard, Federal 
Rail Administration, MARAD, Federal Highway Administration, the 
Motor Carrier Safety Administration, along with U.S. Customs 
and Immigration need to have their roles expanded to meet this 
new threat. There must also be coordination under a central 
federal framework. The coordination should come in the form of 
a new federal emergency transportation agency who will maintain 
and provide current data, do a wide range of preplanning, 
coordinate emergency response, and manage post-response 
logistics. That agency would work with FEMA, U.S. Customs and 
Immigration, the Department of Justice, and other federal 
agencies to ensure high level federal coordination. Such a 
concept was proposed in legislative by Senator Snowe in Senate 
1462. Finally, the role of our federally supported airport 
deployment of the National Guard needs to be expanded to 
seaports and other large volume transportation facilities. 
Loans and grants to municipalities and states to support 
increased security demands need to be made available and 
allotted in an expeditious manner. The economic impacts of the 
September attack are just becoming clear but cost to the City 
of Portland for new security measures are crippling the city's 
budget. Losses to businesses in Maine are measured in the 
millions of dollars. The City of Portland cannot bear the 
increased cost by itself. The State of Maine cannot bear these 
costs by itself. We need expanded federal help in the immediate 
future. On behalf of the City of Portland, its officials and 
citizens we stand ready to work in developing an important 
transportation program improving interagency coordination and 
communication nationwide. We appreciate the hard work and 
support provided by our federal partners in meeting the threat 
of September 11 and we look forward to a strong relationship in 
the future. The lessons we have learned in assessing our 
readiness must be translated into a plan of action that can be 
achieved quickly as we work to protect our citizens. Thank you. 
The Chairman: Thank you, Captain Monroe.
    [The prepared statement of Captain Monroe follows:]

   Prepared Statement of Captain Jeffrey Monroe, Director, Ports and 
                             Transportation

    Good morning Mr. Chairman and distinguished members of the 
Committee. As the Director of Ports and Transportation for the City of 
Portland, Maine, I want to thank you for the opportunity to appear 
before you today to discuss my Department's experiences following the 
events of September 11.
    My department manages the Portland International Jetport, the 
City's surface transportation programs and the municipal marine 
facilities in the Port of Portland. With a population base of 65,000, 
we handle nearly 5 million people annually through our transportation 
facilities and on our public transportation systems. I would like to 
briefly explain the security situation of the port as compared to the 
airport, including other modes of transportation like buses and trains. 
I want to emphasize that transportation on land, sea and air as a 
whole, must be dealt with in a coordinated manner across the country.
    The Jetport is the largest airport in Maine, serving some 1.4 
million passengers annually. We have several inter-city and intra-city 
bus service providers handling nearly 2 million passengers annually and 
we anticipate the start of new AMTRAK passenger rail service to Boston 
before the end of this year.
    Also critical to our transportation network is the Port of 
Portland. Which, while small in physical size, is home to a vibrant and 
diverse economy. Our harbor includes petroleum, container and break 
bulk terminals, as well as cruise ship facilities, international and 
domestic ferry terminals and commercial fishing facilities. We have a 
strategic energy connection to Quebec through a major petroleum 
pipeline. Portland is the largest tonnage throughput and international 
passenger port in New England, the second largest oil port on the U.S. 
East Coast and the number two fishing port in New England.
    But like our aviation systems, our ports by their very nature, have 
inherent weaknesses making them vulnerable to attack. I know that this 
Committee is familiar with the final report of Interagency Commission 
on Crime and Security in U.S. Seaports (The Seaport Commission Report, 
Fall 2000) and An Assessment of the U.S. Marine Transportation System 
(MTS, September 1999). We concur with the recommendations contained in 
both reports. The events of September 11 demonstrated many of the 
problems in the infrastructure and operations of our transportation 
system outlined in the reports.
    Our ports lack the same level of coordinated federal preplanning 
common in the world of aviation. Unlike airports, where local 
authorities undertake pre-approved federal action plans in time of 
emergency, seaports manage everything locally. There are no 
standardized procedures among ports and there is no cohesive database 
regarding petroleum, cargo and passenger movements. Every vessel is 
handled differently. Each federal agency works within its own set of 
protocols.
    During the period after the September 11 incidents, we were faced 
with a number of passenger vessel calls in the port. How local 
representatives of federal agencies managed each vessel seemed to vary 
daily. Each had different requirements, which were being interpreted by 
personnel at the local level without coordinated federal direction. The 
U.S. Coast Guard was stretched to the limit, patrolling the harbor 
while trying to maintain their search and rescue responsibilities. 
Other federal agencies took actions they thought were appropriate 
within their own realm of responsibility. In more than one instance, 
all passengers and crew were ordered off a foreign flag ship by U.S. 
Immigration into our terminal, creating a potential safety issue 
ashore. In another case, every member of the crew of an American ship, 
all U.S. citizens, were ordered to pack their belongings by U.S. 
Customs and to remove them from the vessel for inspection. During these 
instances, the City's resources were stretched to the limit in trying 
to protect their safety. Tanker operations and vessel movements were 
appropriately placed under significant restrictions. However, federal 
agencies had to quickly gather information on fuel availability and 
demand which should have existed in a readily accessible format. The 
U.S. Coast Guard did what they could in trying to balance the need for 
security against supply.
    Each federal agency followed their own rules and regulations for 
dealing with emergency situations. There seemed however, to be little 
or no guidance from federal managers in Washington DC and little 
coordination among federal agencies. Vessel operators reported 
different actions being taken by the same agencies in different ports. 
Cruise ships, with tens of thousands of passengers, scrambled without 
any federal coordination to find any pier where passengers could be 
handled when the Port of New York was secured. There was no unified 
high level federal command structure, no common communications among 
federal, state, municipal and private entities regarding ports and 
threat assessments were not promulgated in a coordinated manner. Only 
the professionalism of local governmental officials working together 
with private entities, prevented a bad situation from getting worse.
    In most cases, the full extent of the threat was never formally 
communicated. We secured our seaport and airport in the hopes it would 
be sufficient. Our resources were stretched to the limit. As you are 
aware, a state's or municipality's civil authority is limited to three 
strategic areas of security: prevention, crisis management and 
consequence management. A city or state does not have the assets 
available to be fully prepared for threats from enemies who may attack 
employing methods including conventional weapons or nuclear, 
radiological, chemical or biological agents. Ports are critical assets, 
not only to cities and states, but also to entire regions.
    The Seaport Commission recognized that ``improved coordination--
among and through public and private marine transportation system 
stakeholders at the local, regional and national levels is a key 
element.'' The depth of knowledge required for preparation for each of 
the threats listed above can only be achieved through federal 
interagency, city, state and private cooperation. We fully endorse such 
a coordinated approach and encourage the Federal Interagency Committee 
for Marine Transportation System (ICMTS) to include security issues as 
a top priority.
    Certainly, as the FAA is to aviation, so must the role of the U.S. 
Coast Guard be expanded in port management in order that it can plan 
and take action in a similar fashion to its sister agency under the 
Department of Transportation. That expanded role must include 
appropriate financial support. The City of Portland has long advocated 
full funding for the United States Coast Guard to meet its already 
demanding mission. We also support funding for new security missions 
with which the Coast Guard may be tasked. We note Senator Hollings' 
Bill S.1214 provides for such funding, but we believe that the bill's 
funding levels will need to be increased to match an expanded U.S. 
Coast Guard mission.
    All modes of transportation need to be considered under a central 
management team in the event of national emergency. Seaport, rail and 
bus facilities need to adopt the similar planning methods and protocols 
that are used in aviation. The experiences since September 11 clearly 
demonstrate that federal coordination is imperative. Although the 
situation surrounding the Greyhound bus incident of October 3rd proved 
to be an isolated one, it demonstrated the need for broad based 
planning. Every mode of transportation, and their associated facilities 
and infrastructure, is a potential target.
    On September 11, our airport shut down, flights were grounded and 
passengers were stranded. Trains--many containing chemical cars--
continued to roll through metropolitan Portland. Tanker movements were 
restricted, petroleum reserves were disappearing and every passenger 
ship that entered port was faced with rapidly changing rules. Trucks 
and buses moved cargo and passengers as they do every day, with no 
restriction. Clearly, someone should have been thinking of the 
transportation system as a whole.
    The FAA, U.S. Coast Guard, Federal Rail Administration, Federal 
Highway Administration, Motor Carrier Safety Administration, along with 
U.S. Customs and Immigration, need to have their roles expanded to meet 
this new threat. They must also all be coordinated under a central 
federal framework. The coordination should come in the form of a new 
Federal Emergency Transportation Agency, who will maintain and provide 
current data, do a wide range of preplanning, coordinate emergency 
response and manage post response logistics. That agency would work 
with FEMA, U.S. Customs and Immigration and the Department of Justice 
to insure high level federal coordination. Such a concept is included 
in the legislation proposed by Senator Snowe in S. 1462.
    Finally, the role of our federally supported airport deployment of 
our National Guard needs to be expanded to seaports and other large 
volume transportation facilities. Loans and grants to municipalities 
and states to support increased security demands need to be made 
available and allotted in an expeditious manner. The economic impacts 
of the September attack are just becoming clear but costs to the City 
of Portland for new security measures are crippling the City's budget. 
Losses to businesses in Maine are measured in the millions of dollars. 
The City of Portland cannot bear the increased costs by itself. The 
State of Maine cannot bear these costs. We need expanded federal help 
in the immediate future.
    In closing, the State of Maine possesses more miles of coastline 
than any state in the continental United States. We share a border with 
Canada and we are a hub of international trade. Our City has an 
excellent working relationship with the FAA, U.S. Coast Guard and other 
federal agencies. The Port of Portland is a microcosm of port 
activities across the nation and the City of Portland is a microcosm of 
transportation.
    On behalf of the City of Portland, its officials, and citizens, we 
stand ready to work in developing a port and transportation program 
improving interagency coordination and communication nationwide. We 
appreciate the hard work and support provided by our federal partners 
in meeting the threat of September 11 and we look to a stronger 
relationship in the future. The lessons we learned in assessing our 
readiness must be translated into a plan of action that can be achieved 
quickly as we work to protect our citizens.
    Thank you.

    Senator Snow. Mr. Petersen.

    STATEMENT OF KIM PETERSEN, EXECUTIVE DIRECTOR, MARITIME 
                        SECURITY COUNCIL

    Mr. Petersen. Thank you Mr. Chairman, Senator Snowe. As the 
Executive Director of the Maritime Security Council, I'm 
pleased to have this opportunity to address the Committee today 
to relate the views and concerns of our membership on the role 
of the Coast Guard in strengthening U.S. Security against 
maritime threats. The Maritime Security Council was created in 
1988 to address the many security interests of the U.S. and 
international maritime community. We are a non-profit 
organization that works closely with U.S. Government agencies 
concerned with maritime security and counterterrorism. In fact, 
the Maritime Security Council is the maritime security advisor 
to both the U.S. State Department, through its Overseas 
Security Advisory Council, and INTERPOL, the international 
police agency. Our mission is to advance the security interests 
of the international maritime community against criminal and 
terrorism threats. Our international membership includes over 
65 percent of the world's commercial ocean carrier fleet by 
tonnage, most of the world's passenger cruise lines, and 
numerous port authorities. As a consequence of its role in the 
maritime community, we're proud to have been called upon to 
assist in the development of Senate Bill 1214, the Port and 
Maritime Security Act of 2001, and the U.S. Sea Carrier 
Initiative and Super Carrier Initiative Programs. The MSC 
recognizes the U.S. Coast Guard as the leader in the U.S. 
coastal protection, ensuring that the nation's maritime 
transportation system for personnel and cargo is safe, 
reliable, and secure. The Coast Guard is unique in its ability 
to fulfill its mission of planning, executing and sustaining a 
robust and flexible domestic maritime homeland defense program, 
and it has performed this mission admirably--no more so than in 
the days since the September 11 attack on America. The energy 
and determination with which the Coast Guard implemented and 
enforced the requirements outlined in 33 CFR 120 and 129, which 
is the security of passenger vessels and passenger terminals, 
as an example, enabled the cruise line industry to respond to 
the September 11 attack in a uniform, controlled, and effective 
fashion. The Coast Guard immediately directed increased 
security measures at U.S. ports, and onboard U.S. and foreign-
flagged vessels carrying American passengers or visiting U.S. 
ports. Subsequent to the attack, the Coast Guard worked in 
partnership with senior maritime industry executives, and 
organizations such as the MSC, to enhance the security of our 
domestic ports. Indeed, the Coast Guard has done exemplary work 
in its multi-mission, maritime and military service to this 
nation, all the while being historically underfunded, a fact 
that is particularly apparent when contrasted with other 
military services. Its is a tribute to Admiral Loy and his 
staff, such as Admiral Underwood of the Office of Intelligence 
and Security, that so much has been done with so little, and it 
is the fervent hope of the MSC and its membership that 
appropriate funding for the Coast Guard be ensured, both for 
the near term and over the years to come. Unfortunately, 
something has to fall through the cracks when budgets are 
stretched to the breaking point. A critical shortcoming in our 
national security planning has been the failure to fund and 
support security assessments and audits of foreign ports, 
particularly those ports of embarkation for cargo and 
passengers inbound to the United States. The U.S. Government 
must recognize that the leading edge of the boundary of our 
homeland defense is in fact foreign ports. The transnational 
nature of terrorism requires, by definition, a foreign 
launching point for attacks upon our country. This requires not 
only an understanding on our part of the security posture of 
foreign ports of origins of goods and passengers coming into 
our country, but also a preparedness for us to help those ports 
elevate their standards of security to levels we feel are 
appropriate, and mirror those within our own borders. Domestic 
ports cannot be our first line of defense but, in fact, must be 
a second line of defense behind our proactive efforts to stem 
the threat at the point of origin. I can tell you, Mr. 
Chairman, having performed counterterrorism audits in over 160 
ports in almost 100 countries that it is frightening them to 
see how little security there is in some foreign ports that see 
ships depart their docks on a direct course into the ports of 
Miami, New York and others in the United States. With the 
potential of weapons of mass destruction finding their way into 
the hands of terrorists, one can easily imagine the risk we 
face should we continue to ignore the security of foreign 
ports. And, far from being averse to our presence, most foreign 
ports would welcome constructive security assessments from the 
United States, particularly when followed up with guidance and 
assistance in addressing the vulnerabilities that are 
identified. I can tell you a perfect example. I was performing 
an audit in the Congo and looking at the new security 
infrastructure they had built. They had installed beautiful 
chain link fences around their entire port but they were only 
five and a half feet high, well below the standard that we have 
in the United States. When I raised this issue with the 
commander of the port and said, ``why didn't you make this 
three meters, (nine feet) high, which is the standard in the 
United States and elsewhere? ``He said,'' well, sir, nobody 
bothered telling us.'' And if we had, he would have been happy 
to have followed such standards. While the performance of 
foreign port assessments falls within the Coast Guard's 
charter, historically the lack of financial and manpower 
resources has prevented the Coast Guard from aggressively 
pursuing that aspect of their mission. In some years less than 
five such assessments were performed. In at least one recent 
case, the assessments were canceled altogether, due to the 
ports being deemed too hazardous for military personnel to 
visit! And yet, these same ports were not too hazardous for 
cruise lines to visit carrying thousands of Americans on 
holiday. As a result, the commercial maritime community has 
resorted to making critical, often costly operational decisions 
with minimal, inconsistent information. The MSC launched an 
initiative in 1997 to categorize and evaluate security in 
foreign ports through the application of a tiered rating scale 
pegged to cargo/passenger throughput, GNP and other factors. 
The International Maritime Organization, an arm of the United 
Nations, has expressed an interest in working with the MSC and 
the Coast Guard on this project, which they feel can be used to 
increase security in Third World countries, in particular, to 
acceptable levels. What is needed is a holistic approach to 
this issue. We encourage the Coast Guard to martial the 
resources of the intelligence, defense, and maritime 
communities to work together in finding viable solutions to 
improve foreign port security in tandem with our efforts here 
at home. We feel that it is essential for the Coast Guard to 
provide leadership in this effort. There is a critical need for 
at least 25 foreign ports to be audited on an annual basis, and 
our estimates are that the budget would be less than $10 
million. Mr. Chairman, we are moving quickly to address our 
domestic port security problems and, as I can attest as the 
newly appointed senior Security Advisor to the 14 deep water 
ports in Florida, we are doing a lot here at home. But it's not 
enough for us to simply focus on our domestic ports. Sir, the 
Maritime Security Council thanks you and Senator Snowe and the 
Members of this Committee for the opportunity to comment on 
this issue and the Maritime Security Council stands prepared to 
assist you with any questions you may have and in your future 
efforts on this subject. Thank you.
    [The prepared statement of Mr. Petersen follows:]

   Prepared Statement of Kim Petersen, Executive Director, Maritime 
                            Security Council

    Thank you Mr. Chairman and Members of the Committee. As the 
Executive Director of the Maritime Security Council, I am pleased to 
have this opportunity to address the Committee today to relate the 
views and concerns of our membership on the role of the Coast Guard in 
strengthening U.S. Security against maritime threats.

Background of the MSC
    The Maritime Security Council was created in 1988 to address the 
many security concerns of the U.S. and international maritime 
community. We are a member-driven organization that works closely with 
United States government agencies concerned with maritime security and 
counterterrorism. In fact, the Maritime Security Council is the 
maritime security advisor to both the U.S. State Department, through 
its Overseas Security Advisory Council, and INTERPOL, the international 
police agency.
    Our mission is to advance the security interests of the 
international merchant marine community against criminal and terrorist 
threats. Our international membership includes over 65 percent of the 
world's commercial ocean carrier fleet (by tonnage), cruise lines, 
numerous maritime service companies, port authorities, P&I clubs, 
shipping groups, ships' agents, maritime law firms, and technical and 
engineering firms serving the maritime industry.
    The MSC works with many agencies, including the UN's International 
Maritime Organization, the U.S. Customs Service, U.S. Coast Guard, U.S. 
Immigration and Naturalization Service, U.S. Department of State, U.S. 
Navy, U.S. Maritime Administration (MARAD), U.S. Drug Enforcement 
Agency, U.S. intelligence agencies, Federal Law Enforcement Training 
Center, U.K. Department of the Environment, Transportation and the 
Regions, and the U.K. Ministry of Defense.
    As a consequence of its role in the maritime community, the MSC is 
proud to have been called upon to assist in the development of S-1214, 
the Port and Maritime Security Act of 2001, and the U.S. Sea Carrier 
Initiative and Super Carrier Programs.

U.S. Coast Guard Response to September 11 Terrorist Attack
    The MSC recognizes the U.S. Coast Guard as the leader in U.S. 
coastal protection, ensuring that the nation's Marine Transportation 
System is safe, reliable, and secure. The Coast Guard is unique in its 
ability to fulfill it's mission of planning, executing, and sustaining 
a robust and flexible domestic homeland defense program, and it has 
performed that mission admirably--no more so than in the days since the 
attack on America on September 11.
    The energy and determination with which the Coast Guard implemented 
and enforced the requirements outlined in 33 CFR Parts 120 and 128, 
(Security of Passenger Vessels and Passenger Terminals), as an example, 
enabled the cruise line industry to respond to the September 11 attack 
in a uniform, controlled, and effective fashion. The Coast Guard 
immediately directed increased security measures at U.S. ports, and 
onboard U.S. and foreign-flagged vessels carrying American passengers 
or visiting U.S. ports. Subsequent to the attack, the Coast Guard 
worked in partnership with senior maritime industry executives, and 
organization such as the MSC, to enhance the security of our domestic 
ports.
    Indeed, the Coast Guard has done exemplary work in its multi-
mission, maritime, and military service to this nation, all the while 
being historically under funded--a fact that is particularly apparent 
when contrasted with our other military services. It is a tribute to 
Admiral Loy and his staff, such as Admiral Underwood of the Office of 
Intelligence and Security, that so much has been done with so little, 
and it is the fervent hope of the MSC and its membership that 
appropriate funding for the Coast Guard be ensured, both for the near 
term and over the years to come.

Threats and Challenges to U.S. Homeland Security
    Unfortunately, something has to fall through the cracks when 
budgets are stretched to the breaking point. A critical shortcoming in 
our national security planning has been the failure to fund and support 
security assessments and audits of foreign ports, particularly those 
ports of embarkation for cargo and passengers inbound to the United 
States.
    The U.S. Government must recognize that the leading edge of the 
boundary for our homeland defense is in fact foreign ports. The 
transnational nature of terrorism requires, by definition, a foreign 
launching point for attacks upon our country. This requires not only an 
understanding on our part of the security posture of foreign ports of 
origin of goods and passenger coming to our country, but also a 
preparedness for us to help these ports elevate their standards of 
security to levels we feel are appropriate and mirror those within our 
own borders
    I can tell you, Mr. Chairman, having audited over 160 ports in over 
106 countries, that it is nothing less than frightening to see how 
little security there is in some foreign ports that see ships depart 
from their docks and sail directly into Miami or New York. With the 
potential of weapons of mass destruction finding their way into the 
hands of terrorists, one can easily deduce the risk we face should we 
continue to ignore the security of these foreign ports.
    And far from being adverse to our presence, most foreign ports 
would welcome constructive security assessments from the United States, 
particularly when followed up with guidance and assistance in 
addressing the vulnerabilities that are identified.
    While the performance of foreign port assessments falls within the 
Coast Guard's charter, historically the lack of financial and manpower 
resources has prevented the Coast Guard from aggressively pursuing that 
aspect of their mission. In some years less than five such assessments 
were performed--in some cases the assessments were canceled altogether 
due to the target ports being deemed `too hazardous' for military 
personnel to visit. And yet, these same ports were not too hazardous 
for cruise lines to visit carrying thousands of American citizens on 
holiday! As a result, the commercial maritime community has resorted to 
making critical, often costly operational decisions with minimal, often 
inconsistent information.
    The MSC launched an initiative in 1997 to categorize and evaluate 
security in foreign ports through the application of a tiered rating 
scale pegged to cargo/passenger throughput, GNP, etc. The International 
Maritime Organization, an arm of the UN, has expressed an interest in 
working with the MSC on this project, which they feel can be used to 
increase security in Third World countries to acceptable levels.
    We feel that it is appropriate for the Coast Guard to continue to 
manage this essential program. But rather than task its own constrained 
resources, it should contract with expert civilian companies to perform 
these foreign port security audits on its behalf. There is a critical 
need to see at least 25 ports audited on an annual basis, the cost of 
which would be a budget of less than $1 million dollars per year.
    In conclusion, Mr. Chairman, in the wake of the September 11 attack 
on America, the MSC urges that the resources be given to the Coast 
Guard to accomplish this and other essential missions that are critical 
to our homeland defense.
    The Maritime Security Council thanks the Committee and its members 
for this opportunity to comment on this issue. We at the MSC stand 
prepared, as we always have, to assist this Committee and its staff on 
its important efforts, and will be dedicating a significant portion of 
our Spring Conference to the issues raised in this hearing.
    I will make a copy of my remarks available to your staff and will 
remain to answer any of your questions.
    Thank you.

    The Chairman. Well, Mr. Petersen, thank you very much. We 
appreciate the offer of future help and I particularly 
appreciate your strong testimony this morning. Thank you, all 
of you, for being here. Again, Admiral, thank you very much. I 
couldn't agree with you more about the question of security 
really beginning at the place of origin. I was shocked to learn 
the other day the laxity that has grown into our immigration 
procedures, the INS process, the visas that are being granted 
now under visa waivers, apparently without knowledge of who 
people are and where they come from. This is just extraordinary 
to me and I know it is not always politically correct, but I 
think political correctness went out the window also on 
September 11th. I think we've got to be honest, tough, and 
direct with ourselves about this. We cannot allow our borders 
to be a sieve, letting in whoever from wherever with these 
phony sponsorships and so forth. I believe in immigration. This 
country's built on it, and I certainly don't want us to become 
paranoid to the point that we have discrimination and other 
terrible acts. There's no room for that in this country either, 
but common sense dictates that we do a better job of 
determining what's coming into our country, whether it's human 
or product, that might harm us. Particularly now, when we know 
there are people who are prepared to die in the effort to 
destroy who we are and what we are. So, I don't think we have a 
choice, and that's why I know Senator Snowe and others are 
intent upon getting serious about this. To me the aviation 
security bill should have passed days ago. It is a disgrace 
that we're still sitting here bumbling around. (and likewise, 
we ought to get accelerated process, you know, just as a matter 
of common sense, but I'll tell you) As somebody who fought in a 
war, I know the difference between getting it done and not 
getting it done, and I am not going to sit around here and 
watch us twiddle our thumbs and procrastinate and let politics 
get in the way of common sense. And so I hope we're going do 
these things on this budget and I know that Senator Snowe and I 
are prompted by this hearing to be in touch with Secretary 
Mineta and with Mitch Daniels in the White House and others as 
rapidly as possible to make sure that in this budget go-around 
we are including what we need to do to get this job done.
    There isn't one of you, I understand, who hasn't addressed 
the question of resources, and that's at the heart of this 
testimony. Let me ask you, if you would just comment quickly, 
and there's not a lot of need to sort of go over territory 
we've already covered, but is there anything that Admiral Loy 
or Admiral Allen or Mr. Gudes said or anything that we haven't 
touched on in the context of this hearing that you think we 
ought to be aware of at this point that comes to mind outside 
of your prepared testimonies? Is there anything you would like 
to add in terms of on the technology side, or on the steps we 
might take to increase preparedness, or on the resource side? 
Admiral.
    Admiral Larrabee. Thank you, Senator. I think the 
Commandant's testimony underscored this issue of awareness, and 
I think in the maritime community we need to do a much better 
job of that. It's a systems approach that needs to be taken but 
in a port like New York where we handle over 3 million 
containers, millions of tons of great bulk material, over 30 
billion gallons of petroleum products every year, the idea that 
we could inspect every pound of cargo is probably not 
realistic. On a good day in New York over the last 3 weeks, we 
are able to actually physically inspect about 200 containers. 
On an average day in New York, we get about 8,000 containers 
coming through the port and we're not the largest port in the 
United States. So, you can see the magnitude of the problem. 
The question is how do you do it smarter. I think Admiral Loy's 
focus on awareness using intelligence systems that are 
currently place and ones that maybe need be created, but a 
better coordination of that information is going to go a long 
way toward a smarter use of our resources. We're always going 
to be resource constrained. I don't think there's any question 
about that. How do we do it smarter is the question and 
intelligence and information is the answer.
    The Chairman. I have been working on the money laundering 
issue for a long period of time and we're about to win a 
victory on the terrorism bill, including some strong money 
laundering measures. Part of the theory of banking has always 
been knowing your customer and banks are supposed to be part of 
the intelligence provision with respect to nefarious types that 
come in and use the bank. You can usually, as a banker, have a 
pretty good sniff about sources of revenue that are legitimate 
and those that aren't, and some banks just have ignored it. I 
think the same sort of standard is going to have to be put into 
place and we're going to have to raise the awareness of 
shippers, the folks who are at the origins of all of these 
ports, to put them into this system much more authoritatively. 
You're right, Admiral, we're not going to have the personnel 
capacity to do an individualized personal inspection on every 
single piece. But clearly technology can also assist us. I 
think you would agree with that. If we can step up the curve on 
penetration screening devices, you could pass a container fully 
packaged. So the container can be, frankly, fully exposed and 
its contents can be known. There are ways we've got to advance 
that process significantly. It's going to become part of the 
way of doing business, I'm afraid. Does anybody else want to 
add anything. Yes, Captain.
    Captain Watson. Mike Watson. Listening to these comments 
and your comments concerning technology in our mode as pilots 
of navigating ships, we have utilized and continue to utilize 
advanced technology. But I might take note that the gentlemen 
with the National Security Council noted to preempt these 
problems outside our borders and again I've noticed with the 
state is Israel, they have established a security system second 
to none in the world I would imagine. It boils down to trained 
personnel. And our country has been extremely neglect in the 
maritime industry to continuing to support trained maritime 
personnel. We have no American-flagged shipping to speak of 
today. Our ports and terminals are not operated or the concerns 
are not primarily bottom line dollar for Americans. They're 
foreign owned, foreign operated. So, the burden of protection 
for our country falls with a very small group of people and we 
should utilize technology to assist, but it will never replace 
the personnel needed, such as pilots on the ships. If you hired 
pilots from the Middle East, you'd be very suspect of where 
your ship is going to the dock these days and trained personnel 
properly regulated by the local entities is what we need.
    Captain Monroe. I would add to that that no matter what 
type of resources you make available financially, you've got to 
be able to utilize them in an effective manner with good 
people. One of the things that I've noticed certainly is the 
large number of people who because of the limited resources 
within the Coast Guard, that the amount of talent that the 
Coast Guard has lost over the years, both of your states, both 
Massachusetts and our home state of Maine, host two excellent 
maritime schools, a whole new generation of people coming who 
need to be trained and prepared for this next era of what we 
have to face with maritime security. It is not just the Coast 
Guard's job. It's everybody in the industry, whether it be the 
people on the docks; whether it be the professional mariners on 
the ships; whether it be the pilots; whether it be the 
longshoremen, everybody has to be involved in this and the 
scope of education and training that needs to be expanded to 
get everybody keyed up and help them understand what their role 
and responsibility are is on our waterfront. But also there 
needs to be a philosophy that goes beyond just the waterfront, 
and I need to reemphasize this that transportation needs to be 
looked at holistically. When we talk about seaports, and we 
talk about all the cargo moving in and out of our seaports, a 
lot of the cargo that moves into the United States moves 
through Canadian and Mexican seaports, and they have to be 
partners with this as well. So that, if we're protecting our 
ports in Maine or in New York or in Boston or wherever, that 
Halifax can't be a weak point, that rail shipments that come 
down out of Canada cannot be a weak point. And that again deals 
with trained people and proper resources and a holistic 
approach to transportation.
    Mr. Petersen. Mr. Chairman, just a couple of comments then 
to echo what Captain Monroe said. Ours must be a holistic 
approach. We have to recognize that as the vector of aviation 
is being closed down as a potential for introducing terrorist 
acts into the United States, terrorists will shift their sights 
to some other modality of transportation in order to inflict 
pain on the United States. And quite clearly when 85 percent of 
all the goods that we consume or produce are at some point 
transported by sea and through U.S. ports, we have to recognize 
that a lot needs to be done. But beyond that, we have to think 
outside of the box too. We have a port in Florida that supports 
14 counties, three airports and most of the eastern portion of 
Florida with all of its POL, or petroleum requirements, as were 
as aviation fuels and other petroleum products. A ship to be 
deliberatly sunk in the harbor, it could paralyze the port for 
days or weeks or an aviation threat might be used as a means of 
attacking such a port. For this reason it is essential that 
port security professionals work with the FAA. However, it's 
extraordinarily difficult, for example, to create restricted 
air space over something such as POL fields colocated at a 
seaport. This needs to change. There must be an effort by all 
agencies to work together to recognize that port security is a 
critical element of our nation's infrastructure.
    The Chairman. Thank you all for your very thoughtful 
comments. Senator Snowe.
    Senator Snowe. Thank you. In speaking of contingency plans, 
Jeff told me shortly after September 11 about the difficulties 
concerning the lack of coordination and no federal agency being 
in contact with local communities with respect to the threat 
that existed on September 11. Jeff, when was the first time 
that you heard from a federal agency?
    Captain Monroe. It was over 24 hours after the incident and 
we found that ourselves in the first couple of hours actually 
in most of the first 24 hour period that we were sharing 
information between the aviation maritime and other sectors to 
try to piece together as best information that we could come up 
with.
    Senator Snowe. Well, as a result of your suggestions, 
coordinating all of the transportation related activities and 
agencies within the Department of Transportation has been 
included in the aviation security legislation. I agree with the 
Chairman. That legislation should have passed last week. I 
mean, we should have moved promptly to pass that legislation to 
put it in place, and I regret that that isn't the case today. 
We should not be dithering when we have serious security 
procedures that need to be put in place and that legislation is 
critical to achieving that result. In these contingency plans, 
whether local or federal, and I know, Admiral Larrabee, the 
Port of New York and perhaps the Port of New Jersey as well had 
contingency plans of their own. I understand it is 
approximately 1,000 pages. Do your contingency plans provide 
for the event of a terrorist hijacking a vessel?
    Admiral Larrabee. Senator, they do but I think, as Admiral 
Loy said, it's a chapter in an all-hazards approach to dealing 
with a lot of different contingencies and it's one that 
obviously needs to be strengthened. Just in our own case, we 
have been actively involved in developing an exercise with the 
state of New Jersey and the state of New York that would have 
taken place next March. So, we'd already gone through a table 
top exercise dealing with the incident of a terrorist attack on 
a port. So, it's been there but it's been part of, sort of a 
much more balanced approach to doing everything that we do. 
Today, obviously we've got to put a better focus on this.
    Senator Snowe. Captain Watson, in your pilots' association, 
you mentioned what is being done. Obviously, hijacking is of 
the two most serious threats posed to pilots. What kind of 
preparation have your pilots taken in order to prepare for or 
to respond to that kind of event, or have they?
    Captain Watson. Post-September 11, as I indicated, I 
communicated with Admiral Loy right off the bat and we had 
meetings and as I noted, the American Pilot Association is an 
independent grou,p but we do have formal partnership agreements 
with both NOAA and the Coast Guard, and our role is to provide 
safe, efficient and reliable movement of vessels throughout the 
country, and we do it working with those groups. The Coast 
Guard and the American pilots are currently working on some 
additional measures. I don't know if it would be appropriate to 
say just exactly what they are at this point. I have more 
meetings with DOT this afternoon. I feel with the sea marshal 
program, again, it's personnel and funding. That scenario can 
be minimized and if it were to occur, we could take a 
preemptive measure to prevent any major issue with that.
    Senator Snowe. Jeff and Mr. Petersen, would you care to 
comment? I mean, should that be something that should be 
standardized within these contingency plans as to how to 
respond under various scenarios if there was a hijacked vessel?
    Captain Watson. Could I add to that?
    Senator Snowe. Absolutely.
    Captain Watson. You've remarked throughout the hearing of 
standardization and I know in a lot of my operational 
procedures, I want everything standardized. The American Pilot 
Association supports the Coast Guard's approach. When you look 
at their operational aspect of their captain-of-the-port 
approach, each major port has a captain of the port that 
responds to headquarters, etc. The reason they have that is 
primarily the same reason you have pilots from different 
states. Different ports have different needs, different 
problems. A security program for Portland, Maine, for example, 
would not be a standardized approach to the port of Baltimore 
or the port of Norfolk. So, standardization in that yes you 
should work through your harbor safety committees, where the 
pilots do their thing in the port. These harbor safety 
committees as the Coast Guard has formed them over the years 
include all the players and that is the type of standardization 
you need but not a fixed statement that A, B, C and D will 
solve your problem in Portland, Maine as well as Miami.
    Senator Snowe. Right. No, I'm not necessarily suggesting 
that, but there are certain standards that should probably be 
consistent in a national emergency. I guess I wouldn't want to 
leave it. In this case, Portland, Maine responded exceedingly 
well without any guidance or direction from the Federal 
Government, not really understanding or appreciating at that 
moment its significance. I mean, and Jeff you can speak to 
this, but they learned of the FAA shutting down, grounding all 
aviation traffic.
    Captain Monroe. It's fascinating that when you talk to the 
pre-days or to the people in the aviation industry to the pre-
days of standardized response that everybody felt that every 
airport in the country was very different as well. Yes, 
seaports do have inherent differences. There's no question 
about that but there are standard sets of protocols that apply 
equally and can be worked out equally. All of our terminals are 
in essence, whether they be oil terminals or container 
terminals or passenger terminals, have the same sort of 
protocols that are standard no matter what port you're in and 
the coordination between ports is extremely important. If an 
oil supply is interrupted, for example, in one community, then 
there's going to be alternative modes that have to be brought 
into place, particularly if an event like this happened in 
January or February. The fact that it happened at a time when 
we didn't have a great demand on heating oil was fortunate 
bearing the circumstances, but the end result was that if there 
had been an interruption of the oil support or any of that oil 
supply, then a standardized set of protocols down through all 
of the seaports would have worked best and most effectively. We 
were backing up tankers in Portland. They were backing them up 
in Boston and New York and everywhere else. Those tankers that 
were important to provide supplies in other locations and 
nobody was looking at the entire picture. So, I think even from 
the days of the founding of this country, seaports have always 
looked at this in a very independent mode. There are a lot of 
standardized protocols at a lot of standardized levels that 
could be approached.
    Senator Snowe. Okay, what would have been the situation if 
this had been a winter month? Let's just say February with oil 
supplies for the New England region.
    Captain Monroe. We, in Portland had gotten down it because 
of the protocols in the port had gotten down to about 16 hours 
of only fuel left in gasoline and home heating oil. If that had 
been wintertime and obviously that would have been exacerbated 
and, you know, the question then becomes, it was not only what 
was happening to the region in Portland, but also what we were 
doing for the Canadians because we're the major supplier of oil 
up to Quebec and the Ontario provinces to the refineries in 
Montreal. So, the potential of being disrupted in Portland not 
only hurt the local community but also hurt Canada as well. And 
those protocols needed to be measured. So, as you look and you 
begin to look at all of the terminals, whether they be 
containers or passengers or whatever, there were a number of 
ships displaced. When the port of New York was closed off, all 
of these cruise ships had to go somewhere and they had to 
figure that out on their own. They were disbursed out of New 
York because New York was not available and a lot of them wound 
up in Boston and some wound in Portland and some wound up in 
Providence and a lot of other locations, but they had to figure 
it out. There was no preplan. Same thing with the aviation. We 
had all of the airplanes grounded and we were trying to connect 
them to the international ferry so at least we could get people 
out of Nova Scotia back into the United States, people who 
wanted to rejoin with their families, many of them who were 
bound for New York, and who had families missing. So, it was a 
logistical approach that does need to be standardized. Even 
though there are inherent differences, there is a good level of 
standardization that can be put in place.
    Senator Snowe. Mr. Petersen, you had indicated, which I 
thought was a very interesting point, about doing a foreign 
port assessment. You indicated in your statement that the Coast 
Guard has that authority to conduct those port assessments. 
Have they done any in recent memory?
    Mr. Petersen. They do, but again, they've been budget 
constrained for a number of years. The Coast Guard has been 
working with a joint committee that includes government 
agencies and the maritime community to try to identify those 
ports that are of most significant concern. Weighing in are the 
cruise lines and the cargo carriers. This Committee tries to 
assess somewhere between three and ten ports a year. At least, 
that has always been the plan. Unfortunately, funding and 
security issues have sometimes left them auditing no ports at 
all. Let there be no doubt, the Coast Guard is up for this 
mission. The funding and policies simply prevent them from 
being able to do so with any continuity.
    Senator Snowe. Well, I was just thinking about the Port and 
Maritime Security Act that's pending here in the Senate. It 
does have a threat assessment for ports, and I'm wondering if 
we ought to be at least identifying some key foreign ports to 
be included in that if they aren't already. I just don't know, 
but I think that that certainly is a thought. Is there, Admiral 
Larrabee?
    Admiral Larrabee. Senator Snowe, I don't think there is, 
but I do think it's one of the things that the people who are 
crafting that legislation need to look at.
    Senator Snowe. Okay. So, we ought to get some input on that 
as well. You mentioned accelerating that threat assessment as I 
recall in your testimony.
    Admiral Larrabee. Well, I think if you look at the schedule 
that currently exists in that legislation, it takes us out 
about 5 years, and I think for most of us that's a timeline 
that just doesn't seem reasonable at this point.
    Senator Snowe. No. I would agree under these circumstances. 
How about the 50 out of the 360 that Admiral Loy mentioned, 
doing 50 within a year?
    Admiral Larrabee; Well, I think that's reasonable. I mean, 
I think it's going to have to be----
    Senator Snowe. Can we move any quicker? And complete more?
    Admiral Larrabee. I think starting with 50 would be good. I 
mean, I think there's going to be lessons learned from the 
initial ones that we do and perhaps you do a couple and you see 
how it works and then you go back and really go at it with some 
vigor. I also think that you're going to find there's a 
tremendous amount of willingness to cooperate in those kind of 
events. So, we could speed that process up. My terminal 
operators are certainly interested in security these days. They 
have lots of questions. I think they'd be very interested in 
cooperating. So, I think it's a process that least speaking 
from my port we'd be very interested in starting sooner than 
later.
    Senator Snowe. Well, I notice that in your testimony, you 
mentioned that the Port of New York and Port of New Jersey are 
not included in the 2002 risk assessment. Is that correct? Is 
it in the current legislation?
    Admiral Larrabee. I believe that is correct.
    Senator Snowe. That obviously has to change. We'll have to 
make sure that it does change in that legislation as well. 
Captain Watson, you mention this 96 hour rule, that Admiral Loy 
has converted the 24 hour rule to 96 hours for notification. Is 
that for the crew list and passenger list?
    Captain Watson. It's for crew, passenger manifest.
    Senator Snowe. Manifest. Do you think that should be put in 
place permanently as 96 hours? Should we ever go back to 24 
hours?
    Captain Watson. I think we're living in a new world, and I 
support the 96 hour rule. I'm very cognizant of the cost on our 
transportation network for our security procedures as well but 
knowing that in some parts of the world these requirements are 
in effect for transiting canals and waterways and entering 
ports. I think when the maritime community realizes what they 
must do and must come up with with technology, the e-mail 
prospect, everything else, the Coast Guard can be given very 
good advance notice. And again the Coast Guard is going to be 
working with our Homeland Security Network to take all these 
comments we've said and I'm sure Governor Ridge is going to 
have his hands full putting it together to come out with a 
winning package. But yes, to answer your question, I would 
support that completely.
    Senator Snowe. I thank all of you for your excellent 
testimony here today and for providing us with, I think, some 
very valuable information as we proceed in the days and weeks 
ahead. I hope that you will share with us any additional 
information that you think would be helpful. As Admiral Loy 
said, we must get it right, and I couldn't agree with him more. 
Thank you all very much and Admiral Larrabee, we're just so 
very grateful that you're safe. Thank you. The hearing is 
adjourned.
    [Whereupon, at 12:40 p.m., the hearing was adjourned.]
                                APPENDIX

  Prepared Statement of Joseph N. Miniace, President and CEO, Pacific 
                          Maritime Association

    Mr. Chairman, Members of the Committee, I am Joseph Minace, 
President and Chief Executive Officer of the Pacific Maritime 
Association (PMA). On behalf of our member companies, I appreciate the 
Subcommittee's invitation to provide comments as part of the record of 
its October 11th hearing on sensitive maritime security issues. By way 
of background, the principle business of the PMA is to negotiate and 
administer maritime labor agreements with the International Longshore 
and Warehouse Union (ILWU). The membership of the PMA consists of 
domestic carriers, international carriers and stevedores that operate 
in California, Oregon and Washington.
    The PMA and its member companies extend our thoughts and prayers to 
the victims and their families of the terrorist attacks on September 
11. We also extend our prayers to those that are defending our nation 
and system of government. In this time of self-reflection we have much 
to be proud of and much to be thankful for.
    The events of September 11 stunned the world with their savagery, 
swiftness and disregard for human life. The attacks were well 
coordinated and hit at the very heart of our business, trade, emergency 
and military capabilities. But for the heroic actions of passengers on 
United flight 93 the toll could have been even higher and included 
other powerful symbols of our democracy. Due to the multiple 
coordinated attacks, everyone throughout our country was asking the 
question ``Who (or what) is going to be hit next?'' These attacks have 
been a wake-up call for us all--to assess the threats against us and 
evaluate our vulnerability to those threats. These attacks have changed 
the way we must do business.
    The Coast Guard is the Department of Transportation agency assigned 
to provide port security at our nations seaports. However, this is only 
one of the many duties they perform. In conjunction with other federal 
and state law enforcement agencies, the Coast Guard provides drug and 
fisheries patrols and law enforcement, alien migrant interdiction 
duties, marine environmental pollution regulation and on scene 
coordinator cleanup enforcement, hazardous materials shipping and 
marine safety inspections on passenger vessels, tankers, and cargo 
vessels, search and rescue, and port security. The Coast Guard is a 
uniformed service with domestic law enforcement authority as well as a 
military service that augments the Department of Defense in time of 
war. It is important to note that with all of the responsibility, the 
Coast Guard's budget and manning is at a 10 year low.

Maritime Domain Security
    The maritime industry and the governing federal agencies reacted 
immediately to the terrible events of September 11, 2001. The Coast 
Guard like every other Federal Agency went on high alert to reduce the 
vulnerability of our ports and terminals to ensure that no other 
attacks would occur. In Southern California, the Coast Guard 
immediately responded to the Pacific Maritime Association requests for 
planning and informational meetings about the incident and additional 
security measures. Waterside and shoreside patrols were increased. 
Vessels were boarded at anchorage prior to entry to check crew and 
cargo documents. Vessels were escorted into and out of the harbor. 
Tankers were restricted to daylight transits only.
    Other west coast Captains of the Port held meetings with the 
various maritime interests to develop best terminal security practices 
and worked cooperatively and systematically to increase port security 
coverage within their ports. They directed our members to review 
security plans for their terminals and increase security in light of 
the attacks. They inspected facilities for security perimeters, and 
increased container inspections.
    In San Diego and Port Huneme the Coast Guard worked in concert with 
the U.S. Customs Service, the U.S. Navy and the Port Police to maximize 
patrol coverage. Longshore workers going on military facilities to 
handle cargo have come under additional screening. The Coast Guard has 
brought in reservists and auxiliarists to augment their resources to 
accomplish this increase in security.
    We have seen a marked increase in Maritime Domain Security with the 
screening and vetting of vessels, offshore vessel boardings, a 
prototype ``Sea Marshal'' program in San Francisco, and the recent 
publication of the Temporary Final Rule in 33 CFR 160 Temporary 
Requirements for Notification of Arrival in U.S. Ports. We have also 
seen a large increase in waterside vessel patrols, and cruise vessel 
escorts. These efforts have been focused on reducing the vulnerability 
of a hostile crew taking over the control of a vessel, as well as a 
``USS Cole type'' external action against a vessel. Cruise vessels and 
their terminals have historically been required to implement heightened 
security and have Coast Guard approved Security Plans as outlined in 
NVIC 3-96 Security for Passenger Vessels and Passenger Terminals in the 
wake of the Achille Lauro incident in 1985 and the subsequent passage 
of the Omnibus Diplomatic Security and Antiterrorism Act of 1986.

Local Facility Security
    We have also seen some Local Facility Security increases but not to 
the same degree as the Maritime Domain Security increases. These 
efforts have been centered on inspecting the physical security 
perimeters of marine terminals, opening and inspecting more containers, 
and reviewing terminal security plans (generally developed under the 
requirement of OSHA rules in 29 CFR 1917.30 Emergency Action Plans). 
There are no comprehensive Coast Guard Regulations requiring terminal 
security measures. Terminal Security Sub-Committees set up under the 
auspices of the Marine Transportation System (MTS) port committees are 
in their infancy and are ramping up to provide input on the short term 
and long term security measures that should be in place in and around 
our marine terminals to the National MTS Committee.
    We feel the Coast Guard resources are stretched to the breaking 
point especially in the two largest ports in America--Los Angeles and 
Long Beach. The current tasking focus, primarily on Waterside Port 
Security in the aftermath of Sept 11th, has resulted in accomplishing 
this mission to the exclusion of all others. The Coast Guard should be 
funded, manned and equipped to be the premier Federal Maritime security 
agency. Working in concert with the U.S. Customs, the Coast Guard 
should be controlling the ``Local Facility Security'' as well as 
``Maritime Domain Security'' in and around our marine terminals.

Access to Waterfront Facilities
    At our facilities, we have an opportunity and an obligation to do 
better. Our west coast marine cargo terminals have grown to become 
small cities. 200-400 acre terminals are the norm in Los Angeles-Long 
Beach, and 50-100 acre terminals are the norm in Oakland and Tacoma. 
Thousands of trucks roll into and out of the terminals each day. 
Longshore workers, company employees, contractors, vendors, ship 
chandlers, ships crew and visitors, and package delivery companies all 
visit these terminals on a daily basis. Over 6\1/2\ million TEUs 
(twenty foot equivalent units) of containers will roll through the 
ports of Los Angeles--Long Beach this year. Given the volume of traffic 
moving in and out of marine terminals, coupled with the large number of 
itinerant workers involved in cargo operations, there is virtually open 
and unrestricted access to marine terminals.
    There is no regulatory requirement for each person to have 
identification; there is no regulatory requirement to check 
identification and positively determine that the person is who they say 
they are nor is there a system to track or validate one's presence on a 
marine terminal. Only truck drivers are required to present their 
license for access to a terminal--and that type of system is in place 
primarily to coordinate the pick up or delivery of cargo rather than 
for security reasons. Most terminals conduct these checks, but quite 
frankly some do not. There simply have been too many transactions on a 
day-to-day basis to check all identifications. The gates are backed up 
now. Additional delays to further check driver identification have not 
been acceptable. September 11 changed all that.
    While several steps may be needed as part of a long-term effort to 
secure the maritime transportation system, the most urgent priority is 
to establish controls over who has access to marine terminals. In most 
major ports, there are virtually no controls over who enters the 
terminals, leaving these critical facilities open to those who would 
engage in acts of sabotage or seek to move weapons of mass destruction 
through the port facilities.

Identification System
    A system that can and should be implemented with relative ease and 
not be intrusive would be to require all people seeking access to 
marine terminal facilities to have an identification card which would 
be used to record entry and exit to a waterfront facility.
    We have an obligation to check. We must know who is on a terminal 
at any time. We have the obligation to provide credentialing that 
positively identifies the bearer. Furthermore, we also have an 
opportunity that was not present when the current Coast Guard Port 
Security Card Program was implemented in WWII. Technology has changed 
tremendously. We need to employ the latest technology to quickly 
conduct positive identification checks as part of normal business. It 
is only through the comprehensive and integrated linking of technology 
that we can bring the enormity of the problem and the vulnerability at 
our marine terminals under control.
    First, in the near term, all persons coming into marine terminals 
should be required to carry an approved form of identification and be 
positively identified with that identification prior to entry. In the 
long term, integrated systems employing swipe cards, finger print/face/
iris readers or other advanced technology means must be used to effect 
a rapid positive identification.
    Persons that do not have credentials but who have a valid purpose 
for entering a waterfront facility, should be admitted to the facility 
but only if their identity and business purpose is verified by the port 
authority or a waterfront company. The credential must be coupled with 
a requirement that the card be scanned each time the worker passes 
through the entry gate to the terminal and verified against a database 
of scheduled bona fide workers.
    The Coast Guard should be able to prescribe the essential technical 
elements and protocols of an approved integrated identification system 
(much like Customs is doing with their International Trade Data System) 
and let the private sector build and run it.
    Identification of Vehicle Operators and Rail Employees To control 
and track the countless interchange of trucks and rail traffic, we 
would propose that all vehicle operators entering a waterfront facility 
must have an identification credential. This system must be integrated 
with other DOT agencies with oversight for workers coming on marine 
terminals (i.e., FRA and FHA). These identifications could be issued by 
an organization or entity approved by the cognizant agency (e.g. a port 
authority). The Coast Guard or other designated federal agency would 
have the responsibility for oversight and monitoring of these positive 
ID systems. One essential element is that these systems must be able to 
``talk'' to the Coast Guard and the other federal law enforcement 
agencies. If there is a ``look-out'' on a particular person the federal 
authorities should know if that person is attempting to enter a marine 
terminal.
    To illustrate just how far apart we currently are, we recently 
received an 85 page FBI look out list from MARAD with the latest 
Transportation Security Information Report (TSIR). It contained the 
names, aliases and addresses of hundreds of people of interest to the 
FBI. The TSIR asked that ``security personnel reconcile the name list 
with the names on your facility's employee access list.'' We have no 
way of screening this paper list with the thousands of truckers, and 
workers crossing into our terminals each day. If we are serious about 
security, we need an electronic system that can track people in the 
terminals and can also be used by the proper authorities to reconcile 
the lookout lists.

Advance notice of arrival
    Second, no one should arrive at a marine terminal unannounced. Just 
like the 96 hour notice of arrival requirement for the vessel, there 
should be a scheduled arrival requirement for truckers picking up 
containers, contractors, employees, vendors, ship chandlers and 
visitors. At some terminals over 3000 trucks arrive each day to drop 
off and pick up cargo. They are often queued in long lines that are 
inefficient, environmentally damaging and congest terminal gates. 
Automated appointment systems would have the triple benefit of 
improving security, relieving congestion and reducing idling pollution.
    Vessel crew lists should be provided to marine terminals in advance 
of the vessel arrival. Lists of vendors attending specific vessels 
should be provided to the terminal by the agent. Service and contract 
vehicles and drivers should be identified prior to arrival. Terminals 
should also be advised in advance of the trains and their crews 
operating within the terminal (on dock rail deliveries).
    With few exceptions, longshore workers are operated on a multi-
employer ``hiring hall'' employment basis. Longshore workers are 
dispatched on a daily basis to terminals each day and may work for more 
than one terminal on any given day or week. For the most part, 
individual terminal operators have no control over who is sent to work 
in their facilities, nor track who is present at any given time or why 
they are there. Dispatch for the workers, like the truckers, should be 
set up in advance, so terminal operators will have a complete list of 
who is authorized to enter their facility that day and time.
    An orderly flow will result in more time to process, scrutinize and 
record the identification of all persons entering marine terminals. 
Moreover, only bona fide scheduled workers will be admitted to the 
terminals.

Background Checks
    Criminal background checks must be performed on all personnel 
working on a marine terminal. However, as we proceed to increase 
security on our terminals, we need to be mindful of creating 
unnecessary disruption to the livelihood of the patriotic Americans 
that currently work at our terminals. Criteria must be established with 
respect to limiting the criminal background check to a specified period 
of time, limited to specific crimes and allow the workplace applicant 
the ability to present information that would be a mitigating 
circumstance or factor with respect to a criminal violation. Criminal 
background checks should be conducted by either federal, state or local 
law enforcement agencies who have access to national (and 
international) criminal databases. The private sector does not have the 
expertise or access to law enforcement databases that bona-fide law 
enforcement agencies possess. In addition, federal criminal background 
checks should not conflict with existing state law requiring criminal 
background checks if the state requirements are shown to be at least as 
effective as the federal requirements.

Drug and Alcohol Testing Requirements
    The marine terminal industry workers are exempt from federal 
statutory drug and alcohol testing requirements. Congress has enacted 
drug and alcohol testing requirements for employees working in every 
other intermodal transportation mode. Substance abuse on marine 
terminals is not only a health and safety concern, but compromises the 
integrity of waterfront security.

Stakeholder Participation
    Finally, any federal legislation addressing seaport security must 
provide local terminal operators, ocean carriers, labor unions and 
others with a voice in developing seaport security plans. Each terminal 
is unique in terms of geography, customers, cargo and facilities--and 
thus faces different threats and vulnerabilities. We are currently 
working with the local Marine Transportation Systems (MTS) groups. 
Terminals must be given an opportunity to help shape measures 
implemented to ensure their security. With this flexibility, however, 
comes a responsibility and the need for some type of sanctions or 
enforcement on terminal operators for failure to implement mandated 
security requirements. At present there are few regulatory requirements 
for terminal security. As we go forward, the requirements developed 
should be formalized to ensure uniform application throughout our 
ports.
    In summary, the PMA greatly appreciates the efforts of the United 
States Coast Guard and other federal and local law enforcement agencies 
following the terrorist attacks of September 11. The security of our 
seaports is a national security issue. We must focus on awareness, 
preparation and prevention. The PMA member companies stand ready to 
work with the Congress and agencies such as the United States Coast 
Guard in an effort to deter the use of our seaports as a vehicle for 
terrorist attacks--and to maintain the viability, vitality and 
integrity of our marine transportation system.

                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                          Admiral James M. Loy

    Senators Lieberman and Spector have proposed in S. 1534, the 
Department of National Homeland Security Act of 2001, that the Coast 
Guard leave the Department of Transportation and become an entity under 
the Department of National Homeland Security. At the hearing, you 
recognized that many of Coast Guard's missions (including maritime law 
enforcement, navigational safety, fisheries enforcement, and 
environmental protection) are being compromised to ensure port security 
at this time. While this focus on port security is imperative for the 
time being, it is important that the Coast Guard also maintain its 
other missions.

  <bullet> Do you feel all of these areas would remain a priority for 
        the Coast Guard if it is housed in the Department of National 
        Homeland Security?

  <bullet> Which missions are likely to be more difficult to maintain 
        if the Coast Guard receives direction from this office?

Priority of Mission
    Question. Do you feel all of these areas would remain a priority 
for the Coast Guard if it were located in the Department of National 
Homeland Security?
    Answer. The Department of National Homeland Security was proposed 
by Senator Lieberman in the Department of National Homeland Security 
Act of 2001 (S.1534).
    The Coast Guard's current location within the Department of 
Transportation creates efficiencies and promotes cooperation across 
different modes of transportation. Our Marine Transportation System 
(MTS) is linked to our surface transportation system via intermodal 
connectors; passengers travel via air to embark on cruise ships. Ferry 
passengers use surface transportation modes traveling to and from water 
transit facilities, and cargo moves from ships and barges to trucks, 
rail and pipeline and vice versa throughout the transportation system. 
Many of our critical activities are linked to sustaining the MTS.
    The Coast Guard's military, maritime, and multi-mission nature is 
of enduring value to the nation's economic and national security. 
Ports, Waterways, and Coastal Security activities are expected to make 
up 25 percent or less of the Coast Guards total operating expenses 
budget in 2003. The Coast Guard will need continued support of its 
traditional critical missions as the service reaches a ``new 
normalcy.''

Mission Difficulty
    Question. Which missions are likely to be more difficult to 
maintain if the Coast Guard receives direction from this office?
    Answer. The Department of National Homeland Security was proposed 
by Senator Lieberman in the Department of National Homeland Security 
Act of 2001 (S.1534).
    All Coast Guard missions (Maritime Safety, Maritime Security, 
Protection of Natural Resources, Maritime Mobility, and National 
Defense) are critical to the national security and economic interests 
of America. Flexibility to adjust to changing conditions is the Coast 
Guard's greatest strength. However, flexibility exposes other missions 
to less attention as the Coast Guard focuses on keeping Ports, 
Waterways, and Coastal Security as ``Mission 1'' alongside Search and 
Rescue.
    The Coast Guard is developing a multi-year plan to attain an 
appropriate and sustainable level of resources across all missions 
under its new normalcy. The President's Fiscal Year 2003 Budget request 
is critical to maintaining a balance among the Coast Guard's national 
and economic security responsibilities.

                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                             Scott B. Gudes

    Question 1. Mr. Gudes, you mentioned the Maritime Transportation 
System and electronic charts in your testimony before the Subcommittee. 
Obviously, electronic charts will improve navigation in our waters. Can 
this technology be used to assist the Coast Guard in protecting our 
ports and harbors?
    Answer. NOAA' s Electronic Navigational Charts (ENC) can be used to 
assist the Coast Guard with port security. Modem electronic information 
systems will continue to be key tools for maritime security, port 
safety and uninterrupted maritime commerce. Mariners need accurate, 
real-time information displays such as the Coast Guard's Automatic 
Identification System and NOAA's ENCs integrated with differential GPS 
positioning, water level and current data, weather conditions and 
forecasts in order to make informed and safe decisions. NOAA's regional 
communications links across the military, government and private sector 
port communities provide an additional element of coordination to port 
security. NOAA can rapidly disseminate chart updates and critical chart 
corrections to the mariner, and create and distribute temporary charts, 
overlays, and data sets as needed by primary responders like the Coast 
Guard and the Navy. The Coast Guard, port authorities and marine pilots 
require this information to improve awareness, manage vessel traffic, 
identify potential problems and respond to incidents when they do 
occur. NOAA's ENCs are also viable geographic information systems that 
can support port vulnerability and risk management assessments as the 
Coast Guard and ports develop contingency plans for security and threat 
capability.

    Question 2. NOAA has assets, ships and airplanes that could be 
deployed to support the Coast Guard. Can NOAA use any of these assets 
to improve Homeland Security? Would these activities still be within 
mission areas, or are they a significant departure from core 
activities? Would this compromise NOAA's ability to carry out its core 
mission?
    Answer. Some of NOAA's ships and aircraft have been used for 
Homeland Security activities and these platforms could be used for 
other Homeland Security activities. Examples of Homeland Security 
activities to date are NOAA aircraft LIDAR surveys of the World Trade 
Center's debris area and the Pentagon after the September 11 attack, 
helicopter security surveys of MacDill Air Force Base and NOAA ship 
hydrographic surveys of harbors. To date, NOAA ships and aircraft have 
not been diverted from core missions. The helicopter security surveys 
of MacDill, where NOAA's Aircraft Operations Center is located, have 
been conducted on an as available basis. The hydrographic surveys of 
harbors and approaches, being done in cooperation with the Navy to 
establish baseline survey data on all U.S. ports, have caused NOAA to 
divert a small portion of its resources from previously planned work in 
Critical Survey Backlog areas. However, the harbor surveys will provide 
navigationally significant data and will be used to update NOAA charts, 
and they do fall within NOAA's core mission area. It is possible that, 
if a decision were made to have NOAA platforms assist the Coast Guard 
or be used to meet some of the nation's other Homeland Security needs, 
NOAA's ability to carry out core missions could be compromised, but 
this has not happened to date.

    Question 3. Several of the witnesses discussed the need for 
Physical Oceanographic Real-Time Systems (PORTS) in our nation's major 
ports and harbors. How does this program fit into national security?
    Answer. In the event of the forced evacuation of a harbor or detour 
of ships, NOAA's tide and current information will be invaluable to 
support safe passage and continued maritime commerce. The Physical 
Oceanographic Real-Time System (PORTS) provides rapid updates of water 
levels, tides and currents. If vessels must leave port immediately, the 
only way to determine a safe departure time is to use NOAA's real-time 
and forecast PORTS data. When integrated with GPS technology, these 
data help to calculate under keel clearances for a vessel's transit, 
thereby reducing the possibility of ships going aground, blocking other 
vessels and channels, spilling contaminants, or becoming additional 
targets. For example, an explosion triggered on a Liquefied Natural Gas 
vessel or oil tanker trapped in port would likely cause large areas of 
destruction. NOAA's models of oceanographic and atmospheric conditions 
and pollution transport provide crucial advance data for re-routing of 
vessel traffic, port conditions forecasts, and low visibility 
navigation to keep traffic moving and prevent congestion in other less 
affected areas. Marine modeling supports predictions of the oceanic and 
atmospheric dispersion of hazardous materials to protect people and the 
environment.

    Question 4. Mr. Gudes, chemical or biological agents could easily 
come into this country through our ports. What can NOAA do to assist in 
response or planning efforts to combat such an event?
    Answer. NOAA's skilled Hazardous Materials and Response scientists 
respond to dozens of spills of oil and other hazardous materials each 
year. They also help emergency planners prepare for potential accidents 
by developing and sharing software, databases and other tools of 
hazardous material response. NOAA's trajectory forecasts, atmospheric 
dispersion models, and chemical threat analyses allow emergency 
responders to make timely operational decisions. In partnership with 
the Coast Guard, NOAA helps to assess specific chemical transportation 
threats and conducts toxic air dispersion and waterborne pollution 
trajectory modeling for specified high-threat chemicals. By working 
with ports to evaluate their development plans, NOAA can help to 
pinpoint likely areas of risk related to security and help establish 
disaster resistant ports.


</pre></body></html>
